<html>
<title> - UNITED STATES DEPARTMENT OF JUSTICE</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                  UNITED STATES DEPARTMENT OF JUSTICE 

=======================================================================

                                HEARING

                               BEFORE THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 15, 2013

                               __________

                           Serial No. 113-43

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

80-973 PDF                       WASHINGTON : 2013 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
   Office Internet: bookstore.gpo.gov Phone: toll free (800) 512-1800; 
          DC area (202) 512-1800 Fax: (202) 512-214 Mail: Stop IDCC, 
                      Washington, DC 20402-0001



                       COMMITTEE ON THE JUDICIARY

                   BOB GOODLATTE, Virginia, Chairman
F. JAMES SENSENBRENNER, Jr.,         JOHN CONYERS, Jr., Michigan
    Wisconsin                        JERROLD NADLER, New York
HOWARD COBLE, North Carolina         ROBERT C. ``BOBBY'' SCOTT, 
LAMAR SMITH, Texas                       Virginia
STEVE CHABOT, Ohio                   MELVIN L. WATT, North Carolina
SPENCER BACHUS, Alabama              ZOE LOFGREN, California
DARRELL E. ISSA, California          SHEILA JACKSON LEE, Texas
J. RANDY FORBES, Virginia            STEVE COHEN, Tennessee
STEVE KING, Iowa                     HENRY C. ``HANK'' JOHNSON, Jr.,
TRENT FRANKS, Arizona                  Georgia
LOUIE GOHMERT, Texas                 PEDRO R. PIERLUISI, Puerto Rico
JIM JORDAN, Ohio                     JUDY CHU, California
TED POE, Texas                       TED DEUTCH, Florida
JASON CHAFFETZ, Utah                 LUIS V. GUTIERREZ, Illinois
TOM MARINO, Pennsylvania             KAREN BASS, California
TREY GOWDY, South Carolina           CEDRIC RICHMOND, Louisiana
MARK AMODEI, Nevada                  SUZAN DelBENE, Washington
RAUL LABRADOR, Idaho                 JOE GARCIA, Florida
BLAKE FARENTHOLD, Texas              HAKEEM JEFFRIES, New York
GEORGE HOLDING, North Carolina
DOUG COLLINS, Georgia
RON DeSANTIS, Florida
[Vacant]

           Shelley Husband, Chief of Staff & General Counsel
        Perry Apelbaum, Minority Staff Director & Chief Counsel



                            C O N T E N T S

                              ----------                              

                              MAY 15, 2013

                                                                   Page

                           OPENING STATEMENTS

The Honorable Bob Goodlatte, a Representative in Congress from 
  the State of Virginia, and Chairman, Committee on the Judiciary     1
The Honorable John Conyers, Jr., a Representative in Congress 
  from the State of Michigan, and Ranking Member, Committee on 
  the Judiciary..................................................     3

                                WITNESS

The Honorable Eric J. Holder, Jr., Attorney General, United 
  States Department of Justice
  Oral Testimony.................................................     5
  Prepared Statement.............................................     8

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Material submitted by the Honorable Sheila Jackson Lee, a 
  Representative in Congress from the State of Texas, and Member, 
  Committee on the Judiciary.....................................    33
Material submitted by the Honorable Judy Chu, a Representative in 
  Congress from the State of California, and Member, Committee on 
  the Judiciary..................................................    48
Material submitted by the Honorable John Conyers, Jr., a 
  Representative in Congress from the State of Michigan, and 
  Ranking Member, Committee on the Judiciary.....................    99
Material submitted by the Honorable Bob Goodlatte, a 
  Representative in Congress from the State of Virginia, and 
  Chairman, Committee on the Judiciary...........................   103
Material submitted by the Honorable Sheila Jackson Lee, a 
  Representative in Congress from the State of Texas, and Member, 
  Committee on the Judiciary
    Submission One...............................................   116
    Submission Two...............................................   118
    Submission Three.............................................   119
    Submission Four..............................................   188
Material submitted by the Honorable Darrell E. Issa, a 
  Representative in Congress from the State of California, and 
  Member, Committee on the Judiciary.............................   121

                                APPENDIX
               Material Submitted for the Hearing Record

Questions for the Record submitted to the Honorable Eric J. 
  Holder, Jr., Attorney General, United States Department of 
  Justice........................................................   216


                  UNITED STATES DEPARTMENT OF JUSTICE

                              ----------                              


                        WEDNESDAY, MAY 15, 2013

                        House of Representatives

                       Committee on the Judiciary

                            Washington, DC.

    The Committee met, pursuant to call, at 1:08 p.m., in room 
2141, Rayburn House Office Building, the Honorable Bob 
Goodlatte (Chairman of the Committee) presiding.
    Present: Representatives Goodlatte, Sensenbrenner, Coble, 
Smith, Chabot, Bachus, Issa, Forbes, King, Franks, Gohmert, 
Jordan, Poe, Chaffetz, Marino, Gowdy, Amodei, Labrador, 
Farenthold, Holding, Collins, DeSantis, Conyers, Nadler, Scott, 
Watt, Lofgren, Jackson Lee, Cohen, Johnson, Chu, Deutch, Bass, 
Richmond, DelBene, Garcia, and Jeffries.
    Staff Present: (Majority) Shelley Husband, Chief of Staff & 
General Counsel; Branden Ritchie, Deputy Chief of Staff & Chief 
Counsel; Allison Halataei, Parliamentarian & General Counsel; 
Sarah Allen, Counsel; Caroline Lynch, Counsel; Kelsey 
Deterding, Clerk; (Minority) Perry Apelbaum, Staff Director & 
Chief Counsel; Danielle Brown, Parliamentarian; and Aaron 
Hiller, Counsel.
    Mr. Goodlatte. The Committee will come to order. Without 
objection, the Chair is authorized to declare recesses of the 
Committee at any time.
    We welcome everyone to today's hearing on the oversight of 
the United States Department of Justice.
    Welcome, Attorney General Holder, to your sixth appearance 
before the House Judiciary Committee since your confirmation in 
2009. We are happy to have you here with us today.
    Last month, the City of Boston and the Nation as a whole 
was gripped with fear as the historic Boston Marathon, 
traditionally a day of celebration, was attacked by twin 
explosions that killed 3 people and injured more than 250. 
Dzhokhar Tsarnaev and his older brother Tamerlan Tsarnaev set 
off the explosions, then shot and killed MIT police officer 
Sean Collier and seriously wounded Boston transit police 
officer Richard Donohue while attempting to elude capture.
    Tamerlan died after a fierce gun battle with police. 
Dzhokhar eventually surrendered after sustaining serious 
injuries himself.
    I would like to commend the FBI and all of the Federal, 
State, and local law enforcement agents who worked tirelessly 
to identify the bombers and apprehend Dzhokhar. The Patriots 
Day attack in Boston shows us that domestic terror threats are 
real, ongoing, and can have deadly consequences. In 2010, FBI 
Director Mueller and other intelligence officials warned us 
that domestic and lone wolf extremists are now just as serious 
a threat to our safety as al-Qaeda.
    We have been fortunate that until April 15th of this year 
previous domestic terror plots have been foiled. The bombings 
in Boston remind us that the terror threat has not diminished, 
but that it is ever present and evolving. It is critical that 
Congress and this Committee in particular ensure that our 
ability to detect, deter, and prosecute these threats keeps 
pace with this evolution.
    To that end, I look forward to hearing from you today about 
ways that Congress can amend the Federal rules for criminal 
cases to make sure that we are able to prosecute terrorism 
cases while still allowing law enforcement to learn critical 
information to stop future attacks. I am also concerned about 
reports that in the years leading up to the Boston attack, 
several different Federal agencies or departments received 
intelligence about the bombers.
    These agencies did not connect the dots, and this is not 
the first time that this has happened in recent years. The 
question that the Administration and we in Congress need to 
address is whether there are any improvements that can be made 
going forward to facilitate interagency information sharing so 
that we can better thwart future domestic terrorists.
    I am also interested today to hear about how the Department 
intends to tighten its belt in a responsible way during this 
time of fiscal uncertainty. I was pleased to hear that the 
Department was ultimately able to prioritize its spending to 
avoid furloughing Federal agents and prison guards in response 
to the sequester, which reduced the Department's more than $27 
billion budget by approximately 5 percent.
    However, after learning of elaborate conferences with $12 
cups of coffee, $10,000 pizza parties, and a vast array of 
duplicative grant programs and the purchase of a $170 million 
prison from the State of Illinois, I am confident there are 
many ways the Department can root out waste and duplication 
without harming critical missions. With our national debt at 
more than $16 trillion, the American people deserve no less.
    I am also deeply concerned about a pattern I see emerging 
at the Department under your leadership in which conclusions 
reached by career attorneys after thorough investigation are 
overruled by Administration appointees for political reasons. 
For instance, investigators from this Committee and the 
Oversight and Government Reform Committee have uncovered 
conclusive evidence that Assistant Attorney General Tom Perez, 
against the strong recommendations of career attorneys, struck 
a secret deal with the City of St. Paul in order to block the 
Supreme Court----
    Mr. Nadler. Point of order, Mr. Chairman. That is not 
correct information. That is not what the Subcommittee found.
    Mr. Goodlatte. The gentleman will have his opportunity to 
speak at a later time.
    This secret deal undermined the rule of law and robbed the 
American taxpayers of the opportunity to recover over $200 
million in fraudulently obtained funds.
    What is more, the New York Times recently reported that 
political appointees at the Department, over the vehement 
objections of career attorneys, decided to commit as much as 
$4.4 billion in taxpayer money to compensate thousands of 
farmers who had never claimed bias in court. A small group of 
female and Hispanic farmers, based on claims similar to those 
in Pigford, had made allegations that the Department of 
Agriculture had discriminated against them in administering its 
loan programs.
    However, according to the Times, career attorneys within 
the Department determined that there was no credible evidence 
of widespread discrimination and that the legal risks did not 
justify the costs and that it was legally questionable to 
sidestep Congress and compensate the farmers out of the 
judgment fund.
    Just last week, we learned that IRS employees have 
admittedly targeted conservative groups for additional and 
unwanted scrutiny just because they chose to exercise their 
First Amendment rights. This is outrageous, and Congress and 
the American people expect answers and accountability.
    Finally, just 2 days ago, it was revealed that the Justice 
Department obtained telephone records for more than 20 
Associated Press reporters and editors over a 2-month period. 
These requests appear to be very broad and intersect important 
First Amendment protections.
    Any abridgment of the First Amendment right to the freedom 
of the press is very concerning, and Members of the Committee 
want to hear an explanation today.
    I look forward to hearing your answers on all of these 
important topics today, as well as on other issues of 
significance to the Justice Department and the country.
    And it is now my pleasure to recognize for his opening 
statement the Ranking Member of the Committee, the gentleman 
from Michigan, Mr. Conyers.
    Mr. Conyers. Thank you, Chairman Goodlatte.
    Today is Peace Officers Memorial Day, and I would like to 
begin by honoring those who gave the ultimate sacrifice in 
serving our Nation, the fallen officers who selflessly defend 
our streets and keep our communities safe. As flags across the 
country fly at half staff, our thoughts turn toward these brave 
law enforcement officers and officials, and I thank each and 
every officer for their dedicated public service.
    Members of the Committee, first, with respect to the 
Government's subpoena of phone records at the Associated Press, 
I am troubled by the notion that our Government would pursue 
such a broad array of media phone records over such a long 
period of time. At the same time, I know also that the Attorney 
General himself has recused himself from the investigation, and 
we will hear more about that.
    Policy questions on this topic are fair, and I want you to 
know that I intend to reintroduce the Free Flow of Information, 
which passed the House floor with overwhelming support 
bipartisan in both the 110th and 111th Congress, and we hope to 
do so with the continued support of Members of this Committee 
on the other side of the aisle.
    This Federal press shield bill would require the Government 
to show cause before they may compel disclosure of this sort of 
information from or about a news media organization. It is a 
common sense measure. It has comparable provisions in 49 other 
States and the District of Columbia. I would also note that the 
Free Flow of Information Act that protects the media against 
overbroad Government investigation, that has been commented 
publicly by many Members of the Congress, as well as the 
Administration.
    We have also learned that some employees at IRS appear to 
have improperly targeted Tea Party groups as they applied for 
tax exempt status. No one takes allegations of discriminatory 
enforcement of the law more seriously than myself, and I thank 
the Attorney General for opening an investigation to uncover 
any criminal activity.
    And then there is no issue more important than the 
continuing mission to ensure the safety and security of the 
American public. The Department and local law enforcement are 
to be commended for their coordinated response in identifying 
and apprehending the apparent perpetrators in the Boston 
bombings.
    I have no doubt, Mr. Attorney General, that your own 
investigation into this matter will carefully review and 
consider gaps in our counterterrorism efforts that need to be 
addressed.
    I also want to commend the Department of Justice and the 
FBI for their commitment to the most powerful counterterrorism 
tools in our arsenal, the Federal criminal process and the 
Federal court system. Since September 11, 2001, Federal courts 
have convicted nearly 500 individuals on terrorism-related 
charges. Military commissions have at best a troubled track 
record and have convicted only seven individuals and have never 
successfully prosecuted a U.S. citizen.
    Mr. Attorney General, your commitment to the rule of law in 
this matter is to be commended not just because it is the right 
thing to do, but also because it keeps us safer in the long 
run.
    And finally, I would like to recognize the dedication to 
the enforcement of civil rights and voting under the law. Under 
your leadership and under the leadership of the Assistant 
Attorney General Tom Perez, the Department has obtained $660 
million in lending settlements, including the three largest 
discrimination settlements in the Department's history. Has 
obtained a $128 million award recovery in an employment 
discrimination case in history, secured $16 million as a part 
of a settlement to enforce the Americans with Disabilities Act 
at more than 10,000 banks and other financial retail offices 
across the country.
    And last year alone, the Civil Rights Division of the 
Department of Justice opened 43 new voting rights cases, more 
than twice the number than in any previous year, filed 13 
additional objections to the discriminatory voting practices 
under Section 5 of the Voting Rights Act. And of course, all 
this has been done with devastating reductions in the 
Department's budget that I will put in the record and, of 
course, sequester, which further aggravates this problem.
    That means that the cuts will affect our first responders, 
will mean fewer cases brought to court, fewer police officers 
on the street, fewer resources dedicated to keeping our 
citizens safe.
    And so, I look forward to you elaborating on those issues 
raised by the Chairman of the Committee and myself, and I 
suspect that you will need more than 5 minutes to do so.
    I thank you, Mr. Chairman, and I return my time.
    Mr. Goodlatte. I thank the gentleman for his opening 
statement.
    Without objection, other Members' opening statements will 
be made a part of the record.
    And without objection, the Chair will be authorized to 
declare recesses during votes on the House floor.
    We again thank our only witness, the Attorney General of 
the United States, for joining us today. And Attorney General 
Holder, if you would please rise, I will begin by swearing you 
in.
    [Witness sworn.]
    Mr. Goodlatte. Thank you. And let the record reflect that 
Attorney General Holder responded in the affirmative.
    Our only witness today is United States Attorney General 
Eric H. Holder Jr. On February 3, 2009, General Holder was 
sworn in as the 82nd Attorney General of the United States. 
General Holder has enjoyed a long career in both the public and 
private sectors.
    First joining the Department of Justice through the 
Attorney General's Honors Program in 1976, he became one of the 
Department's first attorneys to serve in the newly formed 
Public Integrity Section. He went on to serve as a judge of the 
Superior Court of the District of Columbia and the United 
States attorney for the District of Columbia.
    In 1997, General Holder was named by President Clinton to 
be the Deputy Attorney General. Prior to becoming Attorney 
General, he was a litigation partner at the Covington and 
Burling law firm in Washington, D.C. General Holder, a native 
of New York City, is a graduate of Columbia University and 
Columbia School of Law.
    General Holder, we appreciate your presence today and look 
forward to your testimony. Your entire written statement will 
be entered into the record, and we ask that you summarize your 
testimony in 5 minutes.
    The gentleman noted that may be difficult, but we will 
appreciate as close to that mark as you can keep. And the time 
is yours, General Holder.

   TESTIMONY OF THE HONORABLE ERIC J. HOLDER, JR., ATTORNEY 
          GENERAL, UNITED STATES DEPARTMENT OF JUSTICE

    Attorney General Holder. I bet I can get it under 5 
minutes.
    But anyway, good afternoon, Chairman Goodlatte, Ranking 
Member Conyers. I appreciate this opportunity to appear before 
all of you today to discuss the Justice Department's recent 
achievements and to provide an overview of our top priorities.
    Particularly in recent years, the Department has taken 
critical steps to prevent and to combat violence, to confront 
national security threats, and to ensure the civil rights of 
everyone in this country, and to safeguard the most vulnerable 
members of our society.
    Thanks to the extraordinary efforts of my colleagues, the 
nearly 116,000 dedicated men and women who serve in the Justice 
Department offices around the world, I'm pleased to report that 
we have established a remarkable record of progress in 
expanding our Nation's founding promise of equal justice under 
law and ensuring the safety and the security of all of our 
citizens.
    Now the need to continue these efforts and to remain 
vigilant against a range of evolving threats was really brought 
into sharp focus last month in the most shocking of ways when a 
horrific terrorist attack in Boston left three innocent people 
dead and hundreds injured.
    In the days that followed, thanks to the valor of State and 
local police, the dedication of Federal law enforcement and 
intelligence officials, and the cooperation of members of the 
public, those suspected of carrying out this terrorist act were 
identified. One suspect died following a shootout with police, 
and the other has been brought into custody and charged in 
Federal court with using a weapon of mass destruction. Three 
others have been charged in connection with the investigation 
of this case, which is active and ongoing.
    As we continue working to achieve justice on behalf of our 
fellow citizens and brave law enforcement officers who were 
injured and killed in connection with these tragic events, and 
to hold accountable to the fullest extent of the law all who 
were responsible for this heinous attack, I want to assure you 
that my colleagues and I are also committed to strengthening 
our broader national security efforts.
    For the past 4 years, we have identified, investigated, and 
disrupted multiple potential plots involving foreign terrorist 
organizations as well as homegrown extremists. We've secured 
convictions as well as tough sentences against numerous 
individuals for terrorism-related offenses. We've utilized 
essential intelligence gathering and surveillance capability in 
a manner that is consistent with the rule of law and consistent 
with our most treasured values.
    Beyond this work, my colleagues and I are enhancing our 
focus on a variety of emerging threats and persistent 
challenges from drug trafficking and transnational organized 
crime to cyber threats and human trafficking. We're moving to 
ensure robust enforcement of our antitrust laws, to combat tax 
fraud schemes, and to safeguard the environment.
    We're building on the significant progress that's been made 
in identifying and thwarting financial and healthcare-related 
fraud crimes. And for example, in fiscal year 2012, our fraud 
detection and enforcement efforts resulted in the record-
breaking recovery and return of roughly $4.2 billion.
    Over the last 3 fiscal years alone, thanks to the 
President's Financial Fraud Enforcement Task Force and its 
Federal, State, and local partners, we have filed nearly 10,000 
financial fraud cases against nearly 14,500 defendants, 
including more than 2,000 mortgage fraud defendants.
    As these actions prove, our resolve to protect consumers 
and to seek justice against anyone who would seek to take 
advantage of their fellow citizens has never been stronger. And 
the same can be said of the Department's vigorous commitment to 
the enforcement of key civil rights protections.
    Since 2009, this commitment has led our Civil Rights 
Division to file more criminal civil rights cases than ever 
before, including record numbers of human trafficking cases. 
Under new tools and authorities, including the Matthew Shepard 
and James Byrd Jr. Hate Crimes Prevention Act, we have improved 
our ability to safeguard our civil rights and pursue justice 
for those who are victimized because of their gender, their 
sexual orientation, their gender identity, or their disability.
    We will continue to work to guarantee that in our 
workplaces and in our military bases, in our housing and 
lending markets, in our schools and our places of worship, in 
our immigrant communities, and also in our voting booths that 
the rights of all Americans are protected.
    But all of this is really only the beginning. As we look 
toward the future, my colleagues and I are also determined to 
work closely with Members of Congress to secure essential 
legislative changes, including common sense steps to prevent 
and to reduce gun violence and comprehensive legislation to fix 
our Nation's broken immigration system.
    It is long past the time to allow the estimated 11 million 
individuals who are here in an undocumented status to step out 
of the shadows, to guarantee that all are playing by the same 
rules, and to require responsibility from everyone, both 
undocumented workers and those who would hire them.
    Like many of you, I am encouraged to see that these basic 
principles are reflected in the bipartisan reform proposal that 
is currently being considered by the Senate. The Department 
will do all that it can to help strengthen that proposal and to 
advance a constructive, responsible dialogue on this issue.
    I understand that this Committee and other Members are 
working on immigration reform proposals as well, and I look 
forward to working with you as those efforts move forward to 
enact comprehensive reforms.
    However, I must note that our capacity to continue building 
upon the Department's recent progress is threatened by the 
long-term consequences of budget sequestration and joint 
committee reductions, which will worsen in fiscal year 2014 
unless Congress adopts a balanced deficit reduction plan. 
Should Congress fail to do so, I fear that these reductions 
will undermine our ability to deliver justice for millions of 
Americans and to keep essential public safety professionals on 
the job.
    We simply cannot allow this to happen. This afternoon, I 
ask for your support in preventing these cuts and ensuring that 
the Department has the resources it needs to fulfill its 
critical missions.
    I thank you once again for the chance to discuss our 
current efforts with you today, and I would be happy to answer 
any questions that you might have. I see I didn't make my 5 
minutes.
    [The prepared statement of Attorney General Holder 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                               __________

    Mr. Goodlatte. Your consideration was very good, and you 
were close. And we thank you for your opening statement. We 
will now proceed with questions under the 5-minute rule, and I 
will begin by recognizing myself for 5 minutes.
    You, in fact, addressed in your remarks my first question, 
which deals with the troubling information that was received by 
the FBI and other agencies of the Government prior to the 
Boston Marathon bombing, but it does not appear that all of the 
information was received by all of the pertinent parties, 
particularly the FBI, which had conducted an investigation 
prior to Tamerlan Tsarnaev's trip to Russia, but not after.
    And we would like to continue to work with you and know 
what the Department is doing to adopt procedures for handling 
hits in relevant databases and making sure that the information 
between agencies is improved.
    Attorney General Holder. Well, we certainly want to work 
with you in that regard. There is an ongoing Inspector General 
investigation, as you know, as to how information was or was 
not shared in the context that you have described.
    I think that, generally, FBI did a very good job in 
acquiring information to the extent that it could. I'm not at 
all certain that all of the responses--or all of the requests 
that were made to a foreign country by the FBI were replied to 
in an adequate manner, and I think that is at least one of the 
problems that we have.
    But this matter is ongoing by the IGs.
    Mr. Goodlatte. In 2010--this relates to the aftermath of 
the arrest of Dzhokhar Tsarnaev. In 2010, you indicated strong 
support for modifying the criminal rules to ensure that 
investigators could obtain critical intelligence from terrorism 
suspects.
    Specifically, you said in 2010, ``We are now dealing with 
international terrorists, and I think that we have to think 
about perhaps modifying the rules that interrogators have in 
somehow coming up with something that is flexible and is more 
consistent with the threat that we now face.''
    Can you articulate how the Department would propose fixing 
the relevant rules, and would you be willing to work with 
Members of the Committee to ensure that our criminal rules are 
up to the task of handling terrorism questions, particularly 
this issue of how long the FBI or other law enforcement can 
question somebody about imminent threats?
    There is a Supreme Court case recognizing that, but it 
collides with another Supreme Court case saying you have to be 
presented within 48 hours. And obviously, that caused some 
consternation about the completion of the questioning by the 
FBI about future events, other conspirators, and the location 
of bombs and other equipment related to this terrorist attack.
    Attorney General Holder. Yes, I think you're right, Mr. 
Chairman. There is a tension between the public safety 
exception, as defined in the Quarles case and Rule 5 of the 
Rules of Criminal Procedure. There was a proposal that we 
floated out there that I talked about. What I would prefer to 
do would be to work with Members of Congress who are interested 
perhaps in looking at the world as we see it now.
    The Quarles case dealt with somebody who was asked, ``Where 
is the gun?'' The reality is, as we deal with terrorist 
suspects, there are much more broad questions that we need to 
ask, much more detailed information that we need to know. Who 
else was involved in this matter? Are there other explosive 
devices that we need to know about? Are there other threats 
that are going to happen not only today, but perhaps in the 
next 2 or 3 days?
    And so, it seems to me that the need for an extensive 
Quarles public safety exception question period would be 
appropriate. I think that this would require interaction 
between the executive and legislative branches to come up with 
something that would pass constitutional muster.
    Mr. Goodlatte. It was recently reported by the Justice 
Department or reported that the Justice Department obtained 2 
months of telephone records of more than 20 reporters and 
editors with the Associated Press, including both work and 
personal phone lines. There has been a lot of criticism raised 
about the scope of this investigation, including why the 
Department needed to subpoena records for 20 people over a 
lengthy 2-month period. Why was such a broad scope approved?
    Attorney General Holder. Yes, there's been a lot of the 
criticism. In fact, the head of the RNC called for my 
resignation in spite of the fact that I was not the person who 
was involved in that decision. But be that as it may, I was 
recused in that matter, as I described, in a press conference 
that I held yesterday. The decision to issue this subpoena was 
made by the people who are presently involved in the case. The 
matter is being supervised by the Deputy Attorney General.
    I am not familiar with the reasons why the case--why the 
subpoena was constructed in the way that it was because I'm 
simply not a part of the case.
    Mr. Goodlatte. It is my understanding that one of the 
requirements before compelling process from a media outlet is 
to give the outlet notice. Do you know why that was not done?
    Attorney General Holder. There are exceptions to that rule. 
I do not know, however, with regard to this particular case why 
that was or was not done. I simply don't have a factual basis 
to answer that question.
    Mr. Goodlatte. And it has also been reported that the 
Associated Press refrained from releasing this story for a week 
until the Department confirmed that doing so would not 
jeopardize national security interests. That indicates that the 
AP was amenable to working with you on this matter.
    If that is the case, why was it necessary to subpoena the 
telephone records? Did you seek the AP's assistance in the 
first place? And if not, why not?
    Attorney General Holder. Again, Mr. Chairman, I don't know 
what happened there with the interaction between the AP and the 
Justice Department. I was recused from the case.
    Mr. Goodlatte. I take it that you or others in the Justice 
Department will be forthcoming with those answers to those 
questions as you explore why this was handled what appears to 
be contrary to the law and standard procedure.
    Attorney General Holder. Well, again, there are exceptions 
to some of the rules that you pointed out, and I have faith in 
the people who actually were responsible for this case that 
they were aware of the rules and that they followed them. But I 
don't have a factful basis to answer the questions that you 
have asked because I was recused. I don't know what has 
happened in this matter.
    Mr. Goodlatte. Thank you very much.
    My time has expired. And I now recognize the gentleman from 
Michigan, Mr. Conyers, for 5 minutes.
    Mr. Conyers. Thank you, Mr. Chairman.
    I note that some of our Members have been outspoken in 
opposition to the Free Flow of Information Act in the past and 
have commented publicly about their outrage over the Associated 
Press subpoenas. But now I am very delighted to learn that many 
have changed their attitude on this, and I am particularly glad 
to welcome the support of Chairman Darrell Issa as we move 
forward with this legislation.
    Mr. Attorney General, there has been criticism about Tom 
Perez as Assistant Attorney General, and that he may have 
mismanaged employees at the Civil Rights Division in the 
Department of Justice. Are you able to comment on Mr. Perez's 
track record as manager of the division and allegations that he 
politicized enforcement of civil rights laws?
    Attorney General Holder. Yes, I think that Tom Perez has 
been an outstanding Assistant Attorney General for the Civil 
Rights Division. I think he will be a great Secretary of Labor.
    There have been reports done that looked at the condition 
of the Civil Rights Division. The Inspector General has spent 2 
years looking at the Voting Section. There have been--there's a 
joint report by OPR, the Office of Professional Responsibility, 
as well as the Inspector General. I guess that was issued in 
2008. And I think those findings are really important.
    They found that the enforcement of voting rights law during 
this Administration was not based on improper racial or 
political considerations. They found that the hiring practices 
were not politically motivated. They found that there was no 
basis to believe that the Voting Section politicizes its FOIA 
responses.
    Now there have been some indications that people in the 
Voting Section in particular have not gotten along with each 
other too well. There were a number of incidents, the majority 
of which were in the prior Administration, that I think are not 
really good examples of how DOJ employees are supposed to work 
with one another.
    But I think if you look at Tom Perez's record--record 
numbers of cases brought against police departments that have 
acted inappropriately, record amounts of money recovered in 
discrimination suits, record numbers of voting rights cases 
filed--he has done what we expect of a person who would head 
the Civil Rights Division, which I think is the conscience of 
the Justice Department. He's done an outstanding job and 
deserves to be confirmed as Secretary of Labor.
    Mr. Conyers. Thank you.
    Now there has been a lot of discussion about banks being 
too big to prosecute. And I would like to--I think this is very 
critical because much of the sagging economy that we are 
climbing out of is a direct result of Wall Street intransigence 
and perhaps improper conduct and activity.
    Now can you distinguish between cases that we might bring 
against those on Wall Street who caused the financial crisis or 
were responsible in large part? Have we an economic system in 
which we have banks that are too big to prosecute? I mean, the 
Department of Justice has got to look at this very carefully.
    Attorney General Holder. Let me make something real clear 
right away. I made a statement in a Senate hearing that I think 
has been misconstrued. I said it was difficult at times to 
bring cases against large financial institutions because of the 
potential consequences that they would have on the financial 
system.
    But let me make it very clear that there is no bank, there 
is no institution, there is no individual who cannot be 
investigated and prosecuted by the United States Department of 
Justice. As I indicated in my opening statement, we have 
brought thousands of financially based cases over the course of 
the last 4\1/2\ years.
    Now there are a number of factors that we have to take into 
consideration as we decide who we're going to prosecute. 
Innocent people can be impacted by a prosecution brought of a 
financial institution or any corporation.
    But let me be very, very, very clear. Banks are not too big 
to jail. If we find a bank or a financial institution that has 
done something wrong, if we can prove it beyond a reasonable 
doubt, those cases will be brought.
    Mr. Conyers. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Goodlatte. I thank the gentleman.
    The Chair now recognizes the gentleman from Wisconsin, Mr. 
Sensenbrenner, the Chairman of the Subcommittee on Crime, 
Terrorism, Homeland Security, and Investigations, for 5 
minutes.
    Mr. Sensenbrenner. Mr. Attorney General, thank you for 
coming.
    I would like to try to pin down who authorized the 
subpoenas for the AP. And the Code of Federal Regulations is 
pretty specific on subpoenas for media. Did Deputy Attorney 
General Cole do that?
    Attorney General Holder. Yes, I have to assume he did. I 
only say assume because you have to understand that recusals 
are such that I don't have any interaction with the people who 
are involved in the case. Under the regulations, the Attorney 
General has to authorize the subpoena. In my absence, the 
Deputy Attorney General would, in essence, act as the acting 
Attorney General.
    Mr. Sensenbrenner. Do you know if Deputy Attorney General 
Cole was also interviewed in the investigation that caused your 
recusal?
    Attorney General Holder. I don't know. I don't know. I 
assume he was, but I don't know.
    Mr. Sensenbrenner. Why were you interviewed? Were you a 
witness, or was this a part of your official duties as Attorney 
General?
    Attorney General Holder. No, I was interviewed as one of 
the people who had access to the information that was a subject 
of the investigation. I, along with other members of the 
National Security Division, recused myself. The head of the 
National Security Division was left. The present head of the 
National Security Division, we all recused ourselves.
    I recused myself because I thought it would be 
inappropriate and have a bad appearance to be a person who was 
a fact witness in the case to actually lead the investigation, 
given the fact, unlike Mr. Cole, that I have a greater 
interaction with members of the press than he does.
    Mr. Sensenbrenner. How does that make you a fact witness? 
If you are getting the work product, the assistant U.S. 
attorneys and the FBI that are looking into a matter. You would 
be a policy person in deciding whether or not to proceed with 
subpoenas or, ultimately, signing off on an indictment.
    Attorney General Holder. Well, I'm a fact witness in the 
fact that I am a possessor--I was a possessor, I am a 
possessor--of the information that was ultimately leaked, and 
the question then is who of those people who possessed that 
information, which was a relatively limited number of people 
within the Justice Department, who of those people, who of 
those possessors actually spoke in an inappropriate way to 
members of the Associated Press?
    Mr. Sensenbrenner. Who else had access to that information?
    Attorney General Holder. Well, this is an ongoing 
investigation. I would not want to reveal what I know, and I 
don't know if there are other people who've been developed as 
possible recipients or possessors of that information during 
the course of the investigation. I don't know.
    Mr. Sensenbrenner. I am trying to find out who authorized 
the subpoena. You can't tell me if Deputy Attorney General Cole 
authorized the subpoena. Somebody had to authorize the subpoena 
because the Code of Federal Regulations is pretty specific that 
this is supposed to go as close to the top as possible.
    Attorney General Holder. Well, no, what I'm saying is that 
I can't say as a matter of fact. But I have to assume, and I 
would say I would probably be 95, 99 percent certain, that the 
Deputy Attorney General, acting in my stead, was the one who 
authorized the subpoena.
    Mr. Sensenbrenner. Well, okay. The Code of Federal 
Regulations also is very specific that there should be 
negotiations prior to the issuance of the subpoena with the 
news media organization involved, and the AP has said there was 
no negotiations at all.
    Now there are two different parts of the regulation that 
may be in conflict with each other One is more generic than the 
other. But there were no negotiations whatsoever. And why 
weren't there negotiations?
    Attorney General Holder. That I don't know. There are 
exceptions to that rule that say that if the integrity of the 
investigation might be impacted, the negotiations don't have to 
occur. I don't know why that didn't happen.
    Mr. Sensenbrenner. But hasn't somebody in the Justice 
Department said that the integrity of the investigation would 
not be impacted with negotiations either under Subsection C, 
which is generic, or Subsection D, which is more specific?
    Attorney General Holder. I don't know. But let me say this, 
I've just been given a note that we have, in fact, confirmed 
that the Deputy was the one who authorized the subpoena.
    Mr. Sensenbrenner. Okay. Well, I think we are going to have 
to talk to him about this. But, Mr. Attorney General, I think 
that this Committee has been frustrated for at least the last 
2\1/2\ years, if not the last 4\1/2\ years, that there doesn't 
seem to be any acceptance of responsibility in the Justice 
Department for things that have gone wrong.
    Now may I suggest that you and maybe Mr. Cole and a few 
other people go to the Truman Library and take a picture of 
this thing that he had on his desk that said ``The buck stops 
here,'' because we don't know where the buck stops. And I think 
to do adequate oversight, we better find out and we better find 
out how this mess happened.
    I yield back the balance of my time.
    Mr. Goodlatte. I thank the gentleman.
    The Chair now recognizes the gentleman from New York, the 
Ranking Member on the Subcommittee on Constitution and Civil 
Justice, Mr. Nadler, for 5 minutes.
    Mr. Nadler. I thank the Chairman. I thank the Chairman.
    And I want to talk about a dozen subjects, but I think I 
will stick to three in the time I have.
    I have no doubt, and we have already been hearing much hue 
and cry about the Department of Justice probe of AP records. 
But I think we should put this in context and remember that 
less than a year ago, this Committee's Republican leadership 
demanded aggressive investigation of press leaks, accusing the 
Administration itself of orchestrating those leaks.
    Then Members of this Committee wanted reporters subpoenaed, 
put in front of grand juries, and potentially jailed for 
contempt. Now, of course, it is convenient to attack the 
Attorney General for being too aggressive, or the Justice 
Department for being too aggressive.
    But this inconsistency on the part of my Republican 
colleagues should not distract us from legitimate questions 
worthy of congressional oversight, including whether the 
Espionage Act has been inappropriately used in looking at 
leakers, whether there is a need for a greater press shield, 
which I believe there is, such as measures my colleagues have 
worked--some of my colleagues have worked to defeat in the 
past, and Congress' broad grants of surveillance authority and 
immunity that some of my Republican colleagues supported and 
before today have been unwilling to reexamine.
    Those are questions we need to pursue, and I hope that 
today's rhetoric translates into meaningful bipartisan support 
for looking into those questions.
    Now to switch topics, this was brought up already. But the 
Committee has engaged--this Committee has engaged in a 
relentless, unfounded, grossly unfair attack on the leadership 
and integrity of Assistant Attorney General Tom Perez. They 
have questioned his management of the Civil Rights Division and 
his efforts to get the City of St. Paul to withdraw its appeal 
in a case challenging the use of disparate impact theory to 
enforce civil rights law.
    I would like to give you, sir, an opportunity to address 
two questions. First, can you comment on Assistant Attorney 
General Perez's track record briefly, because I have other, as 
manager of the Civil Rights Division?
    Attorney General Holder. I think he's been an outstanding 
head of the Civil Rights Division. I think you look at the 
giants of the Department in that regard, you think of John 
Doar. I think he served 50 years or so ago.
    I think 50 years from now, people will look back on Tom 
Perez's time as Assistant Attorney General of the Civil Rights 
Division and compare him to somebody like John Doar.
    Mr. Nadler. Thank you.
    Second, my colleagues allege that Assistant Attorney 
General Perez brokered a ``dubious bargain,'' an inappropriate 
quid pro quo with the City of St. Paul, whereby he convinced 
the city to withdraw its appeal in Magner v. Gallagher, and the 
Department of Justice Civil Division agreed not to intervene in 
a False Claims Act case against the city.
    The minority's conclusion after more than 18 months 
investigating it is that Assistant Attorney General Perez did 
nothing wrong and, in fact, appropriately carried out his 
duties as a steward of the Civil Rights Division. That, in 
fact, the facts showed that it was senior career officials in 
the Civil Division who overruled junior career officials in the 
Civil Division and ruled that--believed that that particular 
False Claims Act case was a very bad case, a weak case, and 
that the Department should not join it, although they did not 
prevent the complainant from continuing.
    And that it was--there was nothing inappropriate in making 
a decision not to take the Magner case to the Supreme Court 
because bad cases--hard facts--what is it? Bad facts make hard 
law, or the other way around. I forget. In your view, was there 
anything inappropriate done with regard to this matter?
    Attorney General Holder. I don't think so. I mean, I think 
the city reached out. Consideration was given to the action 
that was taken. Before Mr. Perez moved forward with what he 
did, he consulted with the ethics people, legal and ethics 
people and professional responsibility people within the Civil 
Rights Division to make sure that the course of action he was 
proposing was ethically sound.
    It seems to me that what was done was in the best interests 
of the people of the United States.
    Mr. Nadler. Thank you.
    Let me ask with respect to Guantanamo. Congress has placed 
several restrictions on the Administration with regard to the 
transfer or potential trial of detainees still being held in 
Guantanamo. What steps, if any, can the President take on his 
own, assuming that Congress remains obdurate, to ensure that we 
either bring these individuals to justice through trial or find 
a way to release, transfer, or repatriate them?
    I just take it as axiomatic that it is wrong and unworthy 
of the United States to simply grab individuals whom we may 
believe to be terrorists, never try them, and never release 
them. It is wrong to hold people indefinitely for life without 
any charges and, in fact, especially since 66 of them have been 
declared by our own Government to pose no risk.
    So what can we do avoid--it is 86 of them. I am sorry. What 
can we do to avoid the situation where, without any claim of 
right at all, the United States indefinitely holds 166 people 
in jail with no due process, no trial, military or otherwise, 
and no release?
    Attorney General Holder. Well, I think the Congress has 
unwisely put in place impediments to what the President wants 
to do and what I have said I think is the wise thing to do, 
which is to close Guantanamo. There are steps that the 
Administration can do and that we will do in an attempt to 
close that facility.
    There are a substantial number of people who can, for 
instance, be moved back to Yemen. The President put a hold on 
that, given the situation that we had in Yemen at the time. But 
I think that is something that we have to review.
    I think we have to revitalize our efforts at getting a 
representative to go to different countries in the way that Mr. 
Dan Fried, who was an employee of the State Department, I think 
did a very effective job finding alternative placements for 
people where their home countries will not accept them.
    I had the responsibility when I came into office of looking 
at the population at Guantanamo and making determinations as to 
who could be released, who needs to be tried, and then who 
needs to be held under the laws of war. The task force that I 
set up I think did a great job in that regard.
    There have been subsequent actions by Congress that I think 
have made it difficult, but not impossible, for us to move 
people out of Guantanamo, and I think the President has 
indicated that we will be taking renewed action in that regard.
    Mr. Goodlatte. The time of the gentleman has expired.
    Mr. Nadler. Thank you.
    Mr. Goodlatte. The Chair would note that the Committee has 
requested the appearance of the Assistant Attorney General and 
head of the Civil Rights Division, Mr. Perez, to testify and 
answer the numerous questions that have been posed about his 
activities, and he has refused the Committee's request.
    The Chair now recognizes the gentleman from North Carolina, 
Mr. Coble, for 5 minutes.
    Mr. Coble. I thank the Chairman.
    Attorney General, good to have you on the Hill today.
    I want to visit Benghazi for a moment. Some recent days 
ago, former Secretary of State Hillary Clinton appeared before 
a Senate hearing, and she was asked about her comment 
concerning misstatements or inconsistencies surrounding the 
Libyan tragedy. She responded, ``What difference does it make?"
    I took umbrage with that response when I heard it. And I 
went to the House floor in early February to take further 
umbrage. I can assure Mrs. Clinton that it makes a whole lot of 
difference to the survivors of the four Americans who were 
killed that fateful day in Benghazi.
    Now having said that, Mr. Attorney General, can you give us 
an update on where the FBI's investigation of Benghazi stands 
today?
    Attorney General Holder. I can't be definitive other than 
to say that the investigation is ongoing, that we are at a 
point where we have taken steps that I would say are 
definitive, concrete, and we will be prepared shortly, I think, 
to reveal all that we have done.
    Mr. Coble. I thank you, sir. I just find Mrs. Clinton's 
response to have been condescending and just laced with 
insincerity. I am very impartial, but that will be for another 
day.
    Last month, Mr. Attorney General, in the wake of the Boston 
bombing, you warned in a lengthy statement against acts of 
violence or retaliation against Muslims and other groups. Can 
you share with us a specific reason that supported your giving 
this warning, A? And B, have there been actual instances of 
retaliation linked to Boston that the--with which the 
Department was aware?
    Attorney General Holder. That was more a preventive 
statement, I think, than anything. We have seen in the past 
where people who were perceived as Muslims--might not have 
been--and who were attacked as a result of incidents that might 
have happened. And the statement that I was making was simply 
for people not to let emotions, stereotypical action come into 
play and so that people who were Muslim, perceived to be 
Muslim, might somehow be physically harmed.
    Mr. Coble. I thank you for that.
    This--I am shifting gears now. My visibility is blocked 
between you and the Attorney General. I like to see you. You 
like to see me when you are responding. Now I am having a 
senior moment. I forgot what I was going to ask you. It will 
come back to me in due time.
    Well, maybe it won't. [Laughter.]
    I still have time. I still see the green light. So I am 
going to try to get through here. Senior moment recovered.
    The Simmons decision in North Carolina, which, if 
retroactively applied, could result in the release of convicted 
felons. Members of my staff have been in touch with members of 
your staff, and do you have a comment on this? If not, you and 
I can get together subsequently. Are you familiar with the 
case?
    Attorney General Holder. Yes, I am. The en banc decision in 
Simmons establishes that certain Federal convictions and 
enhanced penalties that depend on proof of a prior felony 
conviction we now know is only a misdemeanor, and that has 
caused some problems.
    So we have to decide who is now entitled to post conviction 
relief. We have to balance, I think, this notion of fundamental 
fairness against the need for finality and protection of the 
public from people who are really dangerous. And so, we want to 
look at the facts and try to determine what relief is 
warranted.
    And the ability to work perhaps with you and members of 
your staff in this regard I think would be something that would 
be appropriate, and this is essentially, I think, a law 
enforcement matter. But some guidance or the thoughts that you 
have in this regard would be appreciated.
    Mr. Coble. Well, I think thus far the exchange between your 
staff and our staff has been favorable and effective, and I 
thank you for that.
    And Mr. Chairman, I hope you will note that the red light 
has not yet appeared, and I am yielding back.
    Mr. Sensenbrenner [presiding]. That is 26 seconds.
    The gentleman from Virginia, Mr. Scott?
    Mr. Scott. Thank you, Mr. Chairman.
    And thank you, Mr. Attorney General.
    On the Internal Revenue situation, I think we can all agree 
that the published reports which suggest that IRS agents were 
denying people their proper consideration based on politics, 
that is the allegation. I assume you haven't completed your 
investigation. But I think there is bipartisan agreement that 
you shouldn't be able to do that.
    Now you have publicly said you are having a criminal 
investigation. There are obviously criminal laws against denial 
of civil rights, 1983. There is also a specific IRS code that 
says any officer or employee of the United States acting in 
connection with any revenue law of the United States, who with 
the intent to defeat the application of any provision of this 
title fails to perform any of the duties of his office or 
employment.'' And then goes in to show that is--if you violate 
that, that is a 5-year felony.
    Are there any gaps in the criminal code that would make it 
difficult for you to pursue criminal sanctions if you find that 
IRS agents were denying benefits under the Internal Revenue 
Code based on politics?
    Attorney General Holder. That actually is a good question, 
and I'm not sure what the answer is. I think the provisions 
that you have noted are ones that we are looking at--the civil 
rights provisions, IRS provisions, potentially the Hatch Act. 
And I think we're going to have to get into the investigation 
before I can answer that question more intelligently.
    But to the extent that there are enforcement gaps that we 
find, we will let this Committee know and, hopefully, work with 
this Committee to make sure that what happened and was 
outrageous, as I've said, and hope--if we have to bring 
criminal actions so that kind of action, that kind of activity 
does not happen again.
    Mr. Scott. I understand that certain officials in the IRS 
have apologized. Does an apology immunize you from criminal 
prosecution?
    Attorney General Holder. No.
    Mr. Scott. Under the Fair Sentencing Act, we went from 100 
to 1 to 18 to 1 under the differential on crack and powder. Is 
the Department of Justice reviewing sentences that were done 
under the 100 to 1 for possible commutation?
    Attorney General Holder. I put together a working group to 
look at exactly who we have imprisoned in our Bureau of Prisons 
and to make sure that we are holding the appropriate people for 
appropriate lengths of time and to see whether or not there are 
some changes that need to be made.
    We have, for instance, over 133 people, I think, who are 
above the age of 80 in the Federal prison system. I think I 
have about 35 who are over the age of 85. Now there may be good 
reasons why they should serve the rest of their lives in jail. 
On the other hand, it may be that there's a basis for them to 
be released.
    So we are looking at this question overall as to what our 
prison population looks like, whether the commutation policy 
should be changed the IG had a very useful report about 
compassionate release and how we should use that.
    We can save money by releasing people a little before their 
time, but we would only do so if it would not endanger the 
public safety. So we're looking at the question really in a 
broader way.
    Mr. Scott. Thank you.
    Now under the faith-based initiative, apparently although 
since 1965, you could not discriminate based on race, color, 
creed, national origin, or sex, apparently there is a new idea 
about this, that some kind of exemptions are awarded that 
allows some faith-based organizations to discriminate based on 
religion with the Federal money. How do you decide who can 
discriminate with Federal money based on religion?
    Attorney General Holder. Well, I think what we want to try 
to do is make sure that no inappropriate discrimination--no 
discrimination occurs. You and I have talked about this since 
before I was sworn in.
    Mr. Scott. Well, there is discrimination going on, and you 
award some kind of certificate or something that allows them 
to--let me get one more question in.
    The effects of sequester on the judicial branch. Public 
defenders, court bailiff, and other court personnel are being 
furloughed. What effect does that have on the administration of 
justice?
    Attorney General Holder. That's actually a very good 
question. I met with the chiefs of all of the district courts 
around the United States about 2 weeks or so ago, and they 
asked me to perhaps be their voice. Judges don't get a chance 
to speak in the way that I do.
    And I think that as we consider this whole problem--and it 
is a problem--of sequestration, that we take into account the 
impact that it has on our courts and our probation offices. If 
we want to have the court system that we need to have, if we 
want to process criminal cases, if we want to assess people for 
probation, incarceration, the courts have to have sufficient 
funds to do so, and they are in a very bad way with regard to 
the situation that exists now and certainly for the situation 
that exists in 2014.
    So as we're thinking about sequester fixes, I would ask 
that everybody remember the court system and all of its 
constituents.
    Mr. Sensenbrenner. The time of the gentleman has expired.
    The Chair recognizes the former Chairman of the Committee, 
the gentleman from Texas, Mr. Smith.
    Mr. Smith. Thank you, Mr. Chairman.
    Welcome, Mr. Attorney General.
    You have announced a criminal investigation into 
allegations that IRS employees have unfairly targeted 
conservative organizations, and I am sure you would agree that 
when the Federal Government targets individuals or 
organizations because of their political beliefs that that is a 
threat to our democracy and quite possibly a violation of an 
individual or an organization's First Amendment rights. So far, 
we have allegations, I think, involving four cities--
Cincinnati, Washington, D.C., two California cities, where IRS 
agents might have targeted conservative groups.
    And it so happens that a year ago, on behalf of the San 
Antonio Tea Party, I wrote the Commissioner of the IRS asking 
him to look into what appeared to be targeted actions by the 
IRS against the San Antonio Tea Party.
    My first question is this. Is your investigation going to 
go beyond Cincinnati, beyond Ohio? Is it going to be a national 
investigation that includes Washington, D.C., as well and 
includes any allegations wherever they might occur?
    Attorney General Holder. Yes, it would. The facts will take 
us wherever they take us. It will not be only one city. We will 
go wherever the facts lead us.
    Mr. Smith. You haven't done anything to limit this to the 
U.S. attorney in Ohio, for example?. You are going to go 
nationwide?
    Attorney General Holder. This is something that we will 
base at least--we're at the beginning stages. But we're basing 
it in Washington, and that way we can have a better impact 
nationwide.
    Mr. Smith. Okay. Without saying whether any criminal laws 
have actually been broken, what are some possible criminal laws 
that could have been violated if, in fact, individuals or 
organizations were targeted for their conservative views?
    Attorney General Holder. Well, I think it was Congressman 
Scott who really put his finger on it. There are civil--
potential rights----
    Mr. Smith. Right. But do you know of any criminal laws that 
might have been violated?
    Attorney General Holder. I am talking about criminal cases, 
criminal violations in the civil rights statutes, IRS, that I 
think we find there. There is also the possibility of 1,000--
false statements violations that might have been made, given at 
least what I know at this point.
    Mr. Smith. Okay. I think some of the criminal laws that 
might have been violated--18 United States Code 242 makes it a 
crime to deprive any person of rights, privileges, or 
immunities guaranteed by the Constitution. 18 United States 
Code 1346 makes it a crime for Government employees to deprive 
taxpayers of their honest services. So that is a couple of 
examples.
    What civil recourse might be obtained by individuals or 
organizations that were unfairly targeted for their 
conservative beliefs?
    Attorney General Holder. That I'm not sure. We probably 
have to get back to you with an answer on that. I just don't 
know what civil recourse they might have.
    Mr. Smith. I think it is possible that they might be able 
to recoup any expenses that they incurred trying to respond to 
the targeted approach by the IRS. Does that sound likely to 
you?
    Attorney General Holder. It's possible. I know that in 
other instances where somebody is tried in a criminal case and 
acquitted, they can get their costs back at times.
    Mr. Smith. Okay. Another subject, Mr. Attorney General.
    Last week, you responded to a letter that I wrote you last 
year in regard to the Anti-Lobbying Act, as amended in 2002. 
And you said in your response to me, this is a quote, ``The act 
prohibits the use of appropriated funds to influence an 
official of any government.''
    Does that apply to Health and Human Services grantees who 
might use those dollars to lobby State and local officials?
    Attorney General Holder. I'm sorry. I didn't hear the last 
part. Appropriate money to?
    Mr. Smith. I don't know if you understood the beginning of 
that. You responded to my letter last week in regard to the 
Anti-Lobbying Act, as amended in 2002, and you said that the 
act prohibits the use of appropriated funds to influence an 
official of any government.
    And my question to you is does your statement and 
evaluation of the Anti-Lobbying Act apply to Health and Human 
Services grantees who may have used those dollars to lobby 
State and local governments?
    Attorney General Holder. Well, I think you might be 
referring to what I have only read about in the newspapers 
involving what HHS is doing as far as implementation of the 
act, and I don't know whether or not what funds are being used 
or whether that letter would apply to that effort. I just don't 
know.
    Mr. Smith. Okay. Would you get back to me then? If you 
don't think your statement, which is pretty clear to me that it 
would apply, would you get back to me as to why you think it 
should not apply to Health and Human Services or other 
Government agencies that might be grantees and they would use 
that money to lobby local and State governments?
    Attorney General Holder. We'll do that. And given the 
relationship that you and I have, Mr. Chairman, Mr. Former 
Chairman, we'll try to get back to you in a more timely fashion 
than we did on that first one.
    Mr. Smith. Than a year. That would be appreciated.
    Thank you, Mr. Attorney General.
    Mr. Sensenbrenner. The gentleman's time has expired.
    The gentleman from North Carolina, Mr. Watt?
    Mr. Watt. Thank you, Mr. Chairman. Sorry.
    Attorney General Holder. Mr. Watt, you're only supposed to 
do that at your confirmation hearing, you know? [Laughter.]
    That's when you roll out the kids.
    Mr. Watt. I am just trying to get my line of questions. I 
have been in the back listening, and Nico says you have done a 
good job up to this point.
    Mr. Attorney General, I am going to just ask you a couple 
of questions related to intellectual property, which is the 
Subcommittee that I am Ranking Member on. The Administration 
has called on Congress to make illegal distribution by 
streaming a felony. Can you describe the current tools at the 
Department's disposal to combat copyright infringement, and how 
would classifying streaming as a felony enhance the 
Department's enforcement efforts in this area?
    Attorney General Holder. I think what we're looking for are 
just an expanded set of tools so that we can have a prosecution 
and enforcement effort that's consistent with the nature of the 
harm. All we can do now is bring a misdemeanor charge, and 
sometimes these crimes involve thousands, potentially millions 
of dollars where a felony prosecution might be appropriate.
    We're not saying that we should only have a felony 
capability, but we think that we should have a felony 
capability, in addition to the misdemeanor capability that we 
already have, that would take into account the nature of the 
crime that we're looking at.
    Mr. Watt. According to World Customs Organization, the 
international sale of counterfeit goods is a multi-billion 
dollar industry. Many of the sales are increasingly made over 
the Internet, where criminals can hide their identities---- 
[Child talking.] [Laughter.]
    Where criminals can hide their identities and elude 
capture.
    What steps has the Department made to educate the public on 
the safety and security risk posed by these illicit sales?
    Attorney General Holder. That was by the illicit?
    Mr. Watt. What steps has the Department made to educate the 
public on the safety and security risks posed by illicit sales 
of Internet theft property?
    Attorney General Holder. Oh, I see. That is a problem that 
we have tried to really focus on in terms of educational 
efforts. There are medicines that are stolen, intellectual 
property stolen that put the public health at risk. We have 
found some of our airplanes bolts that were inappropriately 
made. And what we have tried to do as part of our enforcement 
effort is to educate the public and to educate business about 
the dangers that flow from the theft of intellectual property.
    Mr. Watt. And are there increasing indications of links 
between this problem and terrorism? Have you found any of those 
links, and would you describe those for the Committee?
    Attorney General Holder. Yes. I think that's actually a 
very good question, and I think it's something that's very 
worrisome. As we saw organized crime get into a variety of 
businesses in order to support their efforts, we are now seeing 
terrorist groups getting into the theft of intellectual 
property, again to generate money to support what they are 
trying to do for their terrorist means.
    And so, it means that we have to broaden our enforcement 
efforts, broaden the investigative efforts that we take to 
examine the precise reasons why people are engaging in this 
kind of intellectual property thievery and to consider, 
unfortunately, whether or not there is a terrorist connection 
to it. That is, I think, a relatively new phenomenon, but one 
that we have to be aware of.
    Mr. Watt. And are there steps that you would recommend that 
Congress consider to check the growth of this industry?
    Attorney General Holder. Yes. There's something that I 
think we should try to work with Members of this Committee and, 
more generally, Members of Congress about. I am particularly 
concerned about the theft of intellectual property to support 
terrorist activities, and it would seem to me that in those 
instances, enhanced penalties might be appropriate. And so, I 
think that is something that working with Congress we should 
consider.
    Mr. Watt. Thank you, Mr. Chairman.
    And Nico thanks you also. I yield back--we yield back the 
balance of our time.
    Mr. Goodlatte [presiding]. And a very effective line of 
questioning, particularly on the part of Nico. We are glad to 
have both of you here and----
    Mr. Watt. Mr. Chairman, the press has asked what the 
relationship is. So just for everybody's information, this is 
my grandson. [Laughter.]
    Mr. Goodlatte. And a very proud grandpa as well there.
    The Chair now recognizes the gentleman from Ohio, Mr. 
Chabot, for 5 minutes.
    Mr. Chabot. Thank you.
    Mr. Attorney General, let me start with a term ``tone at 
the top.'' This was a principle----
    Attorney General Holder. I'm sorry. Tone at the top?
    Mr. Chabot. Yes. This was a principle referred to in 
Sarbanes-Oxley and incorporated by reference in Dodd-Frank.
    Do you believe that the same rigorous standards of conduct 
in enforcement should be applied to public and private 
entities? In other words, in short, do you think that the 
Government should be held accountable to a separate set of 
standards, a weaker set of standards than corporations, or do 
you think the standards should be the same?
    Attorney General Holder. I think the standards ought to be 
the same, although I'd probably say that when it comes to 
Government, given the public trust that is involved as opposed 
to private interests, that there are probably higher standards 
that ought to apply to all levels of those of us who serve in 
Government.
    Mr. Chabot. Okay. Let me follow up with that. The person at 
the top in a business, and I think it would probably apply to 
Government as well. Even if he or she didn't necessarily know 
what the people under him or her was up to can be held 
accountable, actually personally accountable, under Sarbanes-
Oxley, for example. Even if they didn't necessarily know what 
the people under them were doing all the time.
    Now this Administration currently has at least three 
scandals swirling around it. One, misleading the American 
people on Benghazi. Number two, the IRS discriminating, 
targeting conservative groups for special treatment. And three, 
seizing the phone records of Associated Press reporters. Now I 
think you can debate whether that is actually a scandal yet. 
Many people are calling it that, but I think all three probably 
are.
    When the story broke last week about these conservative 
groups being targeted by the IRS for special treatment, one of 
the spins by this Administration was, well, this was out in 
Cincinnati. It was out there. It is not us here in Washington. 
We didn't know anything about it.
    Well, I happen to represent Cincinnati in the United States 
Congress, and I have for 17 of the last 19 years. The 2008 
election didn't go so well for me.
    Now I know that you aren't the Commissioner of the IRS, and 
you are not the Secretary of the Treasury, and I know that you 
know an awful lot of stuff. And I would like to ask you, I 
assume that you are aware that Cincinnati handles exempt 
organizations all across the country. It is not just in the 
local area. Is that--do you know that?
    Attorney General Holder. I'm not aware of that. We're at 
the beginning of our investigation. I don't know exactly how 
IRS is constructed at this point. But if that's what you say, I 
take you at your word.
    Mr. Chabot. Okay. Now, and I know that you are not at the 
conclusion. You have got a lot to learn yet. But do you think 
that these were just some low-level IRS workers who decided to 
harass or examine with great scrutiny conservative groups, Tea 
Party organizations, patriot groups, 9/12 groups, groups who 
might have had ``Tea Party'' in their name, or groups who were 
concerned that the Government was too big and too intrusive. 
Kind of ironic, isn't it?
    And on the other hand, they would allow groups that had, 
say, ``progressive'' in their names to proceed, as was supposed 
to happen, in a reasonable amount of time. Do you think that 
these were just some low-level folks, or do you think it goes 
higher than that?
    Attorney General Holder. I simply don't know at this stage. 
We have not begun our--we've only begun our investigation, and 
I think it will take us time to determine exactly who was 
involved in these matters.
    One thing I would say is that this whole notion of these 
501(c)(4) groups, I think that some inquiry into that area is 
appropriate, but it has to be done in a way that does not 
depend on the political persuasion of the group.
    Mr. Chabot. Now let me ask you this. Who does the 
Cincinnati IRS office, for example, who do they answer to?
    Attorney General Holder. I assume that, ultimately, they 
answer to the folks here in Washington.
    Mr. Chabot. Okay. Now Mr. Sensenbrenner referred a little 
while ago to the Truman's ``buck stops here'' reference, and I 
will just conclude because I am almost out of time by saying 
that I believe there has been a pattern by this Administration 
in not taking responsibility for failures, avoiding blame, 
pointing the fingers in somebody else's direction. Would you 
agree with that?
    Attorney General Holder. No.
    Mr. Chabot. I thought you might say that. I think a lot of 
people do, including myself, and I think a lot of Members of 
this Committee. And we might be divided, obviously.
    But these are very significant things which have occurred 
here, and I would strongly encourage this Administration to get 
out front, get all the facts out, let the chips fall where they 
may. I think that is in the best interests of the 
Administration. I think it is in the best interests of the 
country.
    And I yield back my time.
    Attorney General Holder. I would agree with that last part 
of your statement. It is one of the reasons why I ordered the 
investigation last Friday because it seemed to me that there 
was the need for a review, given the potential criminal 
investigations that exist that the Justice Department needed to 
be ahead of this matter.
    And I can assure you and the American people that we will 
take a dispassionate view of this. This will not be about 
parties. This will not be about ideological persuasions. 
Anybody who has broken the law will be held accountable.
    Mr. Goodlatte. The time of the gentleman has expired.
    The Chair recognizes the gentlewoman from California, Ms. 
Lofgren, for 5 minutes.
    Ms. Lofgren. Thank you, Mr. Chairman.
    And thank you, Mr. Attorney General, for your presence here 
today.
    I want to return to the issue of the freedom of the press. 
You know, Mr. Sensenbrenner quoted certain sections of the Code 
of Federal Regulations. But I would like to read the beginning 
of that section, which says, ``Because freedom of the press can 
be no broader than the freedom of reporters to investigate and 
report the news, the prosecutorial power of the Government 
should not be used in such a way that it impairs a reporter's 
responsibility to cover as broadly as possible controversial 
public issues. This policy statement is thus intended to 
provide protection for the news media from forms of compulsory 
process, whether civil or criminal, which might impair the news 
gathering function.''
    Now I realize there are exceptions and that you have 
recused yourself. But it seems to me clear that the actions of 
the Department have, in fact, impaired the First Amendment. 
Reporters who might have previously believed that a 
confidential source would speak to them would no longer have 
that level of confidence because those confidential sources are 
now going to be chilled in their relationship with the press.
    Whether or not this impairment of the First Amendment was, 
in fact, justified by the criminal case before you is not 
something I am sure you are at liberty to discuss in a public 
forum. But I still don't understand, number one, why and how 
you recused yourself.
    I am concerned. It says no subpoena may be issued to any 
member of the news media or for the telephone toll records of 
any member of the news media without the express authorization 
of the Attorney General. Did you delegate that express 
authorization in writing to Mr. Cole?
    Attorney General Holder. No, I don't think the recusal--
we've looked for this. I don't think there is anything in 
writing with regard to my recusal, which is, again, not----
    Ms. Lofgren. No, but the question was what about the 
requirement in the code that you expressly approve--now you 
recused yourself, was that express authorization authority 
delegated to Mr. Cole?
    Attorney General Holder. Once I recused myself in that 
matter, he, in essence--not in essence, he does become the 
acting Attorney General with all the powers that the Attorney 
General has.
    Ms. Lofgren. Okay. Could you explain again, or maybe you 
can't. Let me ask a hypothetical because I realize you can't 
talk about this case. But the regulations say that these 
records should not be obtained in a compulsory manner unless--
and that there would be negotiation with the news media unless 
it would impair the negotiations.
    Now the New York Times has got an opinion piece today 
expressing the concern that how could this be the fact? I mean, 
the records, the telephone records would not disappear if the 
AP had been notified. I mean, they were in the possession of 
the phone companies, never at risk for disappearing. How could 
it ever be the case that the availability of this information 
would be impaired?
    Attorney General Holder. Well, this is both an ongoing 
matter and an ongoing matter about which I know nothing. So I'm 
not in a position really to answer that question.
    But here is what I do think. I do think that at the 
conclusion of this matter and when I can be back involved in 
it, that given the attention that it has generated, that some 
kind of after action analysis would be appropriate.
    And I will pledge to this Committee and to the American 
people that I will engage in such an analysis. But that would 
be after the case is done and when I can appropriately be 
involved in it once again.
    Ms. Lofgren. Well, I think that is good, and I wonder if we 
might also, Mr. Chairman, have Mr. Cole come before the 
Committee since he is the one who knows this information. But I 
don't know how long this case will go on, and since you have 
recused yourself, certainly you would not be in a position to 
tell us that.
    But it seems to me the damage done to a free press is 
substantial and will continue until corrective action is taken, 
and I would hope that we might be able to further pursue this, 
Mr. Chairman, and get some clarification on future action, 
either through legislative efforts or through further revision 
of the Code of Federal Regulation by the Administration because 
I think this is a very serious matter that I think concerns all 
of us, no matter our party affiliation.
    And with that, I would yield back.
    Mr. Goodlatte. The comments of the gentlewoman from 
California are very pertinent, and the Committee would 
definitely be interested in the appearance of the Deputy 
Attorney General to answer questions regarding this matter.
    The Chair now recognizes the gentleman from Alabama, Mr. 
Bachus, for 5 minutes.
    Mr. Bachus. Attorney General Holder, is Deputy Cole willing 
and able to appear before this Committee and answer the 
questions that you cannot answer?
    Attorney General Holder. I'm sure he'd be willing to. I'm 
not sure he'd be in a position to answer the questions because 
you'd be asking questions about an ongoing matter, and I think 
he'd be in a difficult position to fully respond to the 
questions that you might put to him.
    Mr. Bachus. Will you urge him to make himself available, 
make that a priority?
    Attorney General Holder. I will certainly convey to him the 
desire that has been expressed here today. But I really caution 
the Committee that asking the lead prosecutor about a matter 
that is ongoing puts him in a----
    Mr. Bachus. Well, let me ask you this. You have heard Ms. 
Lofgren, and there is a very high bar before a subpoena to 
members of the press because of retribution, the fear of 
retribution. As she said, you are supposed to explore, supposed 
to negotiate, and we are not aware of any negotiation. You say 
there are exceptions. You are supposed to try alternative 
sources.
    Let me ask you this, on what date did you recuse yourself?
    Attorney General Holder. I'm not sure. I think it was just 
toward the beginning of the matter. I don't know exactly when, 
but it was toward the beginning of the matter.
    Mr. Bachus. Doesn't--isn't that sort of an unacceptable 
procedure that you wouldn't formally? Because the statute 
actually says that the Attorney General shall approve the 
subpoena. So shouldn't there have been some memorandum?
    There was no memorandum, no email when you recused 
yourself. I mean, was there any--was it in writing? Was it 
orally? Who did you recuse--did you alert the White House?
    Attorney General Holder. I certainly did not alert the 
White House. We don't talk to the White House about----
    Mr. Bachus. Who do you recuse yourself to?
    Attorney General Holder. I would have told the Deputy 
Attorney General, as I have done in other matters. In the 
Edwards case, for instance, I----
    Mr. Bachus. No, I understand. But do you not do that 
formally or in writing?
    Attorney General Holder. No.
    Mr. Bachus. Do you see any reason for a formal or there to 
be some memorandum so we know the time and date of your 
recusal?
    Attorney General Holder. Well, as I said, we have made a 
preliminary examination to see if there is anything in writing. 
But I know that I have recused myself in matters where I have 
not put something in writing.
    Mr. Bachus. Well, would you--do you think that it would be 
best practice to memorialize that recusal?
    Attorney General Holder. I guess it might be helpful.
    Mr. Bachus. Well, it would be in this case because you 
apparently don't know when you recused yourself. Is that 
correct?
    Attorney General Holder. Well, I don't know precisely. I 
know that, as I said, it was toward the beginning of the 
investigation.
    Mr. Bachus. So it was before the subpoenas?
    Attorney General Holder. Yes, I don't know when the 
subpoena was issued.
    Mr. Bachus. So it could have been after the subpoenas were 
issued?
    Attorney General Holder. No, I certainly recused myself 
before the subpoenas were issued.
    Mr. Bachus. Well, did you have any knowledge--you had 
knowledge that there was going to be an investigation? Is that 
correct?
    Attorney General Holder. Yes, I appointed two people to 
lead the investigation.
    Mr. Bachus. Were you aware at that time that----
    Attorney General Holder. I was criticized at that time for 
not appointing independent people, as has been pointed out. And 
I appointed two good U.S. attorneys----
    Mr. Bachus. At that time that you made that appointment, 
had there been any discussion of the press's involvement?
    Attorney General Holder. Of the President's involvement?
    Mr. Bachus. The press's involvement----
    Attorney General Holder. I'm sorry. The President?
    Mr. Bachus [continuing]. In the investigation of the leak. 
You were aware that it was an investigation of a leak to the 
press at the time you recused yourself?
    Attorney General Holder. A leak to the President? I don't 
know.
    Mr. Bachus. A leak to the press.
    Attorney General Holder. Oh, I'm sorry.
    Mr. Bachus. My southern is probably---- [Laughter.]
    Attorney General Holder. Oh, I'm sorry.
    Mr. Bachus. Press.
    Attorney General Holder. I'm sorry. Yes, a leak to the 
press?
    Mr. Bachus. You were aware of the involvement of the press 
in an investigation that was----
    Attorney General Holder. Sure. That was the basis of the 
investigation, the leak to the press.
    Mr. Bachus. So you knew at that time of the statute which 
authorized you, and you alone, to authorize subpoenas and take 
those actions?
    Attorney General Holder. Sure.
    Mr. Bachus. So you could have anticipated there would be a 
subpoena to the press?
    Attorney General Holder. No, not necessarily. There are 
leak investigations that are done very frequently where 
interaction with the press does not occur.
    Mr. Bachus. For what period of time after the investigation 
started were alternative measures that are called for by the 
codes or negotiations with the press, between the time of the 
investigation and discussion of subpoenaing press and the time 
that the subpoenas were issued, what period of time was that?
    Attorney General Holder. I don't know because, as I said--
--
    Mr. Bachus. No idea?
    Attorney General Holder [continuing]. I recused myself 
early on in the matter and also gave a great deal of 
independence to the U.S. attorneys who were involved in these 
matters. They did not have to report back to Washington every 
investigative step they were taking.
    Mr. Bachus. At what point did you inform the White House, 
or do you have any knowledge as when the White House was 
informed by DOJ that they were investigating the press?
    Attorney General Holder. My guess would be that the White 
House found out about this by reading the newspapers.
    Mr. Bachus. By what? Last Tuesday?
    Attorney General Holder. By reading the newspapers or 
watching television. We would not have had----
    Mr. Bachus. Well, how long before----
    Mr. Goodlatte. The time of the gentleman has expired.
    Mr. Bachus. Thank you.
    Mr. Goodlatte. The Chair recognizes the gentlewoman from 
Texas, Ms. Jackson Lee, for 5 minutes.
    Ms. Jackson Lee. I think it is worthy to put on the record 
that that is not enough time to be able to engage on some very 
important issues, but I do want to take a moment of my time to 
be able to thank the General for one of the most passionate and 
driven efforts of the Department of Justice, and we are well 
aware of it in Texas, which is the effort of the Department of 
Justice to increase the number of human trafficking 
prosecutions.
    We are the epicenter of human trafficking in Houston. You 
have come on more than one occasion. I want to cite my local 
officials and the Human Trafficking Task Force and to indicate 
to you, as the Ranking Member on the Border Security Committee 
and Homeland Security, my Chairman and myself will be embracing 
that topic. Hope that we will be able to join in with the 
efforts of the Department of Justice.
    Mr. General, I appreciate that, and I hope that this is an 
ongoing effort.
    Attorney General Holder. It is. It is a priority for this 
Attorney General. It's a priority for this Administration. 
Secretary Clinton was a big leader in this effort. I think 
Secretary Kerry will be as well.
    But it really involves not only the Federal Government, as 
you indicate. It really has to have a local and State 
connection, an international connection for us to be effective 
because this is an international crime.
    Ms. Jackson Lee. Well, let me thank you very much. There is 
so much that we could thank you for and your years of service, 
and I think that should be noted when you come before a 
Committee that has a responsibility, as you do, for upholding 
the laws of this Nation.
    I am going to have a series of questions, and they are sort 
of yes/no answers, and I appreciate your cooperation. Let me 
just start with the tragedy of the Boston Marathon. There is no 
doubt that we have all mourned, and I think we, as those who 
have the responsibility in this Committee, do well not to make 
this partisan, not to point the fingers.
    But can I ask you, can we look to, as you review the FBI 
and coordinating their investigation, which I understand is 
active, that we not reject the concept that it is important to 
connect the dots? And that as you review it that you will hold 
those responsible in terms of however you address it, whether 
it is let us do this better, but for the idea of connecting the 
dots.
    Attorney General Holder. No, I think that's vitally 
important, and that's why the Inspector General report--
Inspectors General inquiry I think is so important. It has not 
only the Justice Department Inspector General, but IGs from the 
intelligence community as well.
    And so, I think we're going to really have a good sense of 
who had what information when and whether or not it was 
properly distributed.
    Ms. Jackson Lee. I thank you, and I would ask the Chairman 
of this Committee that we have a full hearing on that topic 
alone, only because as you well know, Mr. General, that that 
was put in the 9/11 report, and I thank you for acknowledging 
that. I think that is very important.
    I want to move quickly to the IRS report and say to you 
that the Inspector General gave a number of recommendations, 
and if I am reading it clearly, they did not mention criminal, 
but I want it to be on the record one of them was to finalize 
interim action, better document reasons. I think we have all 
made our bipartisan statements on it.
    My point is that I understand, as the President has 
directed Secretary of Treasury to act, that you have also taken 
this to a higher level of a criminal investigation. Can you put 
that on the record, please?
    And I have a series of questions. So I just want to make 
clear that you have not taken this lightly and that this is now 
a Federal criminal investigation?
    Attorney General Holder. No, that is correct. As I said, as 
of Friday of last week, I ordered that an investigation, 
criminal investigation be begun.
    Ms. Jackson Lee. Do you have any limits on that? You are 
letting it free flow and fall where it may?
    Attorney General Holder. As I indicated in response to an 
earlier question, the facts will take us wherever they take us.
    Ms. Jackson Lee. In testimony before the Senate, you were 
asked a question about the shield law, the protection of the 
press. My recollection is that you said you support it. Is that 
the case now?
    Attorney General Holder. It was when I testified during my 
confirmation. It continues to be something that I think that we 
should pass.
    Ms. Jackson Lee. And let me ask unanimous consent to put 
into the record the letter of May 16, 2013, from Director--not 
Director--Attorney General Cole, Deputy Attorney General Cole 
to Mr. Pruitt. I ask unanimous consent, Mr. Chairman.
    Mr. Goodlatte. Without objection, the letter will be made a 
part of the record.
    [The information referred to follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                               __________

    Ms. Jackson Lee. Which it explains the expansive range, 
which you are not involved in, of work that was done in order 
to get information before proceeding as they did. However, will 
we be able to believe that the Justice Department still holds 
the protection of the First Amendment in high esteem and to 
protect it?
    And I am coming with some other questions. I am just trying 
to get a yes or no.
    Attorney General Holder. Yes, putting that case aside 
because it is ongoing, I was not aware of it. But the Justice 
Department has rules and regulations that have been followed, 
will be followed about our interaction with the press.
    Ms. Jackson Lee. Mr. Chairman----
    Mr. Goodlatte. The time of the gentlewoman has expired, and 
the Chair would advise all the Members of the Committee we have 
28 more Members awaiting the opportunity to ask questions. And 
the Attorney General will be generous with his time, but he 
does have an obligation later today.
    Ms. Jackson Lee. I thank the gentleman for his answers.
    Mr. Goodlatte. I thank the gentlewoman.
    And the Chair now recognizes the gentleman from California, 
Mr. Issa, Chairman of the Committee on Oversight and Government 
Reform.
    Mr. Issa. Thank you, Mr. Chairman.
    And I want to start by playing a short voice recording, if 
it comes out okay. Please play it.
    [Audio presentation.]
    Mr. Issa. Thank you.
    Mr. Attorney General, that recording, as was earlier in my 
Committee, the Oversight Committee's report, is Thomas Perez, 
an individual who is one of your deputies, arranging for 
something not to be disclosed as part of his quid pro quo in 
St. Paul.
    Do you think it is appropriate for someone to--at a Federal 
level to try to keep information out in order to disguise what 
is actually going on?
    Attorney General Holder. I am not sure I'd necessarily 
agree with that characterization. I am not intimately familiar 
with all that happened in connection with the inquiry that 
was----
    Mr. Issa. Okay. Well, let us just go through a hypothetical 
that is a little easier. You have got a case that is going to 
gain the United States people $180 million. You have got 
another case you do not want to go to the U.S. Supreme Court. 
You trade those two cases because you do not want to have that 
happen, and then you tell somebody, you know, we would like to 
keep things quiet. Let us make sure we do not disclose it. Is 
that right or wrong?
    Attorney General Holder. Well, there are a whole variety of 
reasons why we as a government, the Justice Department, decide 
not to become involved in qui tam cases: the strength of the 
evidence, questions of law, position of the----
    Mr. Issa. Is it okay to trade a case you do not want going 
to the Supreme Court for a dollar damage case? That is the real 
question here.
    Attorney General Holder. One has to look at this in its 
totality and decide exactly if there----
    Mr. Issa. Okay, I will take that as a, yes, it is okay to 
do that trade in your mind.
    Attorney General Holder. That was not a yes. I was trying 
to answer the question.
    Mr. Issa. Well, you know, Mr. Attorney General, I need a 
yes or no before you go into the long dialogue. Otherwise, I am 
wasting my time.
    There was a quid pro quo. There was a trade of $180 million 
worth of revenue to the American people in return for dropping 
a case that your Justice Department did not want to go before 
the High Court. To coin the phrases used, ``bad facts make bad 
decisions or bad law.''
    Now, I understand you, or at least Mr. Perez, did not want 
things going to the Supreme Court. But let us go through where 
we are today.
    Attorney General Holder. Well, the decision not to take 
over the false claims act case did not end the case.
    Mr. Issa. Well, you may say that, but the plaintiff who saw 
himself abandoned did not see it that way. But let me go onto 
another line of questioning.
    Attorney General Holder [continuing]. Had the ability to 
try the case. I do not think it worked out well, as I 
understand it. But the case was not over simply because the 
United States had not become involved. We----
    Mr. Issa. Right, but the case going to the U.S. Supreme 
Court was over.
    Attorney General Holder. We do not become involved in qui 
tam 80 percent of the time.
    Mr. Issa. The case going to the U.S. Supreme Court was over 
as a result.
    Attorney General Holder. The decision was made not to 
pursue that case.
    Mr. Issa. Okay. So the American people were denied the 
Highest Court considering a case. That is an undeniable fact. 
Let me go through some questions here.
    Attorney General Holder. That is incorrect.
    Mr. Issa. I have been working with----
    Attorney General Holder. That is a fact that is----
    Mr. Issa. Well, we will let the people decide whether they 
were denied a Supreme Court decision.
    Attorney General Holder. You are characterizing it as 
undeniable, but it is not at all. And that is typically what 
you do.
    Mr. Issa. Mr. Attorney General, Thomas Perez falsely stated 
to our Committee that he had apparently none, then 1, then 2, 
then 34, then 35 emails that violated the Federal Records Act. 
Your office has only, I think yesterday or today, allowed us to 
see in camera the two and from on these emails. We have not 
seen the contents.
    But in seeing the two and from----
    Ms. Jackson Lee. Mr. Chairman, I have a parliamentary 
inquiry, please.
    Mr. Goodlatte. The gentleman from California will suspend. 
The gentlewoman will state her parliamentary inquiry.
    Ms. Jackson Lee. I thank the gentleman. First of all, I 
would like to know, I have been on this Committee for more than 
I would like to count. Was there notice given of this recording 
to be played? I have not in the life of the time that I have 
been on this Committee heard a recording----
    Mr. Goodlatte. The gentlewoman----
    Ms. Jackson Lee. Was the minority noticed on this 
recording? Is this a hearing about Mr. Tom Perez, or is this a 
question about----
    Mr. Goodlatte. The gentlewoman will suspend.
    Ms. Jackson Lee. I would be happy to yield to you. First, I 
would like to know has notice been given? Was the Attorney 
General's office given notice about a recording----
    Mr. Goodlatte. The gentlewoman will suspend and the Chair 
will answer her question.
    Ms. Jackson Lee. I would be happy to.
    Mr. Goodlatte. There is no requirement under the Rules of 
the Committee that a Member cannot use evidence before the 
Committee as a part of the hearing.
    Mr. Issa. Mr. Chairman, if I could clarify for the 
gentlelady.
    Ms. Jackson Lee. I would be happy for the gentleman to do 
so.
    Mr. Issa. That recording was produced by the Justice 
Department. It is a piece of evidence that came from the 
Attorney General. So I would hope that playing back his own 
evidence would not be unreasonable.
    Ms. Jackson Lee. Let me, just if I can continue.
    Mr. Goodlatte. The gentlewoman may state a parliamentary 
inquiry and that is all because the gentleman from California 
has the time.
    Ms. Jackson Lee. I do understand it, and I appreciate it. 
So may I hear this again? Are you saying that evidence can be 
presented, but the question I asked was the Attorney General 
given notice that this recording would be played?
    Mr. Goodlatte. There is no requirement under the Rules of 
the Committee that a witness before the Committee be given 
evidence of or notice of evidence that may be presented to the 
witness at the hearing.
    Ms. Jackson Lee. Continuing my further inquiry, as I think 
I heard the gentleman from California make a point. But has 
this been authenticated as the actual true voice for the 
individual who is allegedly on it? Did the Committee 
authenticate it?
    Mr. Issa. If the gentlelady would yield. If the gentlelady 
would yield.
    Ms. Jackson Lee. I would be happy to yield.
    Mr. Issa. Thomas Perez has owned up to this being his 
voice. [Laughter.]
    Ms. Jackson Lee. Then the only thing, if I might continue 
my----
    Mr. Goodlatte. The gentlewoman has not stated a valid 
parliamentary inquiry.
    Ms. Jackson Lee. If I may continue it so that I may----
    Mr. Goodlatte. And the gentlewoman will suspend, and the 
gentleman from California will be recognized for the remainder 
of his question.
    Ms. Jackson Lee. Mr. Chairman, point of order.
    Mr. Issa. Mr. Chairman, I would ask that I have just 2 
minutes to conclude.
    Mr. Goodlatte. The gentleman's time will be restored to 2 
minutes.
    Ms. Jackson Lee. Can I make a point of order, Mr. Chairman?
    Mr. Goodlatte. The gentlewoman will state her point of 
order.
    Ms. Jackson Lee. The point of order is that Mr. Perez has 
authenticated his voice. Is the General authenticating his 
voice by answering the question? How is he authenticating Mr. 
Perez's voice?
    Mr. Goodlatte. The gentlewoman will suspend. That is not a 
parliamentary inquiry, nor is it an appropriate point of order.
    Ms. Jackson Lee. I am going to a point of order.
    Mr. Sensenbrenner. Mr. Chairman, I demand regular order.
    Ms. Jackson Lee. I thank the Chairman for his courtesies.
    Mr. Goodlatte. The gentlewoman's point of order is not well 
taken because there is no such rule that would require this 
Committee to treat this like we were in a trial. This is an 
opportunity for Members of the Committee on both sides of the 
aisle to ask questions of the witness.
    And the gentleman from California will continue his line of 
questioning.
    Mr. Issa. Thank you, Mr. Chairman.
    Mr. Attorney General, our investigators have seen 34 of the 
35 admitted emails that violate the Federal Records Act. They 
have only seen the to and from. They have not seen the 
deliberative contents, and they have not seen the remainder of 
the 1,200 emails.
    Mr. Cummings, my Ranking Member, joined in a letter 
requesting that we have the full contents pursuant to our 
subpoena of all 1,200. Will you make them available to the 
Committee based on our bipartisan request?
    Attorney General Holder. I will certainly look at the 
request. It is not something that I have personally been 
involved in, but I will look at the request and try to be as 
responsive as we can. I am sure there must have been a good 
reason why only the to and from parts were provided.
    Mr. Issa. Yes, you did not want us to see the details.
    Mr. Attorney General, in knowing the to and from----
    Attorney General Holder. No, no. That is what you typically 
do.
    Mr. Issa. I knowing the to and from.
    Attorney General Holder. No, I am not going to stop talking 
now. You characterized something as something that goes to the 
credibility of people at the Justice Department.
    Mr. Issa. Mr. Chairman, would you inform the witness as to 
the rules of this Committee?
    Attorney General Holder. That is inappropriate and it is 
too consistent with the way in which you conduct yourself as a 
Member of Congress. It is unacceptable, and it is shameful.
    Mr. Goodlatte. The gentleman has the time, and the 
gentleman may ask the questions that he deems appropriate.
    Mr. Issa. Thank you, Mr. Chairman. In these email headers, 
one of them was to Melanie Barnes, Domestic Policy Counsel. In 
other words, it was to the White House. We have not seen the 
contents. Secondly, one of them was to Sara Pratt at HUD. Now, 
that is germane to our discovery of this quid pro. But more 
importantly, it is to an AOL account. So communications went on 
between two government officials, both of whom were 
circumventing the Federal Records Act. Additionally, in these 
emails we learned that Thomas Perez has yet another non-
government account which he uses for government use. So in 
addition to his Verizon account, he has an RCN account.
    Would you agree to make all of this available to us since, 
first of all, it violates the Federal Records Act and your own 
rules. Second of all, it is pursuant to a legitimate use of 
Congress under which we would have it, and lastly, because you 
have asked for transparency.
    And before you answer, if you would, please, in the AP 
case, you have appointed Ronald Machen the U.S. attorney. And I 
am sure he is a fine U.S. attorney. But can he be considered to 
be independent when, in fact, when this Congress held you in 
contempt, he was the individual who recused on your orders to 
prosecute the case. If he will obey your orders and not living 
up to a contempt of Congress, can we believe that he is, in 
fact, independent?
    Mr. Johnson. Mr. Chairman, I would ask for regular order.
    Mr. Goodlatte. We have regular order. The gentleman's time 
has expired, but the Attorney General is allowed to answer the 
question.
    Mr. Johnson. It expired 45 seconds ago, Mr. Chairman.
    Attorney General Holder. Well, first off, I did not order 
Mr. Machen not to do anything with regard--I will not 
characterize it--the contempt finding from this Congress. He 
made the determination about what he was going to do on his 
own. So I did not have anything to do with that.
    With regard to the email request, I think that if your 
request is for relevant emails that have something to do with 
the subject matter that you are looking at, that is certainly 
something that I think we should consider.
    With regard to the entirety of his email accounts, 1,200 or 
1,300, I am not sure what the number was that you used. If they 
do not have anything to do with the matter at hand, I am not 
sure why they should be turned over.
    Mr. Issa. Mr. Chairman, a point of inquiry. When Congress 
issues a subpoena, in your understanding, is it to be 
determined, or, for that matter, when the Justice Department 
issues a subpoena, is it a decision of the recipient as to what 
is germane, or is it a decision of the subpoenaing authority?
    Mr. Goodlatte. That is a question beyond the scope of this 
hearing, but it is----
    Mr. Issa. Well, we have a few lawyers present.
    Mr. Goodlatte. We have many lawyers present, and certainly 
it is the opinion of the Chair that the subpoenaing party would 
determine the scope of their inquiry. If the respondent does 
not agree, then it would be appropriate for a court, and we 
hope that a court will soon decide the appropriateness of that 
subpoena because it is very disappointing that this has not 
been responded to, and that the Congress found it necessary to 
take the action that it took.
    The time of the gentleman has expired, and the Chair now 
recognizes the gentleman from Tennessee, Mr. Cohen, for 5 
minutes.
    Mr. Cohen. Thank you, Mr. Chair. Firstly, General, I want 
to thank the work of the Civil Rights Division. I guess Mr. 
Perez was responsible for that for, first, working with the 
Liberty Bowl Stadium in Memphis and working out our accessible 
capacity seating arrangement, and also working on the juvenile 
court issue, where the Division saw to it that our juvenile 
court will be a model for the Nation and protect the rights of 
young people, which was so necessary.
    And I also want to thank you for working with Mr. Scott and 
I to see that the Tax Division filed suit against Mo'Money that 
took advantage of people with fraudulent tax preparations. I 
thank you for that.
    I would like to question you about a few issues that bother 
me. One is the former Alabama governor, Don Siegelman, who was 
the government of Alabama and probably the last Democrat 
statewide official there in the past and maybe in the future 
for a long time. And he tried to get a lottery in his State, 
which I did in Tennessee, and I know how difficult it is. And 
in so doing, he found himself in court and convicted and in 
jail, and a case in which an unprecedented 113 former attorneys 
general, Republican and Democrat, representing 44 of the 55 
States have said his prosecution was a grave injustice. Just a 
numerous amount of legal experts have said that it was a grave 
injustice, and that the prosecution should never have taken 
place because the U.S. attorney, a Bush appointee, was the wife 
of the campaign manager of his opponent in a gubernatorial 
election. And that while she recused herself, she stayed 
involved.
    I know there are procedural issues about a pardon or 
commutation, but the President could pardon him now. Each day 
he is in prison, in my opinion, is a grave injustice because 
all that man did in appointing that individual to a board that 
he was accused of doing, a man who had been on that State board 
twice before, and he appointed him, was politics.
    And I would like to ask you--I am sure you are aware of the 
case--if you can assure me that you will review his case, 
because, in my opinion and the opinion of 113 former attorneys 
general, an innocent man is in jail being deprived of liberty.
    Attorney General Holder. Well, he is not eligible. There 
are procedural issues. He is not eligible to apply for a pardon 
because he is currently serving a sentence. Commutation is not 
possible because I understand he has an active appeal. So those 
are the regulations under which we operate, and those are 
potentially and obviously problematic with regard to the relief 
that you are seeking.
    Mr. Cohen. So you do not believe the President could issue 
a pardon now? I mean, the procedures you have are limitations 
you have put on your Justice Department. The President has no 
limitations.
    Attorney General Holder. No, that is true. The President's 
pardon power is close to absolute, and so I think that is 
right. I am talking about Justice Department regulations.
    Mr. Cohen. And is the Justice Department, the head of your 
division that looks over these is a Mr. Ronald Rodgers, another 
Bush appointee? Is that not correct?
    Attorney General Holder. I believe he was appointed in the 
Bush Administration.
    Mr. Cohen. Right. And he has been brought up by the IG, and 
the IG has said he should be investigated because he gave false 
information on a pardon request. He misstated what was the 
facts, and I want to know if he is under investigation, and 
have you looked into the IG's suggestions about Mr. Rodgers for 
misrepresenting information transmitted to the White House?
    Attorney General Holder. There was some difficulties in 
connection--I do not remember what the individual's name was--
about information that was, I guess, related to the White House 
from the pardon attorney's office. But I think corrective 
measures have been in place so that that kind of mistake would 
not occur in the future.
    Mr. Cohen. Well, I hope not, sir, and I would have great 
faith in you.
    My concern is that there is nothing more important than 
liberty, and taking your liberty is probably the most harshest 
thing the government can do a person. And we have taken the 
liberty of this gentleman, and I believe we need to look at 
that case. When 113 former AGs and Republicans and Democrats 
say it was a grave injustice, I think it needs to be looked at 
and try to remedy.
    And I think there are other cases. Mr. Scott brought them 
up: the disparity in crack and cocaine. We change the law. All 
those people in there who serve longer time than they would 
have under the law now, the President could commute their 
sentences.
    And one of the greatest threats to liberty has been the 
government taking people's liberty for things that people are 
in favor of. The Pew Research Group shows that 52 percent of 
Americans think marijuana should not be illegal, and yet there 
are people in jail, and your Justice Department has continued 
to put people in jail, for sale and use on occasion of 
marijuana. That is something the American public has finally 
caught up with. It was a cultural lag, and it has been an 
injustice for 40 years in this country to take people's liberty 
for something that was similar to alcohol.
    You have continued what is allowing the Mexican cartels 
power, and the power to make money, ruin Mexico, and hurt our 
country, by having a prohibition in the late 20th and 21st 
century. We saw it did not work in this country in the 20's. We 
remedied it. This is the time to remedy this prohibition, and I 
would hope you would do so.
    I know my time is almost gone. I would like to ask the 
Chair for just one brief moment.
    Mr. Goodlatte. The gentleman's time has expired, and we 
still have more than 24 Members who have not asked questions of 
the Attorney General, so----
    Mr. Cohen. I yield back the balance of my time.
    Mr. Goodlatte. And the Chair would advise Members that if 
they have additional questions, we understand. I have 
additional questions, and I know most Members have additional 
questions. They can submit those to the Committee in writing, 
and we will submit all of them to the Attorney General so he 
can have the opportunity to respond to those as well.
    Mr. Cohen. Thank you, Mr. Chairman.
    Mr. Goodlatte. But the Chair now recognizes the gentleman 
from Virginia, Mr. Forbes, for 5 minutes.
    Mr. Forbes. Thank you, Mr. Chairman. General, we get the 
theatrics. We know we wait 650 days from the time IRS officials 
become aware of the abuses of the Internal Revenue Service 
until the Department opens an investigation. And then we say we 
cannot comment because we have got investigations going. Saying 
I cannot comment because of an ongoing investigation has kind 
of become the Fifth Amendment of politics for this 
Administration.
    But I want to ask you not about ongoing investigations, but 
what you know currently today as the chief law enforcement 
officer of the Federal Government. This is a picture. I do not 
expect you to be able to see it from where you are. It is 
Tyrone Woods. His father gave it to me yesterday.
    As you know, he and three other Americans were brutally 
murdered in Benghazi, many people believe, because we had 
inadequate security or we had an inadequate response. Many 
people are concerned, of course, of the manipulation of facts 
that took place after that. Yet this Administration, to my 
knowledge, has continued to say that there was nothing the 
Secretary of State could reasonably or should reasonably have 
done to have prevented those murders, and certainly she has had 
no personal repercussions.
    This is an individual I think you can see better. This is 
Brian Terry. He was brutally murdered, and so were about 150 
innocent Mexican citizens, because of Fast and Furious, which 
you have testified about here. And as far as I remember from 
your testimony, there was nothing you felt that you should 
reasonably have done to have prevented those murders. And you 
have suffered no personal repercussions from that.
    Just a few months ago, we had someone sit right where you 
are sitting, John Morton, the director of ICE, after we had the 
release of 2,000 illegal immigrant detainees, some of whom were 
being held for aggravated felonies. And we were basically told 
by the director that there was nothing that he should have 
reasonably done to stop that, and he had no personal 
repercussions.
    Now we have all of this stuff we are hearing from the 
Internal Revenue Service where we see these atrocious actions, 
some against individuals who were simply teaching about the 
Constitution and the Bill of Rights. And yet so far we have 
heard nothing from the Administration about what they should 
have done to reasonably have stopped these atrocities, and 
certainly no personal repercussions yet.
    So, General, my question to you today is, based on what you 
know today, not ongoing investigations that we may never 
conclude or we may never see or that we do see--we will not 
have you back here--just what you know today, in any of these 
situations, is there anything that you are aware of today that 
any of the heads of the those departments or agencies should 
reasonably have done to have stopped the situations that I have 
just outlined that took place?
    Attorney General Holder. Well, I know that Benghazi is 
something that I am not as familiar with, but I am familiar 
with Fast and Furious. And I will tell you that with regard to 
that, once I became aware of it, I stopped the policy.
    Mr. Forbes. No, no, I am saying anything you should have 
done to have stopped them from taking place. It is too late 
afterwards. I am saying anything you should have done 
beforehand.
    Attorney General Holder. Well hindsight is always 20/20. It 
is always accurate, and it is an easy thing to stand up or sit 
up where you are and do that. I have got to run an agency of 
116,000 people, and we do it as best we can. When there are 
mistakes that are made, we hold people accountable. We change 
policies. That is what we do in the executive branch.
    To the extent that there is fault, I have acknowledged that 
as the head of the Agency, I am ultimately responsible for that 
which happened in my Agency.
    Mr. Forbes. And, General Holder, I appreciate the fact that 
we say I am responsible, but when irresponsible actions take 
place, nobody has any personal repercussions, On any of those 
situations, did any of those individuals have any personal 
repercussions from the actions that took place?
    Attorney General Holder. Yeah. There were people that we 
held----
    Mr. Forbes. I am talking about the head of the Agency or 
the Department. You did not have any personal repercussions, 
did you?
    Attorney General Holder. I held people accountable.
    Mr. Forbes. You held people accountable. Let me say why I 
am saying that, because if, in fact, you cannot say anything 
that you should have reasonably done, the Secretary of State 
should have reasonably done, the Commissioner should have 
reasonably done, the Director should have reasonably done. If 
there is no personal repercussions, should Americans not 
realize that the only way we can stop these abuses from 
happening with the Internal Revenue Service from this massive 
amount of data they are going to get under the Affordable 
Health Care Act, is to make sure that data never gets to the 
Internal Revenue Service in the first place? Because if it does 
and the abuse occurs, nobody is going to be held accountable at 
the top, and also we are going to say afterwards there is 
nothing that we should have reasonably done to stop it?
    Mr. Chairman, with that, we actually have a piece of 
legislation we are putting in today to make sure the IRS is not 
involved in our health care decisions. And I hope we will get 
it passed out of this House, and hopefully the Senate, so we 
can make sure those abuses do not take place.
    And with that, I yield back, Mr. Chairman.
    Mr. Goodlatte. I thank the gentleman for his comments.
    And the Chair now recognizes the gentleman from Georgia, 
Mr. Johnson, for 5 minutes.
    Mr. Johnson. Thank you, Mr. Chairman. General, the issue of 
the AP investigation, or actually the investigation into the 
illegal disclosure of classified information. To conduct that 
investigation, the Justice Department has various tools, among 
which is the subpoena. And a subpoena can be issued without 
judicial oversight, and it was through a subpoena that the 
Justice Department obtained phone records from the carrier that 
related to certain personnel at the Associated Press. Is that 
correct?
    Attorney General Holder. Again, I assume that is correct. I 
am not----
    Mr. Johnson. Well, subpoena is what we know that the 
information was compiled from. Now, we can or the Justice 
Department has the lawful authority by way of subpoena power to 
obtain those records. Is that correct?
    Attorney General Holder. The Justice Department does have 
that subpoena power?
    Mr. Johnson. Yes.
    Attorney General Holder. Yes.
    Mr. Johnson. And so it is legal for the Justice Department 
to obtain that information, but it certainly could cast a cool 
breeze over the First Amendment rights of freedom of the speech 
and freedom of the press. And that is why we have some special 
rules with respect to the issuance of subpoenas by law 
enforcement to obtain information from media sources. That is 
correct, is it not?
    Attorney General Holder. Yeah. Again, without getting into 
the AP case, for lack of a better term, because the case is 
really not about the AP. It is about the people who leaked.
    Mr. Johnson. Correct.
    Attorney General Holder. Be that as it may, there is a 
recognition within the Justice Department that in dealing with 
interacting with the press, you are dealing with a special 
entity, and there have to be special rules about how that 
interaction occurs.
    Mr. Johnson. And those rules are by way of regulations, but 
they are not by way of legislation, correct?
    Attorney General Holder. That is correct.
    Mr. Johnson. And that being the case, it might be a good 
thing for Congress to visit that issue and to determine whether 
or not we want to turn those guidelines and regulations into 
law.
    And now, you made an important distinction. You said that 
the crime that is being investigated--well, you did not say 
this, but I will say this. It is not the publishing of the 
information, of the classified information, but it was actually 
the leaking of the classified information which is the basis of 
your investigation, correct?
    Attorney General Holder. That is correct.
    Mr. Johnson. But now, we also have an old law that would 
allow for prosecution of anyone who published the classified 
information. Is that not correct?
    Attorney General Holder. You got a long way to go to try to 
prosecute people, the press, for the publication of that 
material. Those prosecutions have not fared well in American 
history.
    Mr. Johnson. Well, I would argue that the Espionage Act of 
1917 would authorize the prosecution of anyone who disclosed 
classified information. And perhaps that is another area that 
we may need to take action on here in this Congress.
    Now, I will note that in this Congress, we have had a lot 
of bills, the most famous of which in my mind was the Helium 
legislation. And we wanted to ensure that we had enough helium 
to keep everything moving forward here in America, but we 
certainly need to protect the privacy of individuals, and we 
need to protect the ability of the press to engage in its First 
Amendment responsibilities to be free and to give us 
information about our government so as to keep the people 
informed. And I think it is a shame that we get caught up in 
so-called scandals and oversight of unimportant matters when we 
should be here addressing these real problems that things like 
the AP scandal illustrate us for us.
    I will yield the balance of my time to you.
    Attorney General Holder. Well, I would say this. With 
regard to potential prosecution of the press for the disclosure 
of material, that is not something that I have ever been 
involved, heard of, or would think would be a wise policy. In 
fact, my view is quite the opposite, that what I proposed 
during my confirmation, what the Obama Administration supported 
during 2009, and I think Senator Schumer is now introducing a 
bill that we are going to support as well, that there should be 
a shield law with regard to the press' ability to gather 
information and to disseminate it.
    The focus should be on those people who break their oaths 
and put the American people at risk, not reporters who gather 
this information. That should not be the focus of these 
investigations.
    Mr. Goodlatte. The time of the gentleman has expired.
    The Chair now recognizes the gentleman from Iowa, Mr. King, 
for 5 minutes.
    Mr. King. Thank you, Mr. Chairman. General Holder, I thank 
you for your testimony here today, and I have a number of 
curiosities remaining.
    One of them is this. Are you aware of any plans or any 
discussion of an effort to transfer one or more detainees from 
Bagram Air Force Base to the United States for trial?
    Attorney General Holder. Nothing immediately comes to my 
mind. I am not aware of that.
    Mr. King. Then you have not been in discussions of such a 
thing? Are you aware of any cases in the past where that has 
happened?
    Attorney General Holder. That is what is giving me some 
pause. I am not sure if we have brought people back from Bagram 
or not. I just do not know. Maybe I can get a written response 
to that, but I am not sure about that.
    Mr. King. And perhaps I am too precise, and I should 
probably say the Afghanistan theater instead. Would that change 
your response?
    Attorney General Holder. I am thinking of cases that we 
have brought of people here in the United States who committed 
acts overseas, and I am just not sure, as I think about these 
people, where those acts actually occurred. I am not sure if it 
was Afghanistan. I just do not remember.
    Mr. King. Do you understand the concept of my question, out 
of the theater and the global War on Terror? Out of the theater 
and the global War on Terror, and I use Bagram specifically, 
but with regard to Afghanistan or that theater of war, then you 
would assert that currently you are not in discussions about 
transferring a detainee to the United States for trial.
    Attorney General Holder. Not that I am aware of as we 
speak. I would have to look into that, and if I have a contrary 
answer to that, I will get you something in writing.
    Mr. King. Thank you, General Holder. I would look back on 
past testimony here before the Committee, and you and I have 
had a couple of discussions about the Pigford issue. I think 
each time, it will be the third time in the course of a couple 
of years. And as that has unfolded before us, I would ask have 
you read the New York Times article dated April 25th?
    Attorney General Holder. Yes, I did.
    Mr. King. And I would offer the opportunity to comment on 
your review of that article.
    Attorney General Holder. Yeah. I think that the article 
missed a few things. There are steps that we have in place to 
limit the amount of fraud that goes on there both in terms of 
getting sworn statements from claimants from doing audits. 
There are a variety of things that we have in place to ensure 
that the kind of fraud that was described in that article--I 
think the article made the fraud seem more widespread than it 
actually is.
    Mr. King. What about the surplus funds that remain that 
have apparently been budgeted for the, I believe it is the 
Native American case, about $400 plus million?
    Attorney General Holder. Right.
    Mr. King. What would your recommendation be to claw that 
money back from there rather than to distribute it to locations 
that apparently do not have the ability to utilize that?
    Attorney General Holder. Well, first of all, it is not 
going to the lawyers. There was some misapprehension about 
that.
    Mr. King. No, I think we understood that.
    Attorney General Holder. Okay.
    Mr. King. There is a component of it, around $60 million 
and about $400 million that would be sitting there waiting to 
be distributed to organizations that were supportive of Native 
Americans.
    Attorney General Holder. Right, and I think that is the way 
in which the settlement was crafted. And so to the extent that 
these kinds of organizations can be found, that is where the 
money should appropriately go.
    Mr. King. Now, would it not bring to your attention, 
though, that if you cannot find a place to put the money, maybe 
there was not a level of discrimination to the level that was 
originally claimed if there are not enough claimants?
    And let me broaden this question a little bit consistent 
with this them, and that is that we saw with Pigford I and then 
Pigford II, a testimony before this very Committee several 
years ago from the head of the Black Farmer's Organization that 
were 18,000 Black farmers. If one presumed that 100 percent of 
them were discriminated against and we ended up with some 
96,000 claims, and we have at least 15,000 plus payouts at this 
point, and all of Pigford II to be determined yet that has over 
66,000 claims within that universe, so totaling up around 
96,000 altogether within Black Farmers, then we add to that 
Garcia and Kiefsiegel and Love. And we see this number grow to 
at least $4.4 billion, and I believe I quoted to you last time 
$4.93 billion.
    And are you aware of a single perpetrator of 
discrimination--they all would have had to have been under the 
payroll of the USDA. Have you investigated to identify a single 
perpetrator of discrimination against minorities or female 
farmers that always under the payroll of the USDA? Have you 
identified even one?
    Attorney General Holder. Well, there was certainly a basis 
for the payments and the settlements.
    Mr. King. That was the confession of the USDA.
    Attorney General Holder. I am sorry?
    Mr. King. It was a confession or a stipulation of the USDA 
back in about 1996 where it began.
    Attorney General Holder. Right. There was a determination 
made, admissions made, that, in fact, this kind of 
discrimination did occur. And it was on that basis that the 
settlements were actually reached.
    Mr. King. But does that absolve the perpetrators of $4.4 or 
more billion worth of discrimination? Are they not still out 
there? Should they not be dealt with? Should there not be a 
means to try to identify the individuals that would allegedly 
commit that kind of discrimination?
    Mr. Goodlatte. The time of the gentleman has expired, but 
the Attorney General is welcome to answer.
    Attorney General Holder. We are talking about 
discrimination that occurred many, many years ago in some 
instances, and I am not sure that our time, our limited 
resources, would be well spent trying to deal with identifying 
those people as much as trying to make sure that people are 
compensated and that these kinds of actions do not occur in the 
future.
    Mr. King. Thank you, Mr. Attorney General.
    I yield back.
    Mr. Goodlatte. I thank the gentleman for his questions.
    The Chair now recognizes the gentlewoman from California, 
Ms. Chu, for 5 minutes.
    Ms. Chu. Mr. Attorney General, I would like to focus my 
questions on hate crimes and racial profiling. First of all, I 
ask unanimous consent to submit testimony from the Sikh 
Coalition and a letter led by Representative Joe Crowley with 
over 100 Members of Congress regarding tracking hate crimes 
against Sikh, Hindu, and Arab Americans for the record.
    Mr. Goodlatte. Without objection, they will be made a part 
of the record.
    [The information referred to follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                   
                               __________

    Ms. Chu. Thank you. Last week, an elderly Sikh man, 
dedicated to his faith and his community, was doing what he did 
every day, volunteering at his Gurdwara when a man viciously 
attacked him. At 82 years old, Piara Singh was beaten with an 
iron bar, puncturing one of his lungs, fracturing his face, and 
breaking several ribs.
    This is only the latest of a string of attacks on American 
Sikhs in recent years. In the last 2 years alone, two elderly 
Sikhs were murdered in Elk Grove, California, a Sikh cab driver 
was assaulted in Sacramento, California, a Sikh transit worker 
was assaulted in New York City, a Sikh cab driver was assaulted 
in Seattle, Washington, a Sikh business owner was shot and 
injured in Port Orange, Florida, and six Sikhs in Oak Creek, 
Wisconsin were murdered, of course, in one of the worst attacks 
in an American place of worship since the 1963 bombing of the 
16th Street Baptist Church.
    The FBI tracks hate crimes on Form 1-699. As you can see, 
there is no current way to document hate crimes against Sikhs 
on this form, even though Sikh-Americans continue to experience 
hate crimes at rates that are disproportionate to their 
population.
    According to Sikh Coalition surveys in New York City and 
the San Francisco Bay area, approximately 10 percent of Sikhs 
believe they have been subject to hate crimes. Arab-Americans 
and Hindu-Americans also face hate crimes, but they, too, are 
excluded from tracking. If someone were to look at FBI data 
today, it would be as though Sikhs, Arab-Americans, and Hindus 
did not exist.
    We have asked for revisions to Form 1-699, and there are 
135 Members of the U.S. Congress that have signed on to this, 
as well as the Civil Rights Division and Community Relations 
Service of the U.S. Department of Justice in supporting 
revisions to Form 1-699. Can you tell us what the status of 
this is so that hate crimes against these population can 
finally be tracked?
    Attorney General Holder. We agree with what you are saying. 
The Department recommended what is called the Advisory Policy 
Board last year that the UCR be amended to include anti-Sikh, 
anti-Hindu, anti-Arab, anti-Middle Eastern categories in the 
ethnicity or race section. That board is supposed to meet again 
in June, next month, where it will consider those potential 
changes before they make them to the FBI director. But it would 
be my strong recommendation that the form be modified so that 
it captures Sikh, anti-Muslim, anti-Middle Eastern violence.
    Ms. Chu. I truly appreciate that. And I would also like to 
ask about racial profiling. Immediately after the Boston 
bombing, fears of racial profiling and investigation by the 
broader community surfaced. The first person of interest 
following the bombing was a Saudi Arabian student who was 
tackled by a fellow bystander because to them he looked 
suspicious. He was questioned in the hospital after suffering 
severe burns from the bombing and had his apartment searched. 
But it turns out he was a victim of the bombing, not the 
perpetrator. We have also seen other instances of racial 
profiling by law enforcement at our Nation's airports, at the 
border, at NYPD, and other local and State law enforcement.
    DoJ's existing guidelines on racial profiling were issued 
in 2003. It outlines provisions to ban racial profiling, but 
includes broad exceptions. It also does not apply to profiling 
based on religion or national origin. And it has allowed 
profiling against Arab-Americans, American Muslims, American 
Sikhs, and immigrants. And it also does not apply to State and 
local law enforcement, and also lacks a meaningful enforcement 
mechanism.
    This guidance on racial profiling from the Department of 
Justice has not been updated in a decade. I know that you are 
reviewing this guidance, but what is the status of your review, 
and when will you issue a new guidance to prohibit profiling 
based on religion and national origin, and address my other 
concerns?
    Attorney General Holder. Racial or ethnic profiling is not 
good law enforcement. It is simply not good law enforcement. In 
fact, if you look at Al-Qaeda, what they try to do is find 
people who they identify as having clean skins to try to get 
past our intelligence and security apparatus.
    The matter, as you said, the policy is under review. I had 
a meeting as recently as, I think, the week before last, so I 
think we are at the end stages of that review process. And I 
would expect that we will have what the product of that process 
is in a relatively short period of time.
    But this is something that is actively under review that I 
have been personally involved in.
    Ms. Chu. Thank you, and I yield back.
    Mr. Goodlatte. The Chair thanks the gentlewoman.
    And the Chair now recognizes the gentleman from Arizona, 
the Chairman of the Subcommittee on Constitution and Civil 
Justice, Mr. Franks, for 5 minutes.
    Mr. Franks. Well, thank you, Mr. Chairman. General, we are 
glad to have you here today. I am going to kind of shift gears 
here a little bit and be a little bit philosophical, and kind 
of reflect on the notion as to why we are really all here today 
and why we are really all here in this place.
    I think, as I noticed earlier, that Mel Watts' little 
grandchild was symbolic in the sense of what we all hope to try 
to protect in the future. I have a little boy at home, 4 years 
old, and I think it is very important that we keep a 
statesman's eye on the future and recognize with all the 
politics that are inevitable with the challenges that we face, 
we need to kind of keep an eye on why we are all here. You 
know, this notion of America that all of us are created equal, 
that all of us are God's children, and should be protected is a 
pretty important thing. And I know as the Nation's chief law 
enforcement officer in a sense that occurs to you as well.
    And it just seems to contrast pretty significantly with 
what we heard here in the last few months about a guy named 
Kermit Gosnell, who ran an abortion clinic and aborted late-
term babies. And if they survived, he would proceed to cut 
their spines with scissors. And somehow I do not know when we 
are going to ask ourselves if that is who we really are.
    I suppose the unique thing about it is that it is not all 
that unique. While we might sanitize the clinics and other 
places, about 18,000 babies a year 20 weeks or older are 
aborted in this country, and that is the Guttmacher Institute's 
quotes. And there are about 44,000 abortion survivors living in 
the country today, so this is not as unique as it might be. And 
though we might sanitize the clinics in the future, I do not 
know how we can sanitize the horror and inhumanity that is 
forced upon these little babies.
    Now I guess my first question would be along the lines, 
where is our President on this subject, but unfortunately I 
already know that answer. He voted against the Born Alive 
Infant Protection Act when he was in his home State several 
times. And so I already know where he is.
    So the question today is, as a law enforcement officer, you 
know, we passed the Born Alive Infant Protection Act on the 
Federal level, and it says in part the words ``person, human 
being, child, and individual shall include every infant member 
of the homo sapiens who is born alive at any stage of 
development.'' Now, I am almost to my question, Mr. Attorney 
General.
    But I would just remind you that there was a lady named 
Ashley Baldwin that worked for Kermit Gosnell, and she 
described one of these little babies that was breathing. She 
described him as around 2 feet long, who because of the 
process, had no eyes or mouth, but was making this little 
screeching noise. She said it sounded like a little alien.
    Sometimes I just wonder if we really could back up as a 
society and ask ourselves what it is going to take change our 
minds on some of these kinds of tragedies.
    So my question to you, and it is a sincere question, and I 
hope you take it so. In 2002, Congress enacted the Born Alive 
Infant Protection Act, and it provides that all Federal 
protections, including from your office, sir, for persons apply 
to every infant born alive.
    So will you enforce the Born Alive Infant Protection Act as 
Attorney General, and will you consider carefully what is 
happening in clinics across the country like happened at the 
clinic that Kermit Gosnell ran?
    Attorney General Holder. Well, like you, I share many of 
the concerns that you talked about. I am a father. I have three 
kids. And I am interestingly married to a woman who is an 
obstetrician, a gynecologist, very accomplished in her field. I 
have responsibilities as Attorney General to enforce all the 
laws that Congress----
    Mr. Franks. Have you ever enforced this law even one time?
    Attorney General Holder. I do not know.
    Mr. Franks. Will you get back to us on that? Have you ever 
enforced the Born Alive Infant Protection Act even one time?
    Attorney General Holder. We can examine that and see 
whether the U.S. attorneys since the law passed--you said in 
2002?
    Mr. Franks. Yes.
    Attorney General Holder. How many prosecutions there have 
been under that law.
    Mr. Franks. Well, there has been 18,000 opportunities a 
year since then approximately, so I am just wondering if you 
have even enforced it once.
    Attorney General Holder. I do not know whether there was 
enforcement during the Bush Administration or the Obama 
Administration since the passage of the law in 2002. I just do 
not know what the statistics are.
    Mr. Franks. Okay. Well, you know, I guess I hear the mantra 
so often that, you know, that somehow this is choice. But to 
stand by in silence while the most helpless of all children are 
tortuously and agonizingly dismembered day after day after day, 
year after year, Mr. Attorney General, is quite honestly a 
heartless disgrace that really cannot be described by the 
vocabulary of man. And I hope you consider that carefully, sir.
    Mr. Goodlatte. The Chair thanks the gentleman for his line 
of questioning and comments, and now recognizes the gentleman 
from Florida, Mr. Deutch, for 5 minutes.
    Mr. Deutch. Thank you, Mr. Chairman. General Holder, in 
today's hearing some of my colleagues have brought up to you 
the news that the IRS engaged in allegedly improper targeting 
of certain groups based on their political persuasions. The 
revelation obviously is disturbing because any display of 
political bias by the IRS is outrageous. And as the FBI carries 
out the Department of Justice's request for an inquiry into 
possible criminal activity at the IRS, it is absolutely 
imperative that those responsible are held accountable.
    However, my hope, Mr. Attorney General, is that this 
inquiry into potential criminal activity will generate another 
policy debate that this scandal beckons us to have here in 
Congress. The debate that we need to have is whether there are 
too many groups of all political persuasions, across the 
political spectrum, that receive improper tax exempt status 
from the IRS by claiming that they are social welfare groups.
    Since the Supreme Court Citizens United decision, the 
number of groups applying for this tax exempt status to the IRS 
has more than doubled. In 2010, the number of (c)(4)s 
registered with the IRS jumped to over 139,000, up from just 
2,000 the year before. That is because these so-called social 
welfare organizations do not have to disclose their donors. 
They can still maintain their 501(c)(4) status even if they 
write huge checks and even if they write them to super PACs.
    In 2012, when a record $1.28 billion was spent by super 
PACs and outside groups to influence the election, and a 
quarter of that money cannot be traced to any source, the 
evidence shows that many of the (c)(4)s are being established 
for the sole purpose of funneling anonymous cash to super PACs.
    Now the IRS should not automatically accept all 
applications for tax exempt status when groups are increasingly 
being established for explicit political purposes. So as part 
of the investigation, part of the discussion, we need to know 
whether the tax exempt status of any (c)(4), whatever its 
politics, was either denied or revoked, not because of 
politics, but because they are ripping of taxpayers by gaining 
this tax exempt status.
    Of course, the American people should be outraged that IRS 
employees would scrutinize specific groups based on political 
affiliations, but I am sure that my colleagues would all agree 
that the American people, the hardworking taxpayers of this 
Nation, should also be outraged that they are likely 
subsidizing tax breaks for the makers of the malicious super 
PAC ads that poisoned our airwaves during the 2012 election 
season. The American people were disgusted by these ads, but to 
think that these ads may have been subsidized by the American 
taxpayers, that, too, I would suggest is a scandal.
    Now, 50 years ago, General Holder, 50 years after the 
Supreme Court's seminal decision in Gideon, recognizing the 
provision of counsel for indigent defendants in criminal cases 
is a requirement of the Sixth Amendment. Our Nation's indigent 
defense system is in crisis. The crisis has been well 
documented by the ABA, National Association of Criminal Defense 
Lawyers, legal scholars, and other organizations. In fact, you 
have spoken extensively on the indigent defense crisis facing 
the Nation.
    The current statutory authority under 42 U.S. Code 14141 in 
which the Department of Justice can seek remedies for a pattern 
or practice of conduct that violates the constitutional or 
Federal statutory rights of children in the juvenile justice 
system can provide an important tool to encourage systemic 
reforms that protect the right to counsel for indigent adults 
as well.
    As you are aware, in December of last year, DoJ reached the 
landmark settlement agreement with the juvenile justice court 
of Memphis in Shelby Count, Tennessee that will lead to major 
reforms in the juvenile system court system there.
    The agreement was reached with the county and will 
implement many of the ABA's 10 principles of a public defense 
and delivery system to ensure that a system is in place that 
will protect the constitutional right to counsel for children 
in the juvenile justice system.
    On April 26th, 2012, the Department issued a report of 
findings describing the numerous failures to protect the 
constitutional rights of juveniles. The juvenile court of 
Memphis in Shelby County responded to the report by beginning 
to voluntarily institute reforms to the system, and indicating 
they would promptly correct the violations identified in the 
Department of Justice report, which resulted in this 
comprehensive settlement agreement. And I want to commend you 
and your staff at DoJ for all of their hard work in this case 
to ensure that the constitutional right to counsel for 
juveniles is protected.
    Now, this landmark settlement agreement was made possible 
by your Department exercising its authority under 42 U.S. Code 
Section 14141. The Department has been conducting similar 
investigations and has found numerous violations in the 
juvenile justice system elsewhere.
    But I would like to ask you, since I along with Ranking 
Member of the Crime Subcommittee, Bobby Scott, have introduced 
H.R. 1967, the Right to Counsel and Taxpayer Protection Act, 
which will permit the DoJ to seek similar remedies for patterns 
of practice of conduct that violate the constitutional right to 
counsel for adults in the criminal justice system, whether you 
think the effectiveness of the section for juveniles would also 
be helpful to take the kind of action that was taken there this 
time to help adults?
    Attorney General Holder. Well, I think your focus on this 
issue is right. I mean, your time is limited, but focusing on 
this whole question of indigent representation of juveniles, 
adults, especially 50 years after Gideon, I think is precisely 
what we should be about. It is something that I have tried to 
focus on as Attorney General. We have started it in the Justice 
Department an Access to Justice Office. I think the legislation 
that you are talking about is something we would like to work 
with you on because I think the need is there.
    With regard to the first part of your question, the whole 
question of these 501(c)(4)s, as I said, we are going to be 
very aggressive, appropriately aggressive, and we will let the 
facts take us where they may with regard to the potential 
problems that existed at the IRS.
    But I think that should not distract us as a Nation from 
asking that broader question that you raised, and that is about 
501(c)(4)s, and this is irrespective of what your ideological 
bent is, whether you are left, right, progressive, 
conservative, Republican, Democrat.
    The use of the Tax Code in the way that it potentially 
seems to have been used in these 501(c)(4)s is something that I 
think we need to ask ourselves about. And I would hope that 
what we are going to do in our criminal investigation will not 
have a chilling effect or chilling impact on asking that 
question about 501(c)(4)s.
    Mr. Goodlatte. The time of the gentleman has expired.
    The Chair now recognizes the gentleman from Texas, Mr. 
Gohmert, for 5 minutes.
    Mr. Gohmert. Hello, Attorney General. Down here on the end, 
thank you.
    I remember we have talked about this before, but I want to 
bring it up again. The Holy Land Foundation trial that occurred 
in Dallas, convictions obtained in 2008, there were boxes and 
boxes of documents that were provided to the people that were 
convicted of supporting terrorism. And I would like to ask 
again for Congress to be allowed to have copies of the same 
things the people supporting terrorism got before they were 
convicted.
    Will you provide those documents without us having to go 
through a formal subpoena process? The big ones they got.
    Attorney General Holder. Yeah. Again, I have this note here 
because I asked this question. We did, in fact, promise you 
access to those documents that were made public in the case. 
But now, what my people tell me is that we never heard from 
your staff to make those arrangements. We will promise to make 
them available to you. What I would just ask is to have your 
staff contact mine, and we will----
    Mr. Gohmert. Well, then we will work that out, all right?
    Attorney General Holder. We can make that happen.
    Mr. Gohmert. And also you had mentioned that the FBI did a 
good job in following up the lead from the Russians about 
Tamerlan Tsarnaev. Do you know what questions FBI agents asked 
of Tamerlan to determine that he was not a threat?
    Attorney General Holder. I do not know the specific 
questions.
    Mr. Gohmert. Do you know if they would have asked who his 
favorite Islamic writer was? Are they allowed to ask those 
questions?
    Attorney General Holder. I know----
    Mr. Gohmert. Whether you know or you do not know, were they 
allowed to ask who his favorite imam was? Were they allowed to 
ask about the mosque he was attending at Cambridge or had been 
in Boston, from what I understand? Were they allowed to ask 
those questions?
    Attorney General Holder. I know a good deal about what was 
asked of him in connection with the interaction that occurred, 
but that is potentially part of this ongoing case. And that is 
why I am a little hesitant to----
    Mr. Gohmert. Well, it is also in trying to determine how 
the FBI blew the opportunity to save people's lives by 
accepting the Russian information and following up on it, 
because what we have dealt with, and it should not have been 
classified, but the information being purged from FBI documents 
has been classified. And I have reviewed that information, and 
I am aware of what has been purged in the efforts to avoid 
offending anyone who is Islamic. I am not concerned about 
offending anybody that wants to blow us up, but I am concerned 
about religious freedom, which is another topic with the IRS.
    But were you aware of the Cambridge mosque where Tamerlan 
was attending back at the time that the Russians gave us that 
information?
    Attorney General Holder. Not at that time.
    Mr. Gohmert. All right. Well, let me tell you. He was 
attending a mosque in Cambridge, and obviously as you are not 
sure about that, you would probably not have had anybody 
provide you the organization papers for the Islamic Society of 
Boston that was also the founder of the mosque in Cambridge, a 
guy named Alamoudi that I am sure you know is doing 23 years 
for being involved in terrorism, also working with the Clinton 
Administration back before he was arrested and then convicted 
and sent to prison for 23 years. But he started that mosque.
    What kind of follow-up was done on the mosque at Cambridge 
and the mosque at Boston where you had a convicted terrorist 
that was involved in the organizing? Do you know what they did 
about it?
    Attorney General Holder. All I can say at this point is I 
think that what the FBI did in connection with the information 
that they received was thorough. There are questions of the 
Inspector General----
    Mr. Gohmert. Well, thorough is an opinion. I am asking if 
you knew specifically about the mosque at Cambridge, who 
founded it, that a terrorist founded it, the one that he 
attended. And it sounds like from your answer you feel 
satisfied it was thorough, but you do not really know what they 
looked at. So let me move on then----
    Attorney General Holder. My answer to the question is that 
the FBI, as I said, I think was thorough. But there were 
problems that were not of the FBI's making with regard to 
their----
    Mr. Gohmert. Look, the FBI got a head's up from Russia that 
you have a radicalized terrorist on your hands. They should not 
have had to give anything else whatsoever. That should have 
been enough. But because of political correctness, it was not a 
thorough enough examination of Tamerlan to determine this kid 
had been radicalized. And that is the concern I have.
    On the one hand, we go after Christian groups, like Billy 
Graham's group. We go after Franklin Graham's group. But then 
we are hands off when it comes to possibly offending someone 
who has been radicalized as a terrorist. And I appreciate Ms. 
Chu's comment, there were people concerned about possible 
profiling. But I would submit, Attorney General, there were a 
lot more people in America concerned about being blown up by 
terrorists.
    And I regret very much my time has expired.
    Attorney General Holder. Well, let me just say this. You 
have made statements as matters of fact, and, you know----
    Mr. Gohmert. You point out one thing that I said that was 
not true.
    Mr. Goodlatte. The time of the gentleman has expired. The 
Attorney General may----
    Mr. Gohmert. Mr. Chairman, I would ask a point of personal 
privilege. He said I said something as fact that he does not 
believe was. I would like to know specifically what it was so 
that I can----
    Ms. Jackson Lee. Regular order, Mr. Chairman.
    Mr. Goodlatte. The gentleman from Texas should suspend 
because the Attorney General has the opportunity to answer the 
question. Once he has completed the question, if the gentleman 
has a point of personal privilege, he can exercise it.
    Mr. Gohmert. Thank you.
    Mr. Goodlatte. But at this point, the Attorney General gets 
to answer.
    Attorney General Holder. The only observation I was going 
to make is that you state as a matter of fact what the FBI did 
and did not do. And unless somebody has done something 
inappropriate, you do not have access to the FBI files. You do 
not know what the FBI did. You do not know what the FBI's 
interaction was with the Russians. You do not know what 
questions were put to the Russians, whether those questions 
were responded to. You simply do not know that.
    And you have characterized the FBI as being not thorough or 
taking exception to my characterization of them as being 
thorough. I know what the FBI did. You cannot know what I know. 
That is all.
    Mr. Gohmert. Well, thank you, Mr. Chairman. And that is 
simply the reason--I did not assert what they did or did not 
do. I asserted what the----
    Mr. Goodlatte. The time of the gentleman----
    Mr. Gohmert. I cannot have him----
    Ms. Jackson Lee. Regular order.
    Mr. Gohmert [continuing]. Challenge my character and my 
integrity without having a chance to respond to that.
    Mr. Richmond. Mr. Chairman, regular order.
    Mr. Goodlatte. The gentleman will suspend. If the gentleman 
believes that he has a point of personal privilege, he can 
state it.
    Mr. Gohmert. Mr. Chairman, I have a point of personal 
privilege. He said that I do not know that of which I spoke as 
being true, and the Attorney General is wrong on the things 
that I asserted as fact. And he has to understand the reason I 
ask questions, specifically about what the individual Tamerlan 
was asked was so I would find out, and the Attorney General 
then sits there and acts like he knows that I did not----
    Mr. Richmond. Mr. Chairman, I would still assert regular 
order as I did the first time.
    Mr. Gohmert. So, Mr. Chairman, the point of personal 
privilege is----
    Mr. Goodlatte. The gentleman will suspend.
    Mr. Richmond. Mr. Chairman, I would still point out regular 
order.
    Mr. Goodlatte. The gentleman from Texas will suspend.
    Mr. Gohmert. All right.
    Mr. Goodlatte. The gentleman's characterization of the 
Attorney General's answer is not an appropriate exercise of the 
gentleman's right of personal privilege.
    Mr. Gohmert. All right.
    Mr. Goodlatte. The gentleman may exercise that privilege.
    Mr. Gohmert. Mr. Chairman, point of personal privilege.
    Mr. Goodlatte. The gentleman may complete his statement, 
and then we will move on.
    Mr. Gohmert. All right, thank you. The Attorney General 
made statements that what I said was not true when actually the 
reverse is what happened. I asked the Attorney General----
    Mr. Richmond. Mr. Chair----
    Mr. Gohmert [continuing]. What was asked----
    Mr. Richmond. Mr. Chairman, regular order.
    Mr. Gohmert. This is my point of personal privilege, and 
then the gentleman can respond.
    Mr. Richmond. No, it is not a point of personal privilege.
    Mr. Gohmert. Yes, it is. So when you attack somebody's 
integrity and say that they made statements that were not true, 
then of course that raises a point of personal privilege. But 
the Attorney General failed to answer my questions about what 
was asked----
    Mr. Goodlatte. The gentleman will suspend.
    Mr. Richmond. Regular order, Mr. Chairman.
    Mr. Gohmert [continuing]. And cast aspersions on my 
asparagus.
    Mr. Goodlatte. The gentleman is entitled to state a point 
of personal privilege, which he has now done, and we will move 
on.
    Mr. Gohmert. Thank you.
    Mr. Goodlatte. But he does not have under a point of 
personal privilege the opportunity to characterize the answer 
of the witness. So the time of the gentleman----
    Attorney General Holder. All I was saying for the record 
was that the congressman could not know, unless, as I said, 
something inappropriate has happened with regard to the----
    Mr. Gohmert. Or unless the Attorney General answered my 
questions----
    Mr. Goodlatte. The gentleman will suspend.
    Mr. Gohmert [continuing]. As I asked, and then we would 
have had the answers.
    Mr. Goodlatte. The gentleman will suspend.
    Attorney General Holder. There could not be a basis for the 
assertions he is making, not the questions, but the assertions 
that he made unless he was provided information, and I would 
say inappropriately, from members of the FBI or people who were 
involved in the very things that he questioned me about. And I 
do not think that that happened.
    Mr. Goodlatte. Both the gentleman from Texas and the 
Attorney General have had their opportunity to clarify their 
positions.
    And we will now turn to the gentlewoman from California, 
Ms. Bass, who is recognized for 5 minutes.
    Ms. Bass. Let me just begin by thanking the Attorney 
General for your patience because it seems to me every couple 
of months we go through this exercise with you. And I 
appreciate your patience.
    I have three questions. One, I want to join others in 
expressing concern and frankly condemning what I understand is 
the targeting of conservative groups by the IRS. Frankly, it 
brought back memories from several years ago when I remember 
liberal groups being targeted. And it was before my time in 
Congress, but I certainly remember when African-American 
churches were targeted by the IRS, and it frankly sent a chill 
through the community.
    I wanted to know if during that time if an investigation 
was done, and, if so, what was the result, and what were the 
consequences?
    Attorney General Holder. I do not know what happened with 
regard to those matters.
    Ms. Bass. Well, I think it would be interesting to find out 
if investigations had been done, because the way I am hearing 
this characterized, it was as though this is the first time the 
IRS has done something like this. And I certainly remember very 
well this happening to liberal groups.
    My second question is, if Congress had passed the Free Flow 
of Information Act in 2007, how would the situation have been 
handled with the Associated Press?
    Attorney General Holder. I am not familiar with the Free 
Flow of Information Act. All I can say is that I know that with 
regard to the shield law that we proposed, that there were 
greater protections that would have been in place for members 
of the press, though some have noted there was a national 
security exception.
    But I think that in the view of the Administration, that a 
shield law should still be something that we work on together 
and that we can craft a national security exception that would 
give the press adequate protection, while at the same time 
keeping safe the American people.
    Ms. Bass. What happened to the shield law?
    Attorney General Holder. Excuse me?
    Ms. Bass. What happened to it? You said it was--the shield 
law?
    Attorney General Holder. It was proposed, and then was 
never passed. I do not think it was ever seriously considered, 
but it was pushed. I certainly talked about it during my 
confirmation hearings and I think during my first hearings as 
Attorney General. The President was behind it. But it was never 
passed.
    Ms. Bass. So had that been passed, it would have alleviated 
the situation that we just experienced with the Associated 
Press?
    Attorney General Holder. Again, I am recused from that 
case, but I think it would certainly have had the potential to 
have an impact on all national security stories.
    Ms. Bass. Okay. Switching subjects completely and talking 
about trafficking, an area that I am very interested in working 
on child welfare issues is the trafficking, in particular, sex 
trafficking of minors who are in the child welfare system. And 
I wanted to know if anything is being done at the Federal level 
to ensure that youth that are designated as victims in juvenile 
courts are treated as victims as opposed to criminals.
    And I wanted to know if, given existing Federal law 
included in the Trafficking Victim's Protection Act, how can we 
work with local jurisdictions to ensure that youth do not have 
criminal records due to their victimization.
    Attorney General Holder. I think that is actually very 
important, and I think that what we need to do is come up with 
mechanisms by which we identify best practices. Also in spite 
of sequestration, we come up with ways in which we provide 
local and State jurisdictions with the necessary funds perhaps 
to reform their systems, because the reality is that too many 
young people, who are victimized in the way that you have 
described, can be characterized as criminals, as prostitutes, 
when, in fact, they are simply victims.
    Now, you would hope that prosecutors would exercise 
appropriate discretion and charge only the appropriate people, 
but that is not always the case, and that is why the 
identification of best practices and raising the sensitivity of 
people who exercise that discretion is so important. And I 
think that the Federal Government should take the lead in that, 
given that human trafficking generally is something that we 
have identified as a priority, and sex trafficking of minors 
specifically as a priority.
    Ms. Bass. And maybe I can work with your office in the 
future, because I frankly think that no juvenile should ever be 
arrested for prostitution. I do not know how you can prostitute 
if you are under the age of consent. I mean, to me, that would 
be rape, and maybe there is a way that we can change it so a 
child is never charged with that.
    Attorney General Holder. I would look forward to that. 
There are clearly going to be services that need to be made 
available to such a juvenile, but that does not mean that that 
juvenile should have to get them being part of the juvenile 
justice system with all the stigma that is, therefore, attached 
to that treatment.
    Ms. Bass. Right, absolutely. And then finally, what is the 
Office of Juvenile Justice and Delinquency Prevention doing to 
prevent now foster youth from entering the criminal justice 
system? So I am not referring to trafficking. I am referring to 
what is known as crossover youth.
    Attorney General Holder. You said?
    Ms. Bass. Crossover youth, meaning crossing from the 
dependency to the delinquency system. So the question is, what 
is the Office of Juvenile Justice and Delinquency Prevention 
doing to prevent this.
    Attorney General Holder. Well, again, we are identifying 
best practices. We make grants. We hold conferences. It is one 
of the things that, sequestration, when we talk about cutting 
back money and cutting back on conferences, I understand that. 
But one of the things that OJJDP does so well, the Office of 
Justice Programs does so well, through conferences is bring 
together people to talk about these kinds of issues, identify 
best practices, and then come up with determinations of what 
practices we are going to fund.
    So that is what OJJDP is doing in that regard. It is always 
trying to find, again, best practices, identifying negative 
practices that are occurring, and then trying to support those 
things that are occurring and that are in the best interest of 
our children.
    Mr. Goodlatte. The gentlewoman's time has expired.
    Ms. Bass. Okay, thank you.
    Mr. Goodlatte. If she has additional questions, please 
submit them for the record.
    And the Chair now recognizes the gentleman from Ohio, Mr. 
Jordan, for 5 minutes.
    Mr. Jordan. Thank the Chairman. Mr. Holder, you announced 
last Friday a criminal investigation into the IRS.
    I really only have one question. Will you assure Congress 
and the American people that your investigation will not impede 
or slow the investigation Congress is doing into the Internal 
Revenue Service? And here is why I am concerned.
    We have heard you today say--we lost track. We are actually 
keeping track of it and we started having a little tally how 
many times you said ongoing investigation. But the point that 
comes to mind for me is Solyndra. And I would argue that 
investigation has netted nothing, no new information to 
Congress, and has only impeded and slowed down our 
investigation into that company that went bankruptcy and lost 
taxpayer money.
    Next week, Chairman Issa has announced Lois Lerner and 
three other witnesses will be in front of the Oversight 
Committee next Wednesday on the IRS issue. I know for a fact 
Lois Lerner lied to me, she lied to our personal staff, she 
lied to Committee staff, she lied in correspondence to Mr. Issa 
and myself that we had sent her written correspondence.
    And here is what concerns me, is because there is now a 
criminal investigation. Next week when Lois Lerner, who lied to 
Congress and, therefore, the American people, comes in front of 
our Committee for us to get information about what took place 
at the IRS, is she just going to throw up her hands and say, 
you know what, the Attorney General and the Department of 
Justice is doing a criminal investigation, I cannot really 
comment now. And that is a, I think, concern that Members of 
Congress have, and certainly the American people.
    So again, will you do everything you can and what 
assurances can you give the United States Congress that that, 
in fact, is not going to take place?
    Attorney General Holder. Well, I think the responsibility I 
have is to investigate violations of the law. And I think what 
we will try to do is to work with Congress so that we do not 
get in your way, you do not get in our way.
    Mr. Jordan. But the point is it has already happened. It 
has happened with other issues. This is the big one. This is 
people's First Amendment rights being violated. We want to know 
what are you going to do different this time.
    And let us just be frank, Mr. Holder. You do not have all 
that much credibility. There are lots of folks on this panel--I 
am not one of them, but there are lots of folks here who have 
called your resignation. You have been held in contempt and a 
host of other things.
    So this is why this question, I think, is of paramount 
importance.
    Attorney General Holder. Well, to be frank then, your 
characterization of Ms. Lerner as lying before Congress by 
itself--I mean, forget about the investigation----
    Mr. Jordan. We will be happy to show that. We are going to 
show it next week, but we want her to be able to respond to us 
and not say, oh, I cannot comment because Mr. Attorney General 
has got a criminal investigation going. We will show that next 
Wednesday.
    Attorney General Holder. I understand that. But your 
characterization of her testimony in and of itself and the way 
you have characterized could--forget about our investigation--
could put her in the very situation that you say you do not 
want to have happen. So it might----
    Mr. Jordan. That is already out there. She has done 
responded. We have it in writing. There is no news there. It is 
a fact. I want her on the witness stand and be able to answer 
our questions, and what I do not want her to do is say, oh, I 
cannot because a criminal investigation is going on at the 
Department of Justice.
    Attorney General Holder. Based on what you said--forget 
about the investigation--on the basis of what you said, she 
could say I cannot answer this question because you think that 
I have already lied, and I might be charged with a false----
    Mr. Jordan. You know this. There is a much stronger 
likelihood based on what you are doing than what I just said 
here.
    Attorney General Holder. Well, as I said, my----
    Mr. Jordan. And you know that is the case.
    Attorney General Holder. Our responsibility is to 
investigate violations of criminal law. We will do that. We 
will try to work with Congress in a way that we do not impede 
that which you want to do. In the same way I would hope that 
Congress will work with us so that you do not impede our 
criminal investigation, and ultimately hold people accountable.
    There is certainly a role for Congress to play in exposing 
what has happened, but I think we have the ultimate 
responsibility in holding people accountable, and that is 
something that is uniquely the ability of the executive branch 
to do, not the legislative branch.
    Mr. Jordan. Mr. Chairman, I yield back.
    Mr. Goodlatte. The Chair thanks the gentleman.
    And the Chair now recognizes the gentleman from Louisiana, 
Mr. Richmond, for 5 minutes.
    Mr. Richmond. Thank you, Mr. Attorney General, for coming.
    Answer these two quick questions for me, and then I will go 
into what I really wanted to talk about. But based on the 
dialogue and the back and forth earlier, here is my question. 
Is there any lawful way that anyone in Congress could know what 
was asked and not asked by the FBI in their investigation 
before the Boston bombing of those terrorists?
    Attorney General Holder. There is no appropriate way, I 
think, that any Member of Congress could know that.
    Mr. Richmond. Earlier also a statement was made that people 
or the government, some of us are so worried about offending 
Islamists, but they are not worried about offending any person 
that would bomb America. Certainly not all Islamists bomb 
America, right?
    Attorney General Holder. No, it is a small minority of 
people of that faith who engage in these activities. And we are 
not politically correct in the way in which we conduct our 
investigations. We go after individuals. We do not go after 
religions.
    Mr. Richmond. The other thing, and I am looking at, I 
guess, a July 12 letter from then Chairman of the Committee, 
Lamar Smith, because I was not on the Committee. But the points 
that strike me the most about the investigation into the leaks 
which you have recused yourself, which is ``to conduct our 
foreign policy and keep Americans safe, some operations and 
sources of intelligence must be kept strictly secret. Concern 
about these leaks know no party line. When national security 
secrets leak and become public knowledge, our people and our 
national interests are jeopardized. And when our enemies know 
our secrets, American lives are threatened.'' It goes on to 
say, ``These leaks are probably the most damaging in America's 
history.''
    Was that not a call for the Department of Justice to do any 
and all things to ascertain where these leaks are coming from 
in our national security interests?
    Attorney General Holder. I was criticized at that time for 
not appointing a special prosecutor. I said that I had faith in 
the Justice Department and in the two U.S. attorneys who I 
appointed to conduct those investigations. And that decision 
was criticized as not being aggressive enough. It strikes me as 
interesting now a year or so later--whatever the time period 
is--that in some ways we are being criticized for being too 
aggressive.
    Now again, I do not know what happened in the case and what 
happened with regard to, you know, the subpoena. But there was 
certainly a clarion call from many that the Attorney General 
needed to do more than he actually did.
    Mr. Richmond. And there was also criticism that your 
subpoena was too broad. And earlier today, you were challenged 
and criticized for the fact that you said that you would answer 
to the appropriate things in a subpoena. And the question was 
asserted, well, do you answer everything that a subpoena says, 
or do you answer to things that relevant to the subpoena. Would 
that not be the same irony that, you know, you cannot have it 
both ways?
    Attorney General Holder. Well, I think Mr. Goodlatte, 
Chairman Goodlatte, had it right that, yeah, you can subpoena 
anything, but that people have the right once they receive a 
subpoena--obviously the acknowledgment of it--to challenge that 
which they are called to produce pursuant to the subpoena.
    Mr. Richmond. And let me just take a second to thank the 
Civil Rights Division of your office because earlier this year, 
and why we certainly still need the Civil Rights Division, our 
chief ranking African-American on the Louisiana Supreme Court, 
who by far had the tenure, and ours is strictly a seniority 
process to get to chief judge, was challenged by other judges, 
and brought into court to challenge whether she could become 
chief justice. And it was with the help of the Civil Rights 
Division and other lawyers in Louisiana that the Federal judge 
ruled that she, in fact, did have the tenure. And as long as we 
still examples of that and we have a Justice Department that is 
willing to step up, even though it may not be popular to some. 
But part of faith in the justice system is that laws will be 
applied equally. Everybody will play by the same rules.
    And I would like to close with, as ugly and nasty as Fast 
and Furious was, and the uproar that followed it, which I agree 
with, every day in my community and communities across the 
country, Federal agents and others will use drug dealers as 
pawns to get the bigger drug dealer. And as that crack or that 
heroine or those other drugs go back into our community and 
create more crack babies, and put more young kids in harm's 
way, I have not heard the same uproar. And I would just like to 
put that out there so while we are having an uproar about 
people putting things back into the community to get the bigger 
fish, please do not forget the thousands and thousands of lives 
and murders every year associated with the drug trade. Thank 
you.
    Mr. Goodlatte. The time of the gentleman has expired.
    And the Chair recognizes the gentleman from Texas, Mr. Poe, 
for 5 minutes.
    Mr. Poe. Thank you, Mr. Chairman. Thank you, Mr. Attorney 
General, for being here.
    Yesterday I sent you a three-page letter with seven 
questions on it. I know you have not had time to go over those, 
so I ask unanimous consent, Mr. Chairman, to introduce that 
letter with the seven questions for the Attorney General into 
the record to be answered at some appropriate time.
    Mr. Goodlatte. Without objection, the letter will be made a 
part of the record, and the questions will be submitted to the 
Attorney General.*
---------------------------------------------------------------------------
    *The questions referred to were submitted to the Attorney General 
by the Committee as part of its Questions for the Record.
---------------------------------------------------------------------------
    Mr. Poe. Let me approach this kind of historically the way 
I see things occurring, and then I have two questions at the 
end of this dialogue.
    Over the last several years, government action has become 
suspect to many of us. In Fast and Furious, government action, 
then we have not resolved that yet. We are in court, and we 
still have not gotten a resolution on the issue that whether 
the subpoena should be or should not be upheld. People died in 
Fast and Furious. Then there is Benghazi, and there are some 
bungling going on, and what happened, who is responsible. Four 
Americans died.
    But government action or inaction is suspect. Recently in 
Health and Human Services Department, there are accusations of 
improper use by people in office of their position to obtain 
funds to support the new health care law. I do not know if that 
is true or not. But government action.
    And then the two that we are recently aware of, the AP 
reporters, 100 journalists, their phone records being seized. 
It looks like bruising the First Amendment at least to me. And 
by the way, our staff filed, Mr. Attorney General, in 2007 the 
shield law. I filed that bill as well. President Obama 
supported in 2007, and I hope we can get that shield law passed 
through both houses this time. But the most recent is with the 
IRS and what has taken place not only with the IRS, but other 
government agencies.
    And let me give you a personal case, a real person. It is a 
constituent of mine. Catherine Engelbrecht and her husband, 
they run a business in Houston. Catherine Engelbrecht decided 
just as a regular citizen to get involved in voter fraud and 
started a group called True to Vote, and another group, King 
Street Patriots. And here is what she said in a recent 
interview: ``We applied for non-profit status in 2010. Since 
that time, the IRS has run us through a gauntlet of analysts 
and hundreds and hundreds of questions over and over again. 
They've requested to see each and every tweet I have ever 
tweeted, or every Facebook post I have ever posted. They've 
asked to know every place I've ever spoken since our inception, 
and to whom and everywhere I intend to speak in the future.'' 
That is part of her comments. We have learned that the IRS has 
even asked this group and other groups for their donor lists.
    The Federal Government's snooping of Engelbrecht's two 
organizations included six visits from the FBI--set aside the 
IRS--six visits from the FBI, unannounced visits by OSHA, and 
even the ATF showed up several times to investigate this 
organization. And the Engelbrechts, both Catherine and her 
husband, have been personally audited. And keep in mind, Mr. 
Attorney General, Catherine and her husband have owned this 
family business for over 20 years, and never seen an auditor 
until all of this occurred. And yet here we are today since 
2010, they still do not have that tax exempt status.
    I have requested over the years FBI, OSHA, and ATF FOIA 
requests to see if they are under criminal investigation. These 
organizations say, no, they are not, but why are they 
continuing to be treated like criminals?
    The IRS response, as we now know, they have apologized. I 
guess they want this to go away by their apology. But 
meanwhile, back on the ranch, today USA Today reported that 
only one Tea Party group has been given tax exempt status, but 
numerous progressive groups have been given tax exempt status 
in the last 2 or 3 years. Not much of a coincidence as far as I 
am concerned.
    So based on my experience, you know, being in the 
courthouse as a prosecutor, you as a prosecutor and judge, it 
just seems like government credibility, because these are 
government actions. These are not private actions. These are 
government actions.
    Do you not think it would be best that since now the FBI, 
ATF, which is under the Justice Department, are involved in 
some of these accusations of harassment, unequal protection 
under the law, targeting specific groups because of 
discrimination. I mean, those are the accusations. That we 
should set the Department aside and say, look, we are going to 
get a special prosecutor in here to investigate all of these 
organizations, all of these departments, to see if they are 
targeting specific conservative groups, for lack of a better 
phrase, for their actions, and to see if there are some 
violations under the Hatch Act, numerous law violations.
    I am just asking you, do you think maybe that would help 
restore some credibility in your Department if you set that 
aside and said we are going to get a special prosecutor to 
clear this whole air and find out exactly what is going on in 
the government?
    Attorney General Holder. Well, I would not agree with your 
characterization that there is a lack of credibility in either 
the Justice Department or any of its components.
    Mr. Poe. Well, I am giving you my opinion that the Justice 
Department lacks credibility and some of these departments 
because of the action by the Federal authority. So that is my 
opinion.
    Attorney General Holder. Okay, well, that is fine. I will 
mark you as a fan not of government.
    Bill Clinton once said that, you know, the era of big 
government was over. I would say that the need for government 
endures. Government----
    Mr. Poe. Just answer my question because I am out of time. 
I am sorry, Mr. Attorney General. Just answer my question. Do 
you think we need a special prosecutor to prosecute these 
accusations?
    Attorney General Holder. And I said, I think the need for 
good government endures. You know, people talk about how 
government and government agencies do all these negative 
things, and then when it comes to Sandy, Katrina, wildfires, 
tornadoes, terrorism, the thing in West Texas, then people want 
government there.
    And my point is that the notion that government has or that 
the Justice Department has credibility problems, I think is 
belied by the notion that people, I think, more generally have 
of government, and the good that government does, and the need 
for, as I said, for good government.
    Mr. Goodlatte. The time of gentleman has expired.
    Mr. Poe. I will submit that question in writing then for an 
answer.
    Mr. Goodlatte. The gentleman will submit the question in 
writing, and we will submit it to the Attorney General.
    And the Chair now recognizes the gentlewoman from 
Washington, Ms. DelBene, for 5 minutes.
    Ms. DelBene. Thank you, Mr. Chair, and thank you, Mr. 
Attorney General, for being here and for all of your time.
    A few weeks ago, there were news reports about documents 
obtained by the American Civil Liberties Union, the ACLU, that 
revealed internal memos that said the FBI believed it could 
obtain the contents of Americans' emails without a warrant if 
the emails were sent to or received by a third party service, 
like Hotmail or Yahoo!, Outlook.com, Gmail. Do you believe the 
government has a right to obtain emails without a warrant? And, 
well, first, I will ask you that.
    Attorney General Holder. The authorities that we have, I 
guess, in some ways, you know, defined by ECPA, and there have 
been people who have testified on behalf of the Justice 
Department, is how we update the abilities that we have so that 
we have the ability to conduct investigations in as quick a 
fashion as we can, given the new technologies that we face. And 
how would we apply rules that exist with regard to obtaining 
information without court orders in this new era? And so I 
think that is the question that we wrestle with.
    Ms. DelBene. Today this piece of paper, if I had a letter 
here, would require a warrant for someone to have access, but 
if it were a digital email, it may not require that same 
warrant. And so, we are looking at whether there should be an 
equal playing field and whether we need to update our law. You 
were talking about the Electronic Communications Privacy Act. 
That was written in 1986, and much before much of the 
technology that many folks use today was in place. And so do 
you believe it is important that we update that law to reflect 
the way people work today and the way communication work today, 
so that we have those civil liberties protected in the digital 
world?
    Attorney General Holder. Absolutely. I think we have become 
more and more an information society, and we still have and 
should have expectations of privacy however it is that we 
communicate. At the same time, I want to make sure that law 
enforcement, in the way that it did 40, 50 years ago, has the 
ability to acquire information. And how we strike that balance 
I think is really important, and is really one of the most 
important conversations I think that we can have in the 21st 
century, and one that I think that this Administration would 
like to engage with Congress so that we come up with a set of 
rules that probably not perfect, but will meet somewhere in the 
middle so that we can maintain privacy while at the same time 
maintaining that ability that law enforcement has to have.
    Ms. DelBene. There is a piece of legislation that I have 
co-sponsored, along with Congressman Poe and Congresswoman 
Lofgren to update the Electronics Communications Privacy Act, 
and to have a warrant standard for online communications, and 
for geo location information that people have on their cell 
phones, you know. We look to have support from the Department 
of Justice and yourself on those reforms as we look to update 
the Electronics Communications Privacy Act, and have something 
that is more current.
    Attorney General Holder. I know that Senator Leahy has 
introduced a bill very similar to that, and it is something 
that I think that the Department will support. Our only concern 
is with regard to, as I said making sure that in certain very 
limited circumstances, that we have the ability, perhaps in 
civil cases or in other matters, to acquire information. But 
the more general notion of having a warrant to obtain the 
content of communication from a service provider is something 
that we support.
    Ms. DelBene. And a warrant standard would be the same. I 
know the current warrant standard for communications, there are 
exceptions in emergencies and other cases. So we are looking to 
have a similar warrant standard in the online world.
    Attorney General Holder. And that is what I was talking 
about when I talk about these limited circumstances where we 
would want to make sure that we maintain the abilities. But the 
more general proposition that you are talking about is one that 
we support.
    Ms. DelBene. Thank you. Thank you very much. And I yield 
back the remainder of my time.
    Mr. Goodlatte. The Chair very much appreciates the 
gentlewoman's brevity, and now recognizes the gentleman from 
Utah, Mr. Chaffetz, for 5 minutes.
    Mr. Chaffetz. Thank you, Mr. Attorney General. I appreciate 
you being here.
    I want to go back and talk about, if we could, about the 
investigation of General Petraeus, which I understand the FBI 
started in the sort of May/June time frame. When did you first 
learn about the investigation into General Petraeus, who was 
then the CIA director?
    Attorney General Holder. Yes. I am not sure. Some months, I 
think, or a couple of months after it began.
    Mr. Chaffetz. The news reports say that that happened 
sometime in the summer. Would that be a fair, accurate 
representation?
    Attorney General Holder. I think that is probably right.
    Mr. Chaffetz. Do you know when General Petraeus was 
notified or had any sense that he was under investigation?
    Attorney General Holder. I would have to go back and look. 
I do not know when he was actually made aware of it. I think as 
a result of an FBI interview I think, but I am not sure exactly 
when that happened.
    Mr. Chaffetz. Do you have any idea when he would have 
become aware of it other than that--I see that somebody is 
trying to hand you something. Do you have a sense as to when he 
became aware of it?
    Attorney General Holder. This just says we will look into 
it and get back to you.
    Mr. Chaffetz. You need notes for that?
    Attorney General Holder. I do not know. I just do not know 
when exactly all these events happened.
    Mr. Chaffetz. You know, one of the questions and the 
criticisms here of your actions on this is that you knew about 
this in the summer, and yet when did you notify the director of 
the National Intelligence, Mr. Clapper?
    Attorney General Holder. I do not remember when that 
happened. I knew about it for a while before he was notified. I 
do not know exactly what the time frame was.
    Mr. Chaffetz. And when was the President of the United 
States notified?
    Attorney General Holder. It was much later. Again, I am not 
exactly certain, but as I remember, like late fall, and perhaps 
even maybe early winter. Again, do not hold me to these exact--
--
    Mr. Chaffetz. And I appreciate that, and I am asking you 
dates. But the concern is that you for months based on that 
timeline, and I recognize it is loose here. But for months you 
knew about it, but you did not notify the President of the 
United States. Why is that?
    Attorney General Holder. Because it was an ongoing criminal 
investigation.
    Mr. Chaffetz. You do not think that there was any national 
intelligence lap over? I mean, was there any national 
intelligence ramification?
    Attorney General Holder. Not on the basis of what we were 
investigating. If we had thought or if I had thought that what 
we were looking at potentially would have been compromising of 
General Petraeus or would have led to a national security 
problem or breach, then I----
    Mr. Chaffetz. But according to the Congressional Research 
Service, let me read it from their report in April. ``While the 
extramarital affair itself is not classified as an intelligence 
activity, the investigation by the FBI originated with the 
possible hacking of Director Petraeus' email account, an act 
that had the potential of compromising national intelligence.''
    As I have said before, he was not the head of the, you 
know, Fish and Wildlife. This is the director of Central 
Intelligence. Why would you not share that with the President 
of the United States?
    Attorney General Holder. Well, as we talked about it among 
us at the FBI and at the Justice Department, we did not think 
that we had a national security problem or a potential national 
security problem.
    Mr. Chaffetz. But why were you investigating him? Why would 
FBI investigate him? It is not just an extramarital affair, 
right? That does not raise to the level of FBI involvement. 
There certainly had to be some suspicion that there was some 
national intelligence implication.
    Attorney General Holder. Well, the investigation began, as 
I remember, because of complaints that one party made against 
another about the use of computers and threats. That is how the 
investigation----
    Mr. Chaffetz. But when it involves the director of the 
Central Intelligence Agency. Senator Feinstein, who is the 
chair of Intelligence said, ``This is something that could have 
an effect on national security. I think we should have been 
told.'' Why not notify under the law the proper authorities 
here in the United States Congress, specifically the head of 
the intelligence committees? And why not notify the President 
of the United States?
    Attorney General Holder. Well, again, as I said, there is a 
strong tradition and concern within the Justice Department not 
to reveal--and the FBI--not to reveal ongoing criminal 
investigations. But I think we were sensitive to the 
possibility of a national security concern, but did not think 
that one existed. And if we look back at that----
    Mr. Chaffetz. But why not share that with the President of 
the United States? Do you not trust him with that information? 
I would think that is the one person who should absolutely know 
about what is going on. And if it was a potential that our 
director of the CIA had been compromised, that you were 
investigating something, why not share that with President 
Obama?
    Attorney General Holder. Because, as I said, we do not 
share ongoing criminal investigations. And if you look back, 
the conclusions that we reached, in fact, were correct that we 
did not have a national----
    Mr. Chaffetz. Is this is an ongoing investigation?
    Attorney General Holder. It is an ongoing investigation.
    Mr. Goodlatte. The time of the gentleman has expired. The 
Chair thanks the gentleman for the line of questioning, and now 
recognizes the gentleman from Florida, Mr. Garcia, for 5 
minutes.
    Mr. Garcia. Over here, Mr. Attorney General. Mr. Attorney 
General, thank you for being here and thank you for your time 
today. And thank you for your long and distinguished career.
    My first question, and I know you have answered some of 
this, but maybe in a less hostile environment, it will give you 
an opportunity to dazzle you with your brilliance and your 
personal knowledge.
    I, unlike the majority here, know Mr. Tom Perez and have 
known him for many years as a dedicated personal servant. A few 
weeks ago we ascended ourselves and began a confirmation 
hearing for Mr. Perez here, a duty and a responsibility that 
was beyond the purview of my office, but nonetheless we 
participated in that.
    But I would like to hear from you as someone who has worked 
with Mr. Perez closely in his capacity in your office, if you 
could tell us about him and your view on him as Labor 
Secretary.
    Attorney General Holder. Well, I think he is uniquely 
qualified for this job given his experience in Maryland in a 
similar position, given the way he has distinguished himself 
over a long and storied public service career, certainly with 
regard to the way in which he has conducted himself as 
Assistant Attorney General, showing himself to be concerned 
about and responsive to working class people.
    He is a person who I think has the ability to see both 
sides of an issue. He is not an ideologue as I think he has 
been portrayed. He is both a good lawyer, I think, a loyal 
public servant, who I think will distinguish himself if he is 
given the opportunity to become our next Secretary of Labor.
    Mr. Garcia. Thank you, Mr. General. I wanted to ask two 
more questions. One is on immigration, and thank you for 
addressing comprehensive immigration reform in your comments.
    I notice as someone who has been around immigration and 
worked with the Immigration Service that the rules that we have 
created have sort of bound us in certain circumstances, and to 
some degree has limited the discretion of our immigration 
judges, which are overworked, but sometimes do not have the 
legal ability or the ability to resolve many cases which seem 
to be simple.
    If we could get your opinion on returning some of that 
discretion to the immigration judges.
    Attorney General Holder. Well, I agree with you. I served 
for 5 years as a judge here in Washington, D.C., and we put a 
great deal of effort into finding good people to serve on our 
Article 3 courts and our immigration courts. And I think that 
they should have requisite amounts of discretion so that they 
can decide what justice is in a particular case, what is 
justice for the person who is in front of them.
    Obviously it is constrained by rules, regulations, and by 
laws. But within that range, I think judges should have 
discretion, perhaps a greater degree of discretion. Immigration 
judges should have a greater degree of discretion than they 
presently have.
    We do a good job of selecting who these people are, and we 
should trust, therefore, in their abilities and their ability 
to use their discretion appropriately.
    Mr. Garcia. Let us stay on that real quick and then I will 
close with this and return the balance of my time.
    I wanted to ask you about the cuts that sequestration has 
had on immigration, the impact that it has had. I think it is a 
reduction about $15 million in funding for immigration review. 
Could you tell me a little bit about what impact that has had 
on already overburdened case loads, and has that led to 
prolonged detention, which, of course, adds a further burden to 
taxpayers?
    Attorney General Holder. Yeah, we just have numbers here. 
There are serious problems with regard to this whole question 
of sequestration. The immigration docket has gone up every 
year. The resources that we need to deal with that have to be 
dealt with, and sequestration runs in the opposite direction 
where we are actually taking resources away from a growing 
problem.
    If you look at the immigration bill, there is contained 
within it a provision for an enhanced number, a greater number 
of immigration judges. The President's budget for 2014 asks for 
more immigration judges to handle the problems of the growing 
docket.
    Sequestration is something that is more than simply people 
getting on an airplane and getting to their destination, you 
know, in time. Sequestration has a negative impact on a whole 
variety of areas that are my responsibility: in the immigration 
courts, with regard to ATF, FBI, DEA agents having the ability 
to be on the streets and doing the things that the American 
people expect.
    We have had problems in 2013. This Department has far fewer 
people than it did in 2011 when we put into place a freeze. 
This is going to have an impact. You will see, I bet, 2 and a 
half, 3 years from now lower numbers out of the Justice 
Department, and some attorney general perhaps will be 
criticized for that. And it will be a function not of a lack of 
desire and dedication on the part of the people of this Justice 
Department, but simply because there are fewer of them.
    Mr. Garcia. Thank you, Mr. General. I yield back the 
balance of my time.
    Mr. Goodlatte. The Chair thanks the gentleman, and 
recognizes the gentleman from Pennsylvania, Mr. Marino, for 5 
minutes.
    Mr. Marino. Thank you, Chairman. General, it is good to see 
you again.
    Attorney General Holder. You, too.
    Mr. Marino. Let us focus for a moment on the Boston 
terrorist defendant while he was in the hospital, if you would, 
please. Why were charges filed at that particular time instead 
of waiting for, just running the time more so on the public 
exception of Miranda? I understand it was about 16 hours and 
then charges were filed. Certainly the magistrate does not have 
the right to go and do that in and of themselves.
    So charges had to be filed. He was in the hospital, so as a 
result, the magistrate was brought there, but also a public 
defender was brought there. But why at that time? Why did you 
make that decision or who made the decision to file charges at 
that time?
    Attorney General Holder. Well, let me just not talk about 
that case, again, ongoing, but charges, I mean, there are rules 
that we have. The Supreme Court has said that with regard to 
detention, you have got, in essence, 48 hours to bring charges. 
And what we did there was to do things that are, I think, 
consistent with the rules, while at the same time, without 
getting into too much, while at the same time using the public 
safety exception in the best way that we could.
    Mr. Marino. I do not want you to get into anything that 
would jeopardize this prosecution. But there was time. You 
could still have used the public exception rule to allow the 
FBI to interrogate this individual before Mirandizing. Do you 
agree with that?
    Attorney General Holder. Yeah. The Justice Department and 
the FBI agent never Mirandized----
    Mr. Marino. No, no, that is not my question. I know they 
did not Mirandize him because they did not have to because of 
the exception. But it seemed to me that there was a rush to 
file the charges that would then force the magistrate to inform 
the defendant of his rights. Why did you not let that time run 
longer so the FBI could question him?
    Attorney General Holder. The charges were filed at about 
from the time of capture--I guess capture--about 46 hours after 
that. So that is----
    Mr. Marino. But that is a benchmark, correct? The 46 hours 
is a benchmark. I mean, I have read a case where it has been 
days where the exception has continued.
    All right. Was that discussed with Director Mueller? Did he 
know prior to that that charges were going to be filed?
    Attorney General Holder. Yeah. We worked with the FBI both 
in Washington and in Boston. Everybody was aware, and the State 
and local folks as well. Everybody was aware of how we were 
going to proceed.
    Mr. Marino. Why were State charges not filed? Then you 
would have more time to question that individual before you had 
to file Federal charges? As a former prosecutor both at the 
State and Federal level, I mean, we use these tools to our 
advantage.
    Attorney General Holder. Well, after the bombing, the 
decision was made, and I think correctly so. The Joint 
Terrorism Task Force got together and made a decision that this 
was going to be a Federal matter, a Federal investigation, and 
that Federal rules applied.
    Mr. Marino. All right. Let us switch gears here to your 
recusal in this other situation. I got into a little argument 
with the Justice Department on cases where I not only recused 
myself, but I wanted my entire office recused. Now, you are in 
a little different predicament here.
    But I always followed it up with written documentation, a 
letter saying why I am recusing myself, why I am recusing my 
office, making sure there is a paper trail from here to 
yesterday filed in my office and with the Justice Department. 
Are you saying that there is no paper trail here when you 
recused yourself and for what reasons?
    Attorney General Holder. I do not think there is. As I 
said, that is something that we were looking for, and nothing 
has been found. And I am not sure. Somebody else raised that 
point. As I have thought about it actually during the course of 
this hearing, that that actually might be a better policy to 
have in place for recusals.
    Mr. Marino. I would think so to have those documents in 
place. You also have the authority to appoint a special 
prosecutor, whether it is another sitting U.S. attorney or 
someone outside of Justice completely. So you have the deputy 
who gave the approval, but yet is heading the investigation. Do 
you not think there is a conflict of interest there and someone 
else should be appointed to handle this matter?
    Attorney General Holder. I am not sure I understand. That 
somebody other than the deputy should be handling this?
    Mr. Marino. Yes, as far as the investigation is concerned.
    Attorney General Holder. I see what you mean. Okay. Well, I 
made the determination and was criticized at the time for 
making the determination that the prosecutors at the U.S. 
attorneys in Maryland and the District of Columbia could handle 
these cases in a fair and appropriate way.
    Mr. Marino. I will be the last guy to criticize you about a 
U.S. attorney handling a case no matter where he or she is. 
Being one, I know the caliber of people that work at Justice. 
So be that as it may, I see my time has expired. Thank you.
    Attorney General Holder. Thank you.
    Mr. Goodlatte. The Chair thanks the gentleman, and 
recognizes the gentleman from New York, Mr. Jeffries, for 5 
minutes.
    Mr. Jeffries. Mr. Chairman, thank you, and, Mr. Attorney 
General, thank you for your testimony here today, and thank you 
for your great service to this country.
    Let me just first note for the record my concern as it 
relates to the AP matter that, one, the subpoenas that were 
issued appear to be overly broad in scope, and hopefully that 
is something that the investigation that takes place will 
examine with close scrutiny. And second, that I think as many 
of my colleagues have expressed, I am also troubled by the fact 
that the negotiation or consultation with the AP did not occur 
in advance of the decision to issue the subpoena, and 
hopefully, again, that will be covered.
    You mentioned earlier today in your testimony that racial 
and ethnical profiling is not good law enforcement. I 
appreciate that observation. As you know, in New York City we 
are grappling with a very aggressive stop and frisk program 
being administered by the NYPD where many of us are concerned 
that African-Americans and Latinos are being racially profiled 
in the context of these stop and frisk encounters.
    As you may know, more than 3 million stop, question, and 
frisk encounters have occurred in the City of New York over the 
last decade. And approximately 90 percent of those individuals, 
more than 3 million stop, question, and frisk encounters are 
Black and Latino citizens of the City of New York. Are you 
familiar with that fact?
    Attorney General Holder. Yes.
    Mr. Jeffries. And I think you are also familiar with the 
fact that according to the NYPD's own statistics, approximately 
90 percent of the individuals who possibly had their Fourth 
Amendment rights violated because they were stopped, 
questioned, and frisked without reasonable suspicion or any 
basis to conclude that they presented a danger to anyone else, 
approximately 90 percent of these individuals did nothing 
wrong. According to the NYPD's statistics, no gun, no drugs, no 
weapon, no contraband, no basis for the arrest or the encounter 
whatsoever. Are you familiar with that statistic as well?
    Attorney General Holder. I have read that. I do not know 
about the accuracy, but I have certainly read that.
    Mr. Jeffries. Okay. Well, that is the NYPD's own 
statistics. Now, you participated in a meeting graciously--I 
was not involved at the time--last year on June 7 with Members 
of the Congressional Black Caucus who were from New York City, 
as well as elected officials from many of the communities that 
were impacted. And we are thankful that you granted that 
meeting.
    At that meeting, there was a request that was made that the 
Justice Department look into what we believe is systematic 
racial profiling in violations of the Fourth Amendment that has 
taken place in New York City as a result of the aggressive stop 
and frisk program. Almost a year has passed since that meeting 
took place. Have you come to a conclusion as to whether it is 
appropriate for the Justice Department to look into the matter?
    Attorney General Holder. We have not reached any final 
determinations, but this is something that is under review at 
the Justice Department. I hope that we will be able to move 
this along. I know there is a civil suit from which a lot of 
information is coming out. But it is something, as I think I 
said then, that we were prepared to look at, and something 
that, in fact, we are examining.
    Mr. Jeffries. Okay. And as we approach the 1-year 
anniversary of that meeting, I would hope that we can come to 
an expedited conclusion. But I appreciate the deliberateness 
and the care with which, and the sensitivity taken toward this 
matter.
    I want to turn briefly to the IRS issue. Now, in 2004, 
George Bush was the President, is that right?
    Attorney General Holder. Yes.
    Mr. Jeffries. And he was in the midst of a very competitive 
reelection, correct?
    Attorney General Holder. Yeah, I guess.
    Mr. Jeffries. Okay. And in 2004, it was revealed that the 
IRS went after the NAACP for alleged political activity in 
violation of its status as a not-for-profit organization. Are 
you familiar with that fact?
    Attorney General Holder. Yeah, I remember that.
    Mr. Jeffries. Okay. And it was subsequently uncovered that 
they had done nothing wrong, but what was also determined as a 
result of a FOIA request by the NAACP was that seven Members of 
the United States Congress on the other side of the aisle had 
written letters to the IRS requesting that the IRS investigate 
the NAACP. Are you aware of that fact?
    Attorney General Holder. I do not remember that, no.
    Mr. Jeffries. Now, was a criminal investigation ever 
launched in connection with the alleged political interference 
that took place leading to an unsubstantiated investigation of 
the NAACP? I know you were not at Justice at the time.
    Attorney General Holder. I do not believe so, but I am not 
sure.
    Mr. Jeffries. Okay. But I am thankful that you have taken 
the step to launch an investigation into similar allegations of 
alleged political interference, albeit not by Members of 
Congress, and we look forward to the results of that inquiry.
    Attorney General Holder. Okay, thank you.
    Mr. Goodlatte. The time of the gentleman has expired.
    The Chair recognizes the gentleman from South Carolina, the 
Chairman of the Immigration and Border Security Subcommittee, 
Mr. Gowdy, for 5 minutes.
    Mr. Gowdy. Thank you, Mr. Chairman. Good afternoon, Mr. 
Attorney General.
    Attorney General Holder. Good afternoon.
    Mr. Gowdy. Do you think it is reasonable to evaluate how 
effectively prosecutors and law enforcement are using current 
firearm statutes as we debate whether or not we need additional 
firearm statutes?
    Attorney General Holder. Sure, that ought to be a factor, 
but I think we are using the laws effectively.
    Mr. Gowdy. Well, I would have to take your word for it for 
this reason. I wrote you 6 months ago and asked for statistics 
specifically on two Code sections, 922(d) and 922(g), which 
deal, as you know, specifically with the possession or transfer 
of firearms by those who have been adjudicated mentally 
defective or committed to mental institutions. I wrote that 
letter in December. Thinking that being a low-level House 
Member was not enough to garner any attention, I then got a 
senator to co-sign the exact same letter with me, and we have 
not heard back yet.
    So you agree that it is relevant how effectively those Code 
sections are being prosecuted as we evaluate whether or not we 
need additional tools.
    Attorney General Holder. Excuse me. I think we should take 
into account what we are doing in terms of weapons 
prosecutions. One-seventh of all the cases that we bring in the 
Federal system are gun cases.
    Mr. Gowdy. What percentage of current background check 
failures are prosecuted?
    Attorney General Holder. A much smaller number. There were 
83,000 background check failures in Fiscal Year 2012. There 
were 85,000 cases brought. A much smaller number of those 
failures were actually brought. The purpose of the background 
check system, though, is to prevent people from acquiring guns. 
1.5 million have been stopped since the beginning of this 
system, as opposed to the prosecution. And that is why----
    Mr. Gowdy. I understand that, Mr. Attorney General. I also 
understand a little something about a lack of jury appeal. I 
know certain cases do not have tremendous jury appeal. But when 
you are advocating for increased background checks, and it can 
be argued that you are not a good steward of the current 
background check laws that you have, I just frankly think it 
undercuts the argument. But reasonable minds can differ on 
that, I suppose.
    I do not think reasonable minds can differ on 922(d) and 
922(g), which deal with people--these are not my words, it is 
in the statute--been adjudged mentally defective or committed 
to a mental institution. If you want to search for a theme 
throughout lots of our mass killings, I think we will find that 
theme.
    I want to read to you a quote that has been attributed to 
you. If the quote is inaccurate, I want to give you a chance to 
tell me it is inaccurate. I am not going to read the whole 
thing. ``Creating a pathway to earned citizenship for the 11 
million unauthorized immigrants in this country is essential. 
This is a matter of civil and human rights.'' Is that an 
accurate quote?
    Attorney General Holder. Yeah, I think that is a speech I 
gave at the Anti-Defamation League.
    Mr. Gowdy. All right. You would agree with me that persons 
who cannot pass background checks should not have the civil 
right, as you call it, of citizenship.
    Attorney General Holder. Well, as I used that phrase, I did 
not use it in the strictly legal sense.
    Mr. Gowdy. But, Mr. Attorney General, with all due respect, 
that is the problem with using the phrase. I mean, you are a 
highly trained lawyer, and you know what the phrase ``civil 
right'' means. And when you say that you have a civil right to 
citizenship when you have broken the laws to come to the 
country, that comment has consequences. And surely you have to 
know that.
    Attorney General Holder. Well, with all due respect, it was 
my speech, and they were the words that I chose. And I did not 
mean to convey, and I did not think that it would be taken that 
way. Some have said that, many have not, that that meant that 
there was a legal right or anything like that. It was in the 
context of that phrase where I said civil and, I think, human 
right. I think that is the word that I used there.
    Mr. Gowdy. Right. But you can understand how it is 
problematic for those of us, frankly, who are working on 
immigration reform and do not come from districts where it is a 
really popular political idea to have the Attorney General say 
you have a civil and human right to citizenship, even though 
you are in the country in violation of our laws. That is a non 
sequiter. And it is hard for some of us to explain that. So I 
do not know what you meant, I just know what you said.
    Attorney General Holder. Yeah, and what I meant was that 
you have 11 million undocumented people here who are, we must 
admit, contributing to this country in substantial ways, but 
oftentimes are exploited because they are in that undocumented 
status. And we have to deal with the----
    Mr. Gowdy. But, Mr. Attorney General, my point is all 11 
million are not valedictorians, which is why every bill has a 
background check provision. And all 11 million do not want 
citizenship. So to call it a human and civil right, speaking 
for a broad group of 11 million, with all due respect, it is 
just not helpful to those of us who are trying to be part of 
the conversation.
    Attorney General Holder. And I did not mean to say by that 
all 11 million either want to be citizens, you are right, or 
will ultimately as the bills have been crafted, and I think 
appropriately so, will pass the necessary background checks. I 
am talking about the universe of people who we have generally 
accepted as 11 million. And from that 11 million, and I suspect 
it is going to be a large portion of that 11 million, will pass 
background checks, will desire to become citizens, and then 
will be entitled to the human rights that all Americans have 
after they go through that period that allows them to acquire 
citizenship, along that pathway.
    Mr. Gowdy. I am out of time, Mr. Chairman.
    Mr. Goodlatte. The Chair thanks the gentleman, and now 
recognizes the gentleman from Idaho, Mr. Labrador, for 5 
minutes.
    Mr. Labrador. Good afternoon, Mr. Attorney General. One of 
your favorite phrases during this hearing and in many other 
hearings where I have heard you is ``ongoing criminal 
investigations.'' I also have heard you several times talk 
about best practices and proprieties.
    When you decided to recuse yourself, did you look at best 
practices? I think you admitted already that it would have been 
probably a better practice for you to put in writing. But there 
is already a statute, 28 U.S.C. Section 591, that requires to 
put in writing your reasons for recusal in certain 
circumstances. Frankly, I have read it a couple of times. I do 
not know if it applied to your situation right now. But do you 
not think it would have been the best practice for you to just 
put it in writing, especially when you are talking about an 
issue of such significance?
    Attorney General Holder. Well, as I said, and as I have 
thought about it even during the course of this last couple of 
hours, that I think that I am going to go back and actually 
think about whether or not there is some kind of policy that I 
should put in place, examine how often recusals have happened 
in writing as opposed to orally. And I think that the better 
practice, as I said, frankly, I think we probably ought to put 
them in place.
    Mr. Labrador. And I think you should look at whether 28 
U.S.C. 591--again, I do not if that applies to you, but you 
should really look at whether that applies to you or not or 
whether there is any other law that would have required you to.
    Attorney General Holder. Well, there are two things on my 
to do list here.
    Mr. Labrador. Okay. The second thing I want to talk about 
is, we already discussed the targeting by the IRS, admitting 
that they targeted conservative groups. Will you state today 
under oath that the Department of Justice under your watch has 
not targeted conservative groups for prosecution for political 
reasons or to gain political advantage?
    Attorney General Holder. Not to my knowledge. I have no 
knowledge that has ever occurred.
    Mr. Labrador. Do you know if the IRS leaked tax information 
related to Mitt Romney during the Republicans presidential 
primary or general campaign?
    Attorney General Holder. I do not know.
    Mr. Labrador. And if you do not know, will you attempt to 
find out in your investigation?
    Attorney General Holder. I am not sure I have a predicate 
for that. I will be honest with you, I do not just remember 
that.
    Mr. Labrador. There were several claims during the campaign 
that there was personal information from Mitt Romney's tax 
records that were being leaked to the press, and I just want to 
know if the IRS was the one leaking that information.
    We also know that some of Mitt Romney's top donors were 
targeted by the IRS and the Labor Department, including a 
gentleman from Idaho. So if you could look at that as well, why 
it was that specifically people who were giving who were some 
of Romney's top campaign donors, that were actually, 
immediately after they became public about how much money they 
had donated, that all of a sudden the IRS and the Labor 
Department was looking at them.
    And I have an important question. We have heard about 
numerous groups that were targeted that were conservative 
groups. Can you tell me whether Obama For America, Organizing 
for America, Occupy Wall Street, or any other progressive group 
has been targeted in the last 3 to 4 years by the IRS?
    Attorney General Holder. We are at the beginning of the 
investigation, so I do not know what, if any groups, were 
targeted. All I know is what I have read about in the press. I 
am not in a position to say--we are at the beginning stages of 
this investigation--which groups might have been 
inappropriately looked at.
    Mr. Labrador. Can you find out if it was only conservative, 
because I think this is important. I think it is rather strange 
that it is only one group, a political group, but not the other 
kind of political group. Can you find out for our Committee 
whether that----
    Attorney General Holder. Well, I mean, the investigation 
would be designed to find out which groups were looked at, make 
sure that if they were looked at, it was done on an appropriate 
basis, and if it was inappropriate, then to hold people 
accountable. And that will be done regardless of whether or not 
they are conservative or liberal, Republican leaning, or 
Democratic leaning.
    Mr. Labrador. And if you find out that they were only 
conservative, can you find out why it was that only 
conservative groups were targeted?
    Attorney General Holder. Yeah.
    Mr. Labrador. Now, I am going to read to you a quote that 
you stated about your contempt of Congress from last year. In 
February of this year you said, ``I have to tell you that for 
me to really be affected by what happened,'' meaning the 
contempt of Congress, ``I have to have respect for the people 
who voted in that way. And I didn't, so it didn't have that 
huge an impact on me.'' Do you not think that quote shows 
contempt for the Republican Members of Congress that are here 
that voted for this? And there were actually some Democratic 
Members who also voted for contempt?
    Attorney General Holder. Well, I have to say that the 
process that we went through, or that you all went through, in 
making that contempt determination seemed inconsistent with 
both prior practice, and also consistent with not taking into 
account the good faith attempts that we were making to try to 
share the information that was sought. And I also thought that 
it was telling that when the NRA decided to score that vote, 
what was the NRA? What was the involvement of the NRA in that 
vote at all?
    It seemed to me then that this was something that was not 
about me, not about--well, it was about me, but it was about 
things beyond just the exchange of documents. It was an attempt 
by certain people to get at this Attorney General. And that is 
why I said that with regard to that process, I simply did not 
and do not have respect for it.
    Mr. Labrador. But you said you did not have respect for the 
people who voted. And I think that same contempt may have led 
also to people in this Administration thinking that they could 
go after conservatives and conservative groups.
    Thank you. I yield back.
    Attorney General Holder. I am not the cause of people in 
the IRS doing things that might have been illegal. I will not 
take that----
    Mr. Labrador. No, no, I am not accusing you of that. I am 
just saying that maybe that same statement emboldened people to 
think that they could also go after other conservative groups. 
Thank you very much.
    Mr. Goodlatte. The Chair thanks the gentleman, and yields 
to the gentleman from Michigan for a unanimous consent request.
    Mr. Conyers. Mr. Chairman, I ask unanimous consent to 
insert into our record the statement of the Lawyers Committee 
for Civil Rights Under Law.
    Mr. Goodlatte. Without objection, the document will be made 
a part of the record.
    [The information referred to follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                               __________

    Mr. Conyers. Thank you.
    Mr. Goodlatte. And the Chair would ask unanimous consent 
that a letter sent to Attorney General Holder on November 13, 
2012, pertinent to the investigation of the matter involving 
former CIA Director David Petraeus, signed by former Chairman 
Lamar Smith, and containing 15 questions, which to our 
knowledge and to the knowledge of former Chairman Smith, have 
never been answered. And we would ask the Attorney General to, 
again, answer them. But we will put those as a part of the 
record and resubmit them to you, General Holder. They were 
pertinent to this hearing, and I think the answers to those 
questions would be of interest to the Members of the Committee.
    [The information referred to follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                               __________

    Mr. Goodlatte. The gentlewoman from Texas has a unanimous 
consent request?
    Ms. Jackson Lee. I do, Mr. Chairman. I was happy to wait 
until the end of the session. Are you----
    Mr. Goodlatte. If you would like to do it now, we can. 
Otherwise, we will go to Mr. Farenthold.
    Ms. Jackson Lee. I will let Mr. Farenthold----
    Mr. Goodlatte. Very well. The Chair recognizes the 
gentleman from Texas, Mr. Farenthold, for 5 minutes.
    Mr. Farenthold. Thank you, Mr. Chairman. I am batting 
cleanup here, and I would like to express my appreciation for 
Mr. Holder for sticking with us so long. I have got a big stack 
of questions, so if you would keep your answers as short as 
possible, I would appreciate it.
    And I think we have covered a lot about the IRS and your 
investigation. I think Judge Poe did a really, really good job. 
I am appalled by what happened. I was appalled when the Nixon 
Administration did it, and I am appalled when it is happening 
under this Administration. I am a little concerned, you said 
you had marked Mr. Poe down as not a fan of government. I hope 
he has his taxes in order.
    On the DoJ website, you all say the Department has 
demonstrated its historic commitment to transparency, and upon 
taking office, President Obama directed the Department of 
Justice with a clear presumption in the face of doubt, openness 
prevails. And on March 19th, you called for greater government 
transparency in the new era of open government. Yet we had the 
result of contempt of Congress. You, I think, called Chairman 
Issa shameless. I would like to offer you the opportunity to 
just give us the stuff we are asking for and be consistent with 
that transparency.
    Would you please just do it and make it easier for all of 
us?
    Attorney General Holder. We have been in good faith 
negotiations. We went through mediation that the House 
Republicans, as I remember, did not want to do. We have tried 
to find ways in which we could share the requested 
information----
    Mr. Farenthold. We need the information, and we want to 
protect it. But I do have a lot of questions, so I am going to 
go on.
    Let us move onto the Justice Department's action with 
respect to the Associated Press. Do you think the massive 
intrusion of freedom of the press could cause an intimidating 
and chilling effect on whistleblowers and confidential sources? 
And what do you think of today's New York Times editorial that 
says these tactics will not scare us or the AP, but they could 
reveal sources and frighten confidential contacts vital to the 
coverage of government.
    Attorney General Holder. Again, I will answer the question, 
but separate and apart from the ongoing investigation. The 
Justice Department does not want its actions chill sources, 
have a negative impact on the news gathering abilities of 
newspapers, television, stations----
    Mr. Farenthold. You would admit it offends you as an 
American that we are targeting the media in such a broad 
fashion. Would that be a fair statement?
    Attorney General Holder. Well, I am not going to, again, 
comment on an investigation that I am----
    Mr. Farenthold. Okay. In a hypothetical situation, we are 
going to go after and subpoena hundreds of phone records for 
journalists. I mean, just does that offend you as an American?
    Attorney General Holder. It would depend on the facts. You 
would have to know what the facts were and why the actions were 
taken----
    Mr. Farenthold. So you stated earlier that you recused 
yourself from this because you were questioned about this 
investigation. So as part of that investigation, are you aware 
if any of your telephones were tapped or telephone records were 
subpoenaed? I mean, you were subject to that investigation as 
well.
    Attorney General Holder. There were, yes. Some of my 
telephone records were examined.
    Mr. Farenthold. Okay. And other Administrations as well. I 
guess my question is, it seems to me the media ought to be the 
last resort. Did they subpoena them, or did you voluntarily 
turn them over, the phone records?
    Attorney General Holder. I am not even sure I remember. I 
think I probably voluntarily turned them over? I voluntarily 
turned them over.
    Mr. Farenthold. All right. There is a difference obviously 
then between subpoena.
    All right. And let us go to Benghazi for a second. Gregory 
Hicks, the former Chief of Mission in Libya, testified before 
the Government Oversight and Reform Committee that as a result 
of the appearance of Susan Rice on various talk shows, that the 
President of Libya was offended and delayed the FBI's access to 
the consulate in Benghazi by 17 days. Do you think this would 
have a negative effect on the FBI's investigation and ability 
to get to the bottom of what happened in Benghazi?
    Attorney General Holder. I am satisfied with the progress 
that we have made in the investigation regardless of what 
happened previously. We have made very, very, very----
    Mr. Farenthold. But not having access to an unsecured crime 
scene for 17 days, that is bound to have had a negative impact?
    Attorney General Holder. It has not had a negative impact 
on this investigation.
    Mr. Farenthold. All right. There was a story today that 
Media Matters issued a defense of the Justice Department's use 
of these subpoenas for telephone--are you all regularly still 
consulting with Media Matters for spinning your PR stories? We 
talked about that in an Oversight and Government Reform hearing 
last year.
    Attorney General Holder. I'm not sure I know what you're 
talking about.
    Mr. Farenthold. All right. And then, finally, I see I am 
out of time. I don't want to break the rules. So thank you very 
much.
    Mr. Issa. Mr. Chairman? Mr. Chairman?
    Mr. Goodlatte. Oh, yes?
    Mr. Issa. If I could just place, because of what the 
Attorney General said, in the record House Republicans did not 
object to mediation. The Attorney General's, the Government's 
position was that the judge did not have--and still position is 
did not have the ability to adjudicate this dispute at all, and 
we said it was premature to talk about settlement as to the 
actual document request until she made a determination that she 
would and could decide.
    Mr. Conyers. Mr. Chairman?
    Mr. Issa. And that remains the House----
    Mr. Conyers. Could we have regular order? We are short of 
time now. With all due respect to the distinguished Chairman.
    Mr. Issa. I just think that a case under--that affects the 
House and its ability to do its business needed to be properly 
defined.
    I thank the Chairman.
    Mr. Goodlatte. I think that is now part of the record, and 
both gentlemen's points are well taken.
    Attorney General Holder. Well, let me just say this. There 
was information that I just shared, but I perhaps should not 
have. This was apparently something that the judge shared. 
Well, all right. Let me just stop there.
    Mr. Goodlatte. The Chair now recognizes the gentleman from 
North Carolina, Mr. Holding, for 5 minutes.
    Mr. Holding. General Holder, it is good to see you. During 
my tenure in the United States attorney's office, I served with 
four Attorney Generals, including yourself, and during the 2 
years that our service overlapped, I always felt you were very 
supportive to our mission in North Carolina and to the law 
enforcement community.
    I was somewhat surprised, taking you back about 2\1/2\ 
hours ago, you mentioned that you spoke to the chief district 
judges here in Washington, and you gave a speech. And in your 
comments, you criticized the length of Federal prison sentences 
that were being handed out in some instances. And although I 
don't have a text of the speech, maybe you could provide that 
text.
    I did see that in April, you made similar remarks to the 
National Action Network. Specifically, you stated that too many 
people will go to too many prisons for far too long for no good 
law enforcement reason and that sentences too often bear no 
relation to the conduct at issue, breed disrespect for the 
system, and are ultimately counterproductive.
    Now, candidly, I would expect to hear those remarks more 
from maybe the chief Federal public defender rather than the 
chief Federal law enforcement officer. And for the thousands of 
cases that went through the Eastern District of North Carolina 
when I was there, I can think of none that got a prison 
sentence that was too long.
    So if you could elaborate just a bit on which criminals are 
you referring to that are getting too long of a prison sentence 
in the Federal system?
    Attorney General Holder. Yes, I view my responsibility as 
larger than simply being the chief prosecutor. It seems to me 
that an Attorney General--and not just me, the office of the 
Attorney General has a responsibility to the system.
    And the observations or the comments that I made in that 
National Action Network speech, I don't--with regard to the 
judges, I don't have a text. That was extemporaneous. Are what 
I feel, that if you look at particularly people who got 
sentenced to long prison sentences in drug cases that are more 
a function of the weight that was involved in a drug case, as 
opposed to that person's role in the drug scheme.
    I think Judge Gleason is his name, in New York, has made 
the same observation, and I think that, you know, these 
mandatory minimum sentences that we--that we see, particularly 
in drugs, particularly when it comes to drugs, I think are 
unnecessarily long and don't actually go to the purposes of 
sentencing, that is deterrence and rehabilitation.
    Mr. Holding. But General Holder, you know as well as I do 
that by the time a defendant ends up in Federal court, they 
usually have been through the State process numerous times.
    Attorney General Holder. Well, that's not always the case.
    Mr. Holding. It's predominantly the case that they will 
have been through the State system numerous times. And I think 
particularly in light of prosecuting felons in possession of a 
firearm. In the Eastern District of North Carolina in 2002, we 
prosecuted approximately 50 of those cases. We ramped them up 
to about 300 a year and consistently did 300 a year, average 
prison sentences of approximately 10 years.
    These are cases which you can do in large numbers and have 
significant impact not only with prison sentences, but with 
deterrent value as well. And I am concerned that the Department 
of Justice under this Administration has slacked off on making 
that a priority, of prosecuting felons in possession of 
firearms.
    And I am concerned that the numbers are falling, and I know 
that this Committee has asked to get specific numbers of 922, 
924 cases, and I don't understand why it is taking so long to 
get them. Because unless you have changed the software in the 
last 20 months since I was a sitting U.S. attorney, you can 
have those statistics in a matter of minutes by culling them 
through the line system.
    So are the numbers falling, and will you please produce the 
numbers to the Committee as soon as you can?
    Attorney General Holder. We'll provide you with those 
numbers, but there has not been a policy decision to 
deemphasize those cases. I actually think that when it comes to 
the use of mandatory minimums that felon in possession cases, 
that's actually a place where mandatory minimums are 
appropriate.
    Mr. Holding. Are the priorities--prosecution priorities of 
the Department of Justice under review right now?
    Attorney General Holder. With regard to the gun cases?
    Mr. Holding. All the priorities of prosecutions in the 
Department of Justice, are the U.S. attorneys putting those 
under review right now through the AGAC?
    Attorney General Holder. Yes, I have a working group 
working with the AGAC to look at our prosecution priorities, 
yes.
    Mr. Holding. And will you keep the Committee apprised of 
what you determine that the priorities ought to be at the 
Department of Justice for prosecution?
    Attorney General Holder. I'd be more than glad to have a 
dialogue with the Committee in that regard.
    Mr. Holding. Thank you.
    I yield back.
    Mr. Goodlatte. The Chair thanks the gentleman and 
recognizes the gentleman from Georgia, Mr. Collins, for 5 
minutes.
    Mr. Collins. Thank you, Mr. Chairman.
    I appreciate you being here, Mr. Attorney General. It is 
the first time you and I have had a chance to talk. I have 
listened here. One of the advantages of being on the bottom row 
here, you get to hear everybody else ask questions and also 
hear your answers.
    And I think your answers today to me have been enlightening 
in some ways and very discouraging in others. And I think some 
of it is you have said on several times, and I will go back to 
some of your statements today.
    You made a quote when you were quoting I believe then-
President Clinton, talking about the era of big government is 
over and a good government will endure. I think the problem 
that I have here is that I agree with you. Good government 
should be a limited form of government.
    And I think what we have seen over the past week or so has 
really shook the foundations again of discussing this issue of 
limited government. When we understand this, and especially in 
your agency right now, as we look at this, you have said on a 
couple of occasions. I marked it down. You may have said it 
more, if you did. So you started about the role of the 
executive.
    That is the role of the executive. That is what we are 
supposed to be doing. Is that a fair statement that you said 
that on several times today?
    Attorney General Holder. Yes, I said that, but I think I 
was saying that in reference to who in the Government ought to 
be deciding matters----
    Mr. Collins. I understand. It is the role of the executive. 
Correct? But there is a role for Congress. Correct?
    Attorney General Holder. Absolutely.
    Mr. Collins. And that is why you are here today.
    Attorney General Holder. Absolutely.
    Mr. Collins. Because this Committee has oversight over your 
department. Correct?
    Attorney General Holder. I didn't show up here because I 
really wanted to.
    Mr. Collins. Well, that has been---- [Laughter.]
    And that has been painfully obvious in some of the ways you 
have answered some of the questions. So, I mean, as we come by 
here, the problem is, though, is that is the checks and 
balances.
    Attorney General Holder. Absolutely.
    Mr. Collins. Sure it is. That you come here, you answer 
questions, and we are the constitutional oversight, to have 
oversight, budgetary control and oversight of what goes on and 
ask these questions. And these are not asking questions from up 
here--at least from my perspective, as I have made comment 
before. The people of north Georgia in the Ninth District in 
which I am from, many times they just want the truth.
    And they are frustrated right now that they don't get the 
truth, and they keep hearing other issues that come up on 
threatening to them and the very sanctity of what they believe, 
whether it be the IRS or the issues with the reporters or a 
litany of issues we have talked about today.
    The question that I have is this being the Committee in 
which is oversight that you need--that you come to, and this 
will be maybe the first but probably not the only time we will 
talk in this capacity, is it concerns me the lack of 
preparation or at least perceived lack of preparation which you 
come here today.
    And Ms. Lofgren from across the aisle made a statement 
about did you put it in writing? And we have had this 
discussion about your recusal, and your answer to that was that 
``I don't think I put it in writing. I am not sure.''
    Did you not think those questions were going to be asked of 
you today? That when you recused yourself from this, when you 
were actually--did you just honestly think those would not be 
asked today?
    Attorney General Holder. I didn't think about whether or 
not you were going to ask me that question at--one way or the 
other, but I wanted to----
    Mr. Collins. You are kidding me? You come to this Committee 
today with these issues like they are right now----
    Attorney General Holder. Would you let me finish, 
Congressman? What I said--what I was going to say was that I 
asked my own people whether or not----
    Mr. Collins. Mr. Attorney General? Mr. Attorney General, I 
reclaim my time for just a second.
    Attorney General Holder [continuing]. There was a written--
--
    Mr. Conyers. Mr. Chairman?
    Mr. Richmond. Mr. Chairman, can you state your ruling again 
on who controls the time?
    Mr. Goodlatte. The time is controlled by the gentleman from 
Georgia.
    Attorney General Holder. He can have extra time. Let me 
just answer the question.
    Mr. Collins. Mr. Attorney General, you don't control the 
time here.
    Attorney General Holder. I'm willing to give--okay. That's 
fine.
    Mr. Collins. My question is this. As I come back to this, 
did you not honestly----
    Mr. Conyers. Mr. Chairman, could the witness have a 
chance----
    Mr. Goodlatte. The witness will have a full opportunity to 
respond, but the gentleman from Georgia has the opportunity 
first to ask his question.
    Mr. Richmond. Mr. Chairman, just to make a point. The 
Attorney General stayed here extra time to make sure that 
everyone had a chance to ask their question. Considering the 
fact that he is still here past his time, why can't he answer 
the question that is posed to him?
    Mr. Goodlatte. He will get an opportunity to answer the 
question just as soon as Mr. Collins finishes posing his 
question, and we will give him extra time after Mr. Collins' 
time has expired, just as we have done for the Attorney General 
on several occasions.
    Ms. Jackson Lee. Mr. Chairman, may I just a moment? I would 
appreciate it. I know that some of us have deep bass-like 
voices, might sound that we are not being friendly and happy. 
But I would appreciate a little civility in the questioning of 
the Attorney General as we proceed to the conclusion.
    I yield back.
    Mr. Goodlatte. The gentleman from Georgia may proceed.
    Mr. Collins. I thank you, Mr. Chairman.
    And I will pose it. I just have just a simple question. It 
was amazing to me that the question was did you not think that 
you would be asked about maybe the timeline on when you might 
have recused yourself because you also said at one point you 
recused yourself before subpoenas. Or there was some question 
even in your own dialogue about when you actually did this.
    So I am just asking a simple question, as the others on the 
other side, they got to ask their questions. I am now asking 
mine. Did you not think that someone on this panel would have 
asked you those questions?
    Attorney General Holder. I did not know whether anybody 
would ask me that question. But irrespective of that, I thought 
that was an important factor, an important fact, and it was one 
of the reasons why I asked my staff to find out, irrespective 
of what was going to happen up here today, whether or not there 
was in writing a recusal.
    I asked that question myself, thinking that it was an 
important question. I did not know. I don't know what you all 
are going to ask me. So that's why I was saying I didn't know 
whether or not you were going to ask the question.
    But I thought it was an important one and one that I put to 
my staff.
    Mr. Collins. In light of the impartation of my time, I do 
have one question on that regard. Have you recused yourself--in 
using your recusal, have you put that in writing before?
    Attorney General Holder. I'm not sure about that. In Mr. 
Holding's case, the Edwards case, I recused myself in that 
matter. I've recused myself in other cases because my law firm, 
my former law firm was involved in those cases.
    I'm not sure that those are in writing, but I do think, as 
has been raised--I don't remember what congressman--that 
putting these things in writing would--I think might be the 
better practice.
    Mr. Collins. Mr. Attorney General, I appreciate your 
answers to the question. And this is an issue that needs to be 
dealt with. It is just amazing, again, as you have stated, 
there is a role of the executive. And there is a role of----
    Mr. Richmond. Mr. Chairman, point of order. Is that light 
red right there?
    Mr. Goodlatte. The gentleman's time was interrupted 
considerably by a debate over whether or not he was entitled to 
ask his question. So he can complete this question, and the 
Attorney General can answer it.
    Mr. Collins. And I did not interrupt the gentleman from 
Louisiana in his questions. So I would just appreciate the 
opportunity to close, and the opportunity to close is I 
appreciate your answers. We are going to ask more of these 
questions, and these are the roles that we both, in your role 
and our role, play.
    And with that, Mr. Chairman, I yield back.
    Attorney General Holder. Well, that's fine. And look, I 
respect the oversight role that Congress plays. This isn't 
always a pleasant experience. It's one that I recognize that 
you go through as an executive branch officer.
    The one thing I've tried to do is always be respectful of 
the people who've asked me questions. I don't, frankly, think 
I've always been treated with a great deal of respect, and it's 
not even a personal thing. If you don't like me, that's one 
thing. But I am the Attorney General of the United States, and 
this is the first time you and I have met. So I'm certainly not 
referring to you or any of the questions you've just asked.
    But I think that is something that is emblematic of the 
problem that we have in Washington nowadays. There's almost a 
toxic partisan atmosphere here where basic role--levels of 
civility simply don't exist. We can have really serious 
partisan fights, disagreements about a whole variety of things, 
but I think people should have the ability, especially in this 
context, to treat one another with respect.
    I've tried to do that. Maybe I've not always been 
successful, but I certainly know that I have not been treated 
in that way all the time.
    Mr. Goodlatte. The time of the gentleman has expired. The 
Chair recognizes the gentleman from Florida, Mr. DeSantis, for 
5 minutes.
    Mr. DeSantis. Thank you, Mr. Chairman.
    Mr. Attorney General, I am going to talk about credibility 
and accountability because I think this is kind of something 
that is underneath all of these issues we have been dealing 
with. And as I understand your testimony today with this AP 
case, something that bothers me is that by your own admission, 
this is one of the most serious leak cases in the past 40 
years.
    Your comments yesterday, you said it put the American 
people at risk. And yet, as you testified today, you don't know 
when you recused yourself. You have no record of you recusing 
yourself, and you didn't tell the White House that you recused 
yourself.
    And that bothers me because that explanation, one, I think 
is insufficient and, two, it insulates you and it insulates the 
President from any accountability about what happened. So is 
this really the best you can do in terms of explaining what you 
did for one of the most serious cases that you have ever seen 
in your professional life?
    Attorney General Holder. As I said, with regard to the 
question of how recusals are memorialized, I think a written 
response would make a great deal of sense. But the notion that 
I would share with the White House information about an ongoing 
criminal investigation is simply not something that I, as 
Attorney General, unless there is some kind of national 
security--serious, serious national----
    Mr. DeSantis. Which there was. By your own admission, it 
put the American people at risk. Correct?
    Attorney General Holder. But we are talking about a limited 
group of people who had access to this information, some of 
whom were in the White House. And so, the notion that I would 
share that information with the White House, I didn't share 
this information with people in the Justice Department. I mean, 
it was----
    Mr. DeSantis. But the people in the Justice Department, 
with all due respect, are not responsible for protecting the 
American people. The President is. So we just have a 
disagreement on that. Now in terms of----
    Attorney General Holder. No, the Justice Department, we are 
responsible for protecting the American people.
    Mr. DeSantis. The buck stops with the President in terms of 
a serious risk to the American people. I understand they have 
duties to enforce the law. They are important duties. But 
ultimately, the President is who we rely on.
    Now in terms of with this Internal Revenue Service issue. 
Do you agree--I mean, you are the head lawyer in the entire 
country and your office, you are, due respect for your office. 
Do you acknowledge that the IRS is a part of the Treasury 
Department, and it is accountable to the President and that it 
is not an independent agency?
    Attorney General Holder. Technically, I don't know. I've 
heard that it's an independent agency. There is some kind of 
reporting responsibility within Treasury. Exactly how that is 
defined, I don't know.
    Mr. DeSantis. You have been in law for 40 years. You're one 
of the most accomplished in terms of the positions you have 
had, and you don't know whether the IRS is a part of Treasury, 
whether the IRS Commissioner is responsible to the President, 
or whether it is considered an independent agency? You really 
don't know the difference between those?
    Attorney General Holder. I didn't say that. I said the IRS, 
as I understand it, is a part of the Treasury Department. The 
IRS Commissioner is independent, but is appointed by the 
President to a fixed term.
    Mr. DeSantis. And can be removed at the will of the 
President, correct, per Federal statutes?
    Attorney General Holder. All executive branch employees can 
be removed by the President.
    Mr. DeSantis. Okay. So then it is not an independent 
agency, right? Is it--can we just understand what it is?
    Attorney General Holder. I'm not sure where you're going 
with this question. If you're trying to put what the IRS did 
into the White House, that's not going to work.
    Mr. DeSantis. No, is it an independent agency? Yes or no.
    Attorney General Holder. It is an independent agency that 
operates within the executive branch.
    Mr. DeSantis. Well, that is completely begging the 
question. See, the President and his press secretary have 
said----
    Attorney General Holder. No, that's an accurate answer.
    Mr. DeSantis [continuing]. That it is an independent 
agency, that it is outside the purview of the executive branch. 
And my point is, yes, maybe the President is not micromanaging 
every decision, but that IRS Commissioner is accountable to the 
President, and the President can remove that individual.
    If the agency was truly independent, then the President 
would not have that authority to remove that individual. And 
so, I think we need to be clear when we are making statements, 
and you haven't made that statement before today. But the White 
House press secretary and the President did, and I just don't 
think it was accurate.
    One more thing, with these Benghazi----
    Attorney General Holder. Was there a question? Do you have 
a question? Okay. I'm sorry. Go ahead.
    Mr. DeSantis. With Benghazi terrorists, I know nobody has 
really been brought to justice for this. I know the FBI was 
over there investigating. At this point in time, is this your 
purview to bring those people to justice, or is it a military 
issue? Who is in charge of exacting justice for the terrorists 
who killed four Americans?
    Attorney General Holder. It's my responsibility. It's 
ultimately, I think, my responsibility. And I mean, it's now, 
what, 5--7 minutes after 5 p.m. on whatever today's date is. 
And as of this date, this time, I am confident and proud of the 
work that we have done in determining who was responsible for 
the killings in Benghazi.
    Mr. DeSantis. But there has not been any action taken to 
bring them to justice?
    Attorney General Holder. None that I can talk about right 
now.
    Mr. DeSantis. Okay. Very well.
    Thank you, Mr. Attorney General.
    Mr. Chairman, I yield back the balance of my time.
    Attorney General Holder. Let me just say that in response, 
add to that last response, that because I'm not able to talk 
about it now does not mean that definitive, concrete action has 
not been taken. That should not be read that way.
    We have been aggressive. We have been--we have moved as 
quickly as we can, and we are in a good position with regard to 
that investigation.
    Mr. DeSantis. Could I just--5 seconds to follow up, Mr. 
Chairman?
    Mr. Goodlatte. The time of the gentleman has expired.
    Attorney General Holder. That is okay. That is okay.
    Mr. Goodlatte. The Attorney General is going to give you 5 
seconds.
    Mr. DeSantis. Can you say whether the concrete action----
    Attorney General Holder. He has to call me ``Mr. 
Chairman,'' though.
    Mr. DeSantis. Can you say whether the concrete action is 
law enforcement based or in terms of military based being a 
kinetic response?
    Attorney General Holder. I can say that within the purview 
of the things that we do in the Justice Department, definitive 
action has been taken.
    Mr. Goodlatte. Now the time of the gentleman has expired, 
and the Chair recognizes the gentlewoman from Texas for her 
unanimous consent request.
    Ms. Jackson Lee. Mr. Chairman, thank you for your 
courtesies. I am glad we are ending on a smiling note.
    I have three documents. My first document is AA--this is 
the title of it. AAG Perez Restores Integrity to the Voting 
Section. OIG Confirms Nonpartisan. Merit-Based Hiring Has 
Returned under AAG Tom Perez.
    I would ask unanimous consent to put that in the record.
    Mr. Goodlatte. Without objection.
    [The information referred to follows:]
 
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                               __________

    Mr. Issa. I would reserve. We haven't seen these documents. 
Can the gentlelady make the documents available?
    Ms. Jackson Lee. I certainly will.
    The second document is Loving All Our Neighbors, Even Our 
Muslim Ones. The title is, ``Don't be so lazy to assume that 
the words of a group represents the entire group. They hardly 
ever do. Perhaps a better idea is to meet them, learn about 
them, and treat them as your neighbor.'' This is in USA Today, 
and the date is April 23, 2013.
    I ask unanimous consent to place in the record.
    Mr. Goodlatte. Without objection, so ordered.
    [The information referred to follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                               __________

    Ms. Jackson Lee. And I am asking to place in the record a 
statement on Medicare prosecutions as relates to minority 
hospitals and separating out monies that are not tainted by the 
investigation to allow those hospitals to treat indigent 
minority patients.
    I ask unanimous consent.
    Mr. Goodlatte. Without objection, that will be made a part 
of the record.
    [The information referred to follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                               __________

    Ms. Jackson Lee. I thank the gentleman for his courtesies, 
and I am smiling. Thank you very much.
    Mr. Goodlatte. The gentleman from California had reserved 
the right to object to the first request. So we are awaiting 
the gentleman's question and whether he is exercising his right 
to object.
    Mr. Issa. Yes, this is not public information, nor is it 
annotated. I would--I have no problem with the other two.
    Mr. Goodlatte. Well, the gentleman exercises his right to 
object to your----
    Ms. Jackson Lee. Can I have an inquiry further for the 
individual? What is he indicating that it is not public 
information? The OIG report, as I understand it, is a public 
document.
    Mr. Issa. Yes, and certainly if you want to put actual 
portions of the OIG report in, that is fine. The record of 
accomplishments, which is the second page here, as the 
gentlelady would understand, if the gentlelady wants to put in 
things about how great Thomas Perez is, we are perfectly 
willing to say yes. And if the gentleman doesn't mind, my 
putting in the entire report on his quid pro quo, his false 
statements made to Congress, and the other companion 
information which is the fruit of Committee work.
    Mr. Goodlatte. Is that a unanimous consent request?
    Mr. Issa. It is.
    Ms. Jackson Lee. Then----
    Mr. Goodlatte. Without objection, the gentlewoman's 
unanimous consent request will be granted.*
---------------------------------------------------------------------------
    *See page 116.
---------------------------------------------------------------------------
    And without objection, the gentleman from California's 
unanimous consent request will be----
    [The information referred to follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
        
                               __________

    Ms. Jackson Lee. And may I make--excuse me, Mr. Chairman. 
The gentleman was generous enough to say--and I thank the 
gentleman for his courtesies, he is generous enough to say that 
he had a report. We have a report, and we would ask unanimous 
consent for that report to be submitted as well.
    Mr. Goodlatte. Without objection, the report that the 
gentlewoman from Texas refers to will be made a part of the 
record.
    [The information referred to follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
            
                               __________

    Ms. Jackson Lee. And the report that the gentleman from 
California?
    Mr. Goodlatte. We have already covered that one.
    Ms. Jackson Lee. All right. That the gentleman has 
indicated an expanded report because he is putting in another 
report, Mr. Chairman?
    Mr. Goodlatte. Well, we are not putting in reports that 
don't exist. We are putting in reports that already exist. 
[Laughter.]
    Ms. Jackson Lee. No, this one exists. This one does exist.
    Mr. Goodlatte. And we have covered it.
    Ms. Jackson Lee. Thank you, Mr. Chairman.
    Mr. Goodlatte. Attorney General Holder, we thank you for 
the amount of time. As was noted by the gentleman from 
Louisiana, you spent more time than was requested.
    As you know, there is a lot of questions that Members have, 
and a lot of Members are not satisfied with all the answers. A 
number of questions are being submitted to you in writing. 
There are questions existing from previous correspondence that 
we would ask that you answer, and nothing would do more to show 
the respect that you referred to for this Committee than for 
you to answer those questions.
    And as Attorney General of the United States, I think it 
would reflect well on the respect that the Attorney General of 
the United States is entitled to, to see those questions 
entered, answered as a part of the separation of powers, 
operation of checks and balances that exist in the oversight 
responsibility of this Committee.
    I thank you again.
    Attorney General Holder. That's a fair point, Mr. Chairman. 
That's a fair point.
    Mr. Goodlatte. Without objection, all Members will have 5 
legislative days to submit additional written questions for the 
witness or additional materials for the record, if we don't 
have enough already.
    This hearing is adjourned.
    [Whereupon, at 5:15 p.m., the Committee was adjourned.]
                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

  Questions for the Record submitted to the Honorable Eric J. Holder, 
      Jr., Attorney General, United States Department of Justice*
---------------------------------------------------------------------------
    *The Committee had not received a response to these questions at 
the time this hearing record was finalized and submitted for printing 
on November 22, 2013.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 <all>

</pre></body></html>
